<html>
<title> - ``HELPING THOSE LEFT BEHIND: ARE WE DOING ENOUGH FOR THE PARENTS, SPOUSES, AND CHILDREN OF VETERANS?''</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   ``HELPING THOSE LEFT BEHIND: ARE WE DOING ENOUGH FOR THE PARENTS, 
                  SPOUSES, AND CHILDREN OF VETERANS?'' 

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON DISABILITY ASSISTANCE
                          AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 24, 2007

                               __________

                           Serial No. 110-16

                               __________

       Printed for the use of the Committee on Veterans' Affairs

                     U.S. GOVERNMENT PRINTING OFFICE

35-635 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




































                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     RICHARD H. BAKER, Louisiana
Dakota                               HENRY E. BROWN, Jr., South 
HARRY E. MITCHELL, Arizona           Carolina
JOHN J. HALL, New York               JEFF MILLER, Florida
PHIL HARE, Illinois                  JOHN BOOZMAN, Arkansas
MICHAEL F. DOYLE, Pennsylvania       GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota

                   Malcom A. Shorter, Staff Director

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JOHN J. HALL, New York, Chairman

CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado, Ranking
PHIL HARE, Illinois                  MICHAEL R. TURNER, Ohio
SHELLEY BERKLEY, Nevada              GUS M. BILIRAKIS, Florida

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.























                            C O N T E N T S

                               __________

                             April 24, 2007

                                                                   Page
``Helping Those Left Behind: Are We Doing Enough for the Parents, 
  Spouses, and Children of Veterans?''...........................     1

                           OPENING STATEMENTS

Chairman John J. Hall............................................     1
    Prepared statement of Chairman Hall..........................    41
Hon. Doug Lamborn, Ranking Republican Member.....................     2
    Prepared statement of Congressman Lamborn....................    41
Hon. Shelley Berkley.............................................    24

                               WITNESSES

U.S. Department of Veterans Affairs, Jack McCoy, Associate Deputy 
  Under Secretary for Policy and Program Management, Veterans 
  Benefits Administration........................................    35
    Prepared statement of Mr. McCoy..............................    64
                               __________
Clark, Amy, Bartow, FL...........................................    10
    Prepared statement of Mrs. Clark.............................    47
Ellsworth, Hon. Brad, a Representative in Congress from the State 
  of Indiana, presenting the statement of Ron Nesler, New 
  Harmony, IN....................................................     3
Gold Star Wives of America, Inc., Rose Elizabeth Lee, Chair, 
  Government Relations Committee.................................    25
    Prepared statement of Ms. Lee................................    53
Hazelgrove, Kimberly Dawn, Lorton, VA, and Member, Gold Star 
  Wives of America, Inc..........................................    16
    Prepared statement of Mrs. Hazelgrove........................    50
Heavrin, Matthew B., Redlands, CA................................    13
    Prepared statement of Mr. Heavrin............................    49
Jaenke, Susan, Iowa Falls, IA....................................     8
    Prepared statement of Ms. Jaenke.............................    46
Latham, Hon. Tom, a Representative in Congress from the State of 
  Iowa...........................................................     5
    Prepared statement of Congressman Latham.....................    45
National Military Families Association, Patricia Montes Barron, 
  Deputy Director of Government Relations........................    27
    Prepared statement of Ms. Barron.............................    56
National Veterans Legal Services Program, Christine Cote, Staff 
  Attorney.......................................................    29
    Prepared statement of Ms. Cote...............................    60
Nesler, Ron, New Harmony, IN, as presented by Hon. Brad 
  Ellsworth, a Representative in Congress from the State of 
  Indiana........................................................     3
    Prepared statement of Mr. Nesler.............................    42

                       SUBMISSIONS FOR THE RECORD

American Legion, Peter S. Gaytan, Director, Veterans Affairs and 
  Rehabilitation Commission, statement...........................    67
Ortiz, Hon. Solomon P., a Representative in Congress from the 
  State of Texas, statement......................................    70
Piestewa, Priscilla, Flagstaff, AZ, statement....................    70

                   MATERIAL SUBMITTED FOR THE RECORD

``The Forgotten Families: Grandparents Raising Slain Soldiers' 
  Children Are Denied a Government Benefit Intended to Sustain 
  the Bereaved,'' The Washington Post, February 16, 2007, by 
  Donna St. George...............................................    71
``Help Needed: Grandparents Raising the Children of Fallen 
  Soldiers,'' AARP Bulletin, April 2007, by Carole Fleck.........    74


   ``HELPING THOSE LEFT BEHIND: ARE WE DOING ENOUGH FOR THE PARENTS, 
                  SPOUSES, AND CHILDREN OF VETERANS?''

                              ----------                              


                        TUESDAY, APRIL 24, 2007

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:06 a.m., in 
Room 334, Cannon House Office Building, Hon. John Hall 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Hall, Lamborn, Rodriguez, Hare, 
Berkley, Turner, Bilirakis

               OPENING STATEMENT OF CHAIRMAN HALL

    Mr. Hall. And the Subcommittee will proceed with the 
hearing on helping those left behind, are we doing enough for 
parents, spouses, and children of veterans.
    And our first panel will be the Honorable Brad Ellsworth 
and the Honorable Tom Latham, who will both present testimony 
on behalf of their constituents.
    Let me just say before we go to our witnesses that I am 
pleased so many of you could attend this oversight hearing on 
this most important topic.
    I would like to call attention to the fact that several 
individuals interested in today's hearing have asked to submit 
a written statement for the record.
    If there is no objection, I ask for unanimous consent that 
those statements which have been submitted by the following be 
allowed to be inserted for the record and those requesting to 
insert statements are the Honorable Solomon P. Ortiz from 
Texas; Mr. Peter S. Gaytan, Director of the Veterans Affairs 
Rehabilitation Commission of the American Legion; and Ms. 
Priscilla Piestewa, I hope I am pronouncing that correctly, 
mother of Lori Piestewa, the first female casualty in Operation 
Iraqi Freedom/Operation Enduring Freedom (OIF/OEF).
    Hearing no objections, so entered.
    [The statements submitted for the record appear in the 
Submissions for the Record on p. 67.]
    Mr. Hall. As the title suggests, I would like this hearing 
to examine how effective our government has been in assisting 
the families of our veterans.
    I have noticed on several occasions that when we begin a 
discussion about taking care of veterans, we sometimes bypass 
or overlook the veterans' families. And when we do get around 
to the veterans' families, we are apt to apply a cookie-cutter, 
one-size-fits-all approach.
    For example, we assume that the veteran is a male and that 
the children live with both biological parents. However, this 
is not always the case. The current military is made up of many 
so-called mixed or blended families in which children do not 
necessarily live with one or both of their biological parents.
    Furthermore, the population of women serving in the 
military continues to grow. More than 160,000 women have been 
deployed to Iraq and Afghanistan. As of February 2007, over 143 
single parents have died in Iraq and the majority were women.
    As a result, we are witnessing a new phenomenon of 
grandparents raising grandchildren that have been orphaned due 
to the Iraq War. We will hear from some of those grandparents 
today.
    I also hope that today's hearing will allow the 
Subcommittee to look at how we can better assist those whose 
spouses have died on active duty. One recurring theme that I 
have heard on this topic is the difficulty in navigating the 
bureaucratic maze immediately after that servicemember's death.
    And I want to say at the outset that this is no critique of 
the U.S. Department of Veterans Affairs (VA) because I think 
they try to be helpful, but the nature of the dual system in 
which both the VA and the U.S. Department of Defense (DoD) 
provide benefits makes it very hard for an individual who has 
just lost a loved one.
    I would be interested in learning more about the proposed 
idea to create an Office of Survivors which combines VA and DoD 
resources in one location.
    In addition, I am concerned about those veterans who are 
facing a terminal condition and/or who die before the 
completion of their benefits claim. This is of great importance 
to the families of veterans, especially those of the Vietnam 
era who in many instances get overlooked because of the ongoing 
wars in Iraq and Afghanistan.
    I would like to know the current law with respect to an 
individual who files a claim but dies before the claim is fully 
adjudicated. Can the spouse or the children of that individual 
continue the claim. In the 108th Congress, legislation was 
introduced to permit such action. I am curious if such 
legislation is still necessary.
    I am also interested in learning more about possible fixes 
to Survivor Benefit Plans (SBPs) and Dependency and Indemnity 
Compensation (DIC), so spouses stop getting the short end of 
the stick.
    In closing, I would just like to say that when we speak 
about our veterans, we must always remember to include their 
families.
    And now I will yield to Ranking Member Lamborn for an 
opening statement.
    [The statement of Mr. Hall appears on p. 41.]

             OPENING STATEMENT OF HON. DOUG LAMBORN

    Mr. Lamborn. Thank you, Mr. Chairman, for recognizing me 
and for holding this hearing.
    We are here today to discuss how we can best care for the 
family members of our veterans. The emotional demands that 
descend onto their loved ones are immense and we have a sacred 
responsibility to help them bear that burden.
    In reading the witnesses' testimony, I have learned about a 
number of issues that are facing survivors and the failings of 
DoD and VA in this area.
    I was especially troubled by the situation that the Heavrin 
family has described in their testimony. Their daughter, 
Hannah, lost her life in Iraq. Because of the way her 
servicemember's group life insurance and indemnity compensation 
policies were written, her husband became the sole beneficiary. 
However, a son she has from a previous relationship receives 
nothing. Even worse, her current husband apparently has done 
nothing to help support the child.
    It is now up the Heavrin family to raise their grandchild 
and find the money to do so. I am not sure what course of 
action should be undertaken in this situation, but I suspect 
that something can and should be done to reduce the possibility 
that this happens to any other family.
    I am also very interested in the concerns of the Gold Star 
Wives and the National Military Family Association. Sitting 
here with these deserving families about to speak to us, I must 
note that this session we have heard promises to provide 
billions of dollars to valiant Merchant Marine and Filipino 
veterans of World War II. We have also noted dozens of other 
deserving veterans of that war such as the Woman Air Force 
Service pilots.
    These families have made great sacrifices for our freedom. 
It is my hope that as we consider compensation and other 
legislation, these families here today will also be accorded 
due consideration.
    I would like to thank the witnesses for their testimony. I 
know many of you have traveled from far away to come educate us 
on this issue, and I thank you. Thank you especially for your 
sacrifice and your fidelity to our Nation.
    Mr. Chairman, I yield back.
    [The statement of Mr. Lamborn appears on p. 41.]
    Mr. Hall. Thank you, Mr. Lamborn.
    Our first panel, Mr. Ellsworth and Mr. Latham, thank you 
for being here. And, Mr. Ellsworth, I will now recognize you 
for your statement.

STATEMENTS OF HON. BRAD ELLSWORTH, A REPRESENTATIVE IN CONGRESS 
FROM THE STATE OF INDIANA, PRESENTING STATEMENT OF RON NESLER, 
 NEW HARMONY, IN (CAREGIVER OF ADULT DEPENDENT); AND HON. TOM 
  LATHAM, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF IOWA

                STATEMENT OF HON. BRAD ELLSWORTH

    Mr. Ellsworth. Thank you, Mr. Chairman, Ranking Member 
Lamborn, the rest of the Subcommittee. I appreciate you holding 
this important hearing on all the aspects that you will hear 
about today.
    I would like to thank you on behalf of my constituent, 
Honey Sue Newby, and the Nesler family of New Harmony, Indiana. 
Today I will read a heartfelt testimony prepared by Honey Sue's 
stepfather, Ron Nesler.
    Mr. Nesler has detailed his family's daily struggle to 
provide care for Honey Sue as a complicated neurological 
disorder rooted in spina bifida.
    Honey Sue and the Neslers were invited to testify before 
your Committee today, but were unable to travel due to her 
condition and the constant care that she needs. And in the 
interest of time, I will read portions of his letter to the 
Committee, and I have submitted that for the record.
    And this is a quote from Mr. Nesler. I am Honey Sue Newby's 
stepfather, Ron Nesler. My wife, Suzanne Nesler, is Honey Sue's 
birth mother. Suzanne and I are Honey Sue's court-appointed 
guardians and full-time caregivers.
    Honey Sue is a beautiful 36-year-old child with complicated 
neurological disorders rooted in spina bifida. She requires 
around-the-clock aid and attendance care and extensive medical 
care.
    The VA concedes that Honey Sue's condition is the result of 
her birth father's exposure to Agent Orange while serving three 
separate 13-month tours in combat as a Marine rifleman in the 
Vietnam War.
    Honey Sue is very bright, happy, gregarious, but 
emotionally she operates at the 10- to 12-year-old level and 
always will. She is the greatest joy in our lives and we are 
grateful for the opportunity to care for her.
    When the VA's spina bifida program was started, her mother 
and I applied for VA compensation for Honey Sue. The VA 
acknowledges about 1,200 children of the Vietnam veterans have 
some degree of disability caused by spina bifida as related to 
the birth parents' exposure to Agent Orange in Vietnam.
    The children are rated as Level I through Level III 
according to their degree of disability with Level III being 
the greatest degree of disability.
    Honey Sue is one of the only two hundred out of the twelve 
hundred children rated as Level III. We are told by the VA that 
this is the approximate equivalent of a hundred percent 
service-connected disability rating for a military veteran 
themselves.
    All 1,200 children are paid monthly monetary compensation 
by the VA at this time. The amount of the monthly compensation 
is based on their degree of disability. As a Level III totally 
disabled Agent Orange spina bifida child, Honey Sue receives 
about $1,500 per month in VA compensation. A hundred percent 
disabled military veteran whose situation seems to mirror Honey 
Sue's situation exactly receives about $2,500 per month.
    Honey Sue and the other Level III children receive only 
scraps of very difficult to access healthcare coverage from the 
VA. And these bits and pieces of healthcare specifically 
exclude Honey Sue's greatest need which is aid and attendance 
care. The disabled veteran receives full medical care including 
aid and attendance when needed.
    Since Congress created the law recognizing the 200 Level 
III children as totally disabled as a direct result of the 
birth parents' military service, Congress should ensure full 
healthcare benefits including aid and attendance care for the 
children.
    Our greatest concern is that who will care for her and 
protect Honey Sue when her mother and I are gone. We feel the 
Congress owes a debt to provide full healthcare coverage for 
the Level III children including aid and attendance care. These 
children should receive the same care as provided for a hundred 
percent service-connected disabled veteran, no more and no 
less.
    We think the Congress intended things to be this way when 
the VA's spina bifida program was created. The government has 
admitted the total disability of these Level III kids as a 
result of their parents' military service. They should not have 
to fight for their medical care.
    The financial cost of paying the debt to these children 
would be very small due to the fact that there are only 200 of 
them. Ironically we feel the reason that this sad situation is 
allowed to persist is exactly that, that there are only 200 of 
the Level III children.
    We include with this testimony a legislative memorial 
passed by New Mexico's State Legislature. The memorial 
recognizes the plight of the Agent Orange spina bifida children 
and urges Congress to pay its debt to these children by 
providing full healthcare coverage and aid and attendance care 
through the VA's spina bifida program.
    We have included the copy of the memorial to demonstrate 
the others besides our family recognizing the lack of probable 
healthcare for coverage for the Level III children.
    This concludes Mr. Nesler's testimony. I would like to 
thank the Veterans Affairs' Subcommittee on Disability 
Assistance and Memorial Affairs for allowing me to testify in 
front of this group today.
    Honey Sue and the Nesler family asked me to thank you also 
for including their remarks and what you heard today.
    Thank you very much.
    [The statement of Mr. Nesler appears on p. 42.]
    Mr. Hall. I thank the gentleman from Indiana.
    And I forgot to mention before to the other Members of the 
Subcommittee that if you have an opening statement, you can 
have it inserted directly into the record so we get to 
questions. You need not feel that you have to start from the 
beginning of your statement.
    And now we will move to Congressman Latham.

                  STATEMENT OF HON. TOM LATHAM

    Mr. Latham. Chairman Hall, Ranking Member Lamborn, and 
Members of the Subcommittee, I am honored and privileged to 
have the opportunity to testify before you today and to 
introduce two of my constituents who will appear shortly.
    And may I inquire, are they going to be testifying 
immediately after?
    Mr. Hall. They will be in the next panel.
    Mr. Latham. OK.
    Mr. Hall. Would you like to bring them up next to you while 
you talk about them?
    Mr. Latham. Yeah.
    Mr. Hall. OK.
    Mr. Latham. Thank you.
    I will proceed while they----
    Mr. Hall. Could you introduce them to us, please?
    Mr. Latham. Sure. Excuse me?
    Mr. Hall. Could you introduce them to us? Is this Susan 
and----
    Mr. Latham. I will.
    Mr. Hall. OK. Thank you.
    Mr. Latham. OK. Thank you.
    This is Susan and Kayla Jaenke from Iowa Falls, Iowa.
    Mr. Chairman, many of our Nation's servicemembers are 
single parents who rely upon grandparents or their relatives to 
care for their children while they are deployed. It has been 
reported that out of the 3,323 U.S. servicemembers killed in 
the War on Terror, more than 143 were single parents.
    Unfortunately, the families of these soldiers have 
unintentionally been excluded from important benefits intended 
to help them.
    Under current law, the $100,000 gratuity paid upon a 
soldier's death must go to any surviving children if there is 
no surviving spouse. If the surviving children are minors, the 
money is put into a trust account according to the laws of 
their State which they cannot access until the age of 18.
    This oversight in the original law excludes grandparents or 
other relatives from access to the benefit of this payment to 
help raise the servicemember's children even if it was that 
servicemember's wish.
    As we will hear shortly, the Jaenke family from my district 
knows firsthand the difficulties these restrictions cause.
    To address this flaw in the death gratuity benefit, I have 
introduced House Resolution 1115. If enacted, this legislation 
would allow servicemembers the option of voluntarily 
designating a parent, brother, or sister who would have custody 
of the servicemember's children as the recipient of all or part 
of the death gratuity.
    For deaths occurring before enactment, the bill provides an 
opening for courts to redistribute death gratuity funds to 
caretakers if a clear expression of intent regarding the use of 
the funds was left by the servicemember.
    While the situation may not affect a large number of our 
men and women serving in the Armed Forces, I believe a change 
in the law is needed as a matter of fairness to our 
servicemembers who put themselves in harm's way and to their 
families.
    That is why I encourage the Subcommittee to give this issue 
its full consideration, and I look forward to working with each 
of you in furthering the cause of our Nation's veterans and 
their families.
    Now I would like to introduce Susan Jaenke from Iowa Falls 
and her granddaughter, Kayla.
    Susan's daughter, Naval Petty Officer, 2d Class, Jaime 
Jaenke, served as a Reservist with the Seabees. Tragically she 
was killed last summer while serving freedom's cause by a 
roadside bomb in Iraq. Our Nation will be forever grateful for 
Jaime's dedication and service and the sacrifice she made for 
our Nation.
    As Commander David Marasco said of Jaime during the 
memorial service for her last year, Jaime, quote, willingly 
accepted risk in order to put herself in a better position to 
help others, end quote.
    She was the type of dedicated soldier that we use as an 
example to our children and grandchildren when we talk about 
the definition of a true American hero.
    We welcome Susan and Kayla, and thank you for making the 
long trip from Iowa to share your personal story with my 
colleagues here today.
    And I thank you, Mr. Chairman.
    [The statement of Congressman Latham appears on p. 45.]
    Mr. Hall. Congressmen Latham and Ellsworth, you were our 
first panel. Would you like to answer some questions or would 
anybody here like to address the Congressmen directly or should 
we move directly to Susan and the rest of panel two?
    Mr. Hare. Mr. Chairman.
    Mr. Hall. Yes, Mr. Hare.
    Mr. Hare. I would just like Mr. Latham to know that I would 
be very interested in cosponsoring your bill. So if I can get a 
hold of your office later today, that would be great. I think 
it is a wonderful piece of legislation.
    Mr. Latham. Thank you very much.
    Mr. Hare. You are welcome.
    Mr. Hall. Mr. Turner.
    Mr. Turner. Mr. Chairman, similarly I would like to 
recognize Mr. Latham's efforts and indicate my support for his 
legislation.
    Mr. Hall. Not to be a copy-cat, but I also say the same 
thing.
    Mr. Rodriguez also.
    Mr. Rodriguez. Yes. Let me just thank you for bringing that 
forward because there is no doubt that that needs to be 
corrected, so congratulations to you and thank you for bringing 
that forth.
    Mr. Latham. It is because of them.
    Mr. Hall. Well, Congressmen, we get to see you all the 
time, so we will save our questions for you for later. And in 
the interest of alacrity, we will move on.
    Susan, you can stay where you are and we will excuse our 
distinguished two gentlemen from the Congress here and move on 
to panel two which includes Amy Clark and Kimberly Hazelgrove.
    You are welcome to stay, Mr. Latham.
    Oh, I am sorry. And Matthew Heavrin.
    As I understand it, we may be joined by Congressman Jerry 
Lewis. And if he arrives, we will just have him join our panel.
    Susan Jaenke, would you like to start us off, please.

STATEMENTS OF SUSAN JAENKE, IOWA FALLS, IA (MOTHER OF DECEASED 
  VETERAN AND GUARDIAN OF GRANDCHILD); AMY CLARK, BARTOW, FL 
    (SPOUSE OF TERMINALLY-ILL VETERAN); MATTHEW B. HEAVRIN, 
   REDLANDS, CA (FATHER OF DECEASED VETERAN AND GUARDIAN OF 
GRANDCHILD); AND KIMBERLY DAWN HAZELGROVE, LORTON, VA, (WIDOW) 
          AND MEMBER, GOLD STAR WIVES OF AMERICA, INC.

                   STATEMENT OF SUSAN JAENKE

    Ms. Jaenke. My name is Susan Jaenke. This is my 
granddaughter. She is 9 years old. She is watching a movie. It 
is a good thing. It is a good thing.
    On June 6th, I got about the worst news that any parent 
could ever get. My daughter, Jaime, was killed in Anbar 
Province, Iraq. I had no idea what would happen after that. We 
were treated very well by our CACO Chief Erdman.
    As the days went by and things progressed, we found out 
that there was a $100,000 gratuity that was supposed to have 
come to me, but because of a clause that was put into this we 
could not get this gratuity. What happened after that is a 
nightmare that I do not like to relive, but I am going to for 
you.
    The bills that Jaime had, had to come from somewhere. They 
came out of my pocket. They had to be paid. I did not have that 
$100,000 that was supposed to come to the families.
    After that, I was told I had to get Social Security for 
Kayla. That took three months. In that 3 months, I had no money 
whatsoever because everything went into bills to pay back for 
whatever she had.
    We had in that 3 months, we had two vehicles repossessed 
because I could not afford them. I could not afford to buy 
groceries. I could not afford to do anything. I had no money.
    By the time Social Security came, I had it, I did not have, 
I had it, I did not have it. Finally by September, I got it. By 
that time, I was 3 months in debt with my house payment. I was 
behind on my electric bills and I had a little girl that had to 
go to school. And that takes a lot of money to get her ready 
for school.
    If it had not been for the organizations, the MN Seabee 25, 
the Seabees and other Seabee units that came forward and got us 
money and Congressman Latham who let us vent on him and who let 
us vent on his people, I do not know what would have happened.
    By January, I could not afford anything. There was no money 
at all for Christmas. I had nothing. If it had not been for a 
VFW group that gave us $1,000, we would not even have had a 
Christmas.
    In between all that, I had to work with Defense Financing 
and Accounting Center (DFAC) and I had to work with the VA. 
Calling Millington became such a terrible thing you cannot 
imagine. The people in Millington, I kept the record beside my 
telephone book and I put down names of people in Millington not 
to ever speak to again and people that I could speak to.
    I finally tracked down the person that was supposed to get 
us money from DFAC. He said he had the papers on his desk and 
it would take 30 days. That 30 days is kind of a mantra from 
these people. You are kind of afraid after a while to ask when 
that 30 days begins. You are afraid they are going to say the 
second Tuesday of next week.
    The gentleman that I tracked down in Millington that had 
Kayla's paperwork, he said give him a call in 2 weeks and he 
would tell me how long it would take before the benefits would 
come from them.
    In two weeks, I called him back. He said he never got the 
papers. I called him back again and he said, well, I will fax 
you the papers. He faxed me the papers. I filled them out, sent 
them back to him.
    Two weeks I waited again. He called me up and he said I 
have got three sets of papers that you filled out, what are you 
trying to pull. And he was very angry with me because now he 
had three sets of the same paperwork that I filled out sitting 
on his desk and he thought that I was trying to pull something 
and get more money. It was not that. It was not that at all.
    I had one lady in Millington that made me feel so bad that 
I interrupted her day that I actually apologized to her for 
trying to get benefits for my granddaughter.
    I got off the phone and I just shook my head. I thought, 
oh, my goodness. I am apologizing to a woman because I 
interrupted her day and she was supposed to be helping me. I 
could not believe it.
    I had a Commander that we got in touch with that was in 
charge of some of the money that Kayla was supposed to get. He 
said after giving me his sympathy, he told me about himself, 
that his daughter could not have what she wanted because he had 
gotten through a divorce and Kayla would have to learn to deal 
without and do without.
    And to me that was just disgusting because Kayla lost a 
mom. His daughter might not have been able to have everything 
she wanted because he went through a divorce, and I could care 
less about his divorce, but here he was telling me that Kayla 
would have to do without. His daughter still had her mom and 
dad. His daughter still had siblings. My granddaughter has got 
nothing.
    These are some of the things that I have run across. The 
bright areas have come from people like Congressman Latham's 
office that put in this bill for us which, please, please help 
us get through.
    My granddaughter does not need to do without. My daughter's 
business that she started does not need to do without. This is 
not right.
    My daughter, when she passed away, left this money to me 
and you know what? It is kind of like a will. This is what she 
wanted. Maybe she did not understand it. I do have a letter 
from her telling me what to do and how to spend that $100,000, 
how to invest Kayla's money, and her money comes from that 
insurance policy. And I have done all that for her.
    The $100,000 I cannot do for her because of this clause 
that is in there. Please, gentlemen, do not ask my 
granddaughter to do without anymore.
    [The statement of Ms. Jaenke appears on p. 46.]
    Mr. Hall. Thank you, Ms. Jaenke.
    And thanks to your daughter, Jaime, for her service and 
sacrifice, and all of your sacrifice for our country.
    Ms. Jaenke. Thank you.
    Mr. Hall. And I have two things to say. One is on behalf of 
our government, I want to apologize to you and to Kayla. I am 
really sorry you had to go through this.
    And we will do what we can to try to make sure that your 
problems are resolved, but perhaps as importantly, to make sure 
that there are not more cases like yours which cannot be what 
the American people intend or Congress intends, but more likely 
is the outgrowth of the mine field of bureaucratic mazes and 
turf delineations and fiefdoms that we are trying to sort our 
way through.
    I also would ask you before we go on to our next witness if 
you would be willing to share in writing or not or after the 
meeting the names of the staff that you spoke to who were not 
helpful to you.
    And, Congressman Latham, would you like to comment further?
    Mr. Latham. No.
    Mr. Hall. OK. Well, ordinarily we would go through the rest 
of the witnesses and then come back, but if you would like to 
address Ms. Jaenke briefly?
    Mr. Hare. I do. I just want to say a couple things in your 
testimony. There is never a need for you to ever apologize ever 
to anybody for interrupting their day. They have absolutely no 
idea what you went through and most people never will.
    And I just made another note. When you said your 
granddaughter has nothing, she indeed does. She has you and she 
is incredibly lucky. And I will tell you----
    Ms. Jaenke. I am the lucky one, sir. I am the lucky one.
    Mr. Hare. She is a beautiful young lady. And let me just 
say this to you too. The $100,000 is, you know, a stipend. What 
value do you ever place on somebody's life? And I will just say 
this to Representative Latham again, the bill, this is 
something you do not have to beg us for. I mean, we owe this to 
you and to other people who have done this.
    And so I am honored just to be on this Committee this 
morning. I am glad I made it and I will tell you that we will 
do everything we can to get this remedied. Thank you.
    Ms. Jaenke. Thank you.
    Mr. Hall. We will probably have more questions for you 
later, but first we will hear from the other two witnesses.
    Ms. Amy Clark. Good morning. Could you speak into the 
microphone? Push the button to make sure it is on.

                     STATEMENT OF AMY CLARK

    Mrs. Clark. I am here to speak on behalf of all veterans, 
not just my husband, Russell E. Clark, who is a Vietnam veteran 
himself.
    I at the time did not know what Vietnam was as I was a 
child, so, therefore, I did not live Vietnam. But I am now 
living Vietnam each and every day of my life with my husband, 
Russell.
    I cannot tell you how much it pains me to see a once 
vibrant man now just a skeleton of what he used to be and I 
would like you to please take a look at these pictures of my 
husband as he was before and as he is now.
    On January 8th, 2007, my husband, Russell, was in the 
hospital. I went in to see him not knowing what was going on. 
There was a card from a doctor at a bedside table. I called the 
doctor. He said, Mrs. Clark, I am so sorry to tell you your 
husband now has lung cancer.
    And I said to the doctor, well, since you have now ruined 
my anniversary, my day in my life, why don't you just tell me 
how bad the situation really is. He declined to do so saying he 
would speak to us at a later date which was the next day.
    Of course, totally distraught, I went in to my husband on 
our anniversary like nothing was wrong and he said what did the 
doctor want. I said he wants to speak with us tomorrow.
    The problem with the VA is there is too much red tape when 
a situation such as this arises. My husband is terminal and has 
very little time left. That is why claims sit on someone's desk 
or just get completely ignored until it is too late.
    And as my husband said to a reporter and some friends, my 
wife is like a bulldog on someone's butt and she is not getting 
off any time soon. OK.
    There is a bureaucratic double speak. This phrase I take 
from the Lakeland Ledger dated Sunday, April 15th, 2007.
    Yes, the VA offers you a book on benefits that you may be 
entitled to, but just try and get those benefits. It is 
ridiculous. There are so many forms and questions to answer 
even for the most minimal benefits.
    I can tell you that to date I have over 400 pages of 
documentation that I have turned to the VA just for Mr. Clark, 
thus leading to the next point that the system must be changed 
so that justice can be given to all veterans and their families 
without the bureaucratic red tape.
    The paperwork is so overwhelming. There is no communication 
set up to help a civilian such as myself to understand what 
needs to be done. I have spent countless days without sleep, 
nights without sleep, searching the Internet.
    However, I was fortunate enough to run into Ernie Roberts, 
a Bartow, Florida, Veteran Service Officer, and Donna Adams in 
Congressman Adam Putnam's office which have helped me to 
overcome some of these hurdles that I have had to overcome.
    I have had to quit my job and college to stay home to care 
for my husband who needs care 24 hours a day, 7 days a week. I 
am the one doing the care and I left him to come here to be 
able to speak with you.
    I cannot speak to the VA unless they speak to Mr. Clark 
first which, quite frankly, at times is difficult for anyone to 
speak to Mr. Clark because he is on such heavy medication due 
to his cancer. OK? And I am speaking for Mr. Clark as well as 
other veterans.
    Mr. Clark has requested me to be his fiduciary. I have been 
turned down every single day for months, been told by certain 
Members of the Florida Department of State Veterans Affairs, 
well, you need to have this approved by a judge.
    I called the judge, personal friend, and I called a lawyer, 
read them the form, and said it does not say anything about 
that. They have also threatened to take away some of the 
benefits that they have given him while the fiduciary is 
granted. How ridiculous is this?
    The older veterans, especially Vietnam veterans, have been 
shoved under the carpet for many years. And the veterans now 
coming home seem to get their benefits more quickly. This is 
wrong.
    No one should have to produce documentation, such as a 
morning report, which is what I was requested to do. Needless 
to say, Mr. Clark does have a morning report which civilians 
may not be familiar with what that is.
    The nonsense about having this medal or that medal is 
totally ridiculous when, in fact, John Kerry threw his medals 
over the fence at the White House quite some time ago for all 
the world to see.
    When a veteran has a DD214, that should be sufficient 
information to show what time they put in the service and where 
they were. Does it not matter what their job was? Of course 
not. They gave so that we may live in the United States of 
America, land of the free and home of the brave.
    Life insurance policy issued by the Veterans' Life 
Insurance Co. must be changed so that they can be assignable to 
a funeral home. My husband is going to pass away very shortly. 
I do not have that kind of money. The life insurance policies 
they issue are unassignable, so what do I do to bury my 
husband? I do not have that money. Do you have it?
    Buddy letters should not be requested because there are too 
many veterans that have been killed in action or have died 
along the way. This is just someone's idea of a joke.
    Mr. Clark has been fighting a separate issue for PTSD for 
many, many years. OK? And, yet, Mr. Clark has been denied his 
PTSD. Mr. Clark has documentation in his possession from the 
veterans' hospital in Tampa, Florida, stating his main 
diagnosis is PTSD. Imagine that?
    One of the things stated in the documentation is you do not 
have all the symptoms. Well, if I am depressed, do I have to 
have all the symptoms of depression to be depressed?
    The issues of the stressors that I am told that the VA 
looks for just seems to be more bureaucratic double speak. I 
was told the stressors could be things like gunfire, picking up 
dead bodies, shooting women and children, and so forth. And Mr. 
Clark himself was part of an assassination. If that is not a 
stressor, I do not know what is.
    Then they come up with new stressors stating that if they 
have heart disease or have had strokes, and so forth, then that 
is another stressor that leads to PTSD.
    They claim they are too overworked and too underpaid to 
handle all of these themselves, so why put up a stink when it 
comes to the documentation? If the documentation is presented 
even from a civilian physician, that should be proof enough.
    I was told I could get a rent a doctor by someone in the 
Florida Department of Veterans Affairs to sign the paperwork my 
husband needs and then it would be accepted.
    When a veteran dies, his or her spouse or children are 
entitled to DIC, so let us stop the nonsense and just have a 
short form and provide the quickest documentation and not be 
told this will take 6 to 8 months or longer to complete. It is 
no wonder the Department of Veterans Affairs cannot get their 
jobs done. They make it more difficult on themselves.
    Each veteran should be given a packet the first time they 
ever enter into the VA system and tell them, here, these are 
things you may need along the way.
    We have had the most awful time to get me added as my 
husband's dependent, which I well should be, which finally has 
come about. When we went to the VA in 2004, they filled out a 
form making me his dependent but only in the event he should 
die in a VA facility.
    The man that did this was Alex Benjamin who I understand is 
no longer with the VA. He never told us that because Mr. 
Clark's first wife died and that I had been married before we 
would have to present a death certificate for Mr. Clark's first 
wife and my divorce decrees.
    And every day my plea is a phone call to someone. I have 
contacted the media. I am going to continue to do what I need 
to do to make sure my husband gets his benefits as well as all 
veterans and as this lady is with her grandchild. This is 
ridiculous. It must be changed.
    Another person in the B66 cannot get any benefits because 
they cannot get a buddy letter or find anybody that is alive. 
What is wrong with this system? It is just unjust.
    [The statement of Mrs. Clark appears on p. 47.]
    Mr. Hall. Thank you, Mrs. Clark. And I appreciate your 
testimony.
    And we on this Committee are intent on trying to simplify 
this process that you have had such a difficult time with and 
have several pieces of legislation pending and others, I am 
sure, that will be drafted which will attempt to do that. And 
we will come back, I am sure, to you with questions.
    But first we will go to our next witness, Matthew Heavrin. 
Just pull that microphone over closer to you.

                STATEMENT OF MATTHEW B. HEAVRIN

    Mr. Heavrin. Mr. Chairman and Committee members who are 
hearing my testimony today, my name is Matthew B. Heavrin. My 
wife, who could not be with us today, her name is Barbara Jean 
Heavrin. We live in Redlands, California. We have four 
children.
    Matthew, who is our oldest, is at the Naval Academy in 
Annapolis, Maryland. He will graduate this May.
    Our daughter, Hannah Leah, served in the U.S. Army as a 
Quartermaster in Iraqi Freedom until she was killed on 
September 4, 2006.
    Our third child, Philip, serves in the Marine Corps and is 
currently based in Camp Pendleton, California.
    Our fourth child, Ruth Ann, she will be graduating from 
Redlands High School this June and will be attending Cal State 
San Bernardino this fall.
    I myself am a U.S. Navy veteran. I work as a power plant 
operator for Los Angeles County. My wife is a registered nurse 
and is employed by the San Bernardino County Sheriffs.
    As you can see, our family has served, will continue to 
serve this country and mankind. My wife and I have instilled in 
each of our children importance for love of country and to make 
this world a better place through service and responsible 
living.
    Our daughter, Hannah, had aspirations to go to college 
after school. We have some money saved up but not nearly enough 
to afford her tuition. Our goal is for Hannah to go out and 
look for grants, scholarships, and other financial aids that 
would fill the gap.
    She came home one afternoon with an Army recruiter. We 
listened to him and asked Hannah if this is what she truly 
wanted and she said yes. Off to the Army she went.
    After her basic training, she went to individual training 
and met another young man there who was also in the Army. The 
two began a relationship and had planned on marriage and Hannah 
became pregnant. Their relationship failed and Hannah returned 
home after being discharged from the Army.
    Shortly after giving birth to her son, Todd, on November 
2d, 2004, she returned to the Army against our wishes. I 
personally got on my knees and pled with her not to go back 
into the Army, that she would most certainly end up in Iraq. 
She told me that the Army does not send single mothers on 
deployment. And I really do not know where she got that idea. I 
can only speculate it was the Army recruiter.
    She did indeed reenlist and went to another Army 
specialized school to become a quartermaster and left Todd in 
our care. Well, at quartermaster school, she met Chris 
McKinney, someone who she had gone to high school with in 
Redlands.
    After Hannah finished the quartermaster school, she was 
assigned to Fort Lewis, Washington. I moved all of Hannah and 
Todd's personal belongings from Redlands to Fort Lewis in July 
of 2005 and helped her find a town home in Tacoma, Washington, 
and assisted her in securing child care on base.
    A few weeks later, she told us that she was assigned to the 
542d Maintenance Company as a quartermaster. In September, I 
learned that the 542d would be deployed to Iraq. My heart sank. 
I almost knew her fate right then.
    I flew up to Tacoma to stay with my grandson while Hannah 
went with her unit for maneuver training in Oregon. While 
staying in her town home, I could not help but notice all the 
love letters that Chris McKinney had written to Hannah. They 
were pasted on the wall like wallpaper.
    Just before the 542d Maintenance Co. deployed, Hannah 
brought Todd home and some of his things down with us with a 
power of attorney so we can make decisions for Todd on Hannah's 
behalf. That is when I learned that Hannah had gotten married 
to Chris McKinney. We had not even met Chris at this point and 
only had a brief description of him.
    It was late October 2005, and Hannah's unit deployed to the 
fort operating base in Taji, Iraq, in the middle of November 
2005. While in Iraq, Hannah would phone home and occasionally 
write. She would tell us how she was reassigned from the 
quartermaster's office to security. She spent nearly all of her 
time up in a guard tower along a perimeter road around Fort 
Taji.
    She also sent home some photographs to show the desolation 
where she was posted and the conditions that she served in. 
What stood out to me was how lonely she was and how much she 
wanted to get home. She missed her son, Todd, and her new 
husband, Chris.
    In May of 2006, she was flown home for 2 weeks R and R. She 
was so happy to be home and did not want to go back. Todd 
recognized her almost immediately. Chris, Hannah, and Todd 
rented a convertible and had a wonderful time as a newly formed 
family and spent their time together.
    We had talked and began preliminary plans for Chris and 
Hannah to have a church wedding and that Chris would adopt 
Todd. A few days before she was to return to Iraq, Hannah's 
demeanor changed. She was regretting separating from us and 
Chris and Todd again. She even asked me if I would break her 
arm for her so that she would not have to return. Of course, I 
did not and Hannah did return to Iraq. Chris returned to Fort 
Lewis. Todd stayed with us in Redlands.
    On the morning of September 4th, which is Labor Day, on 
2006, I was at work when I received a phone call from Barbie. 
She explained to me that I needed to get home right away. There 
were two Army chaplains at our door.
    I cannot describe to you the range of emotions that I 
personally endured and grieved with Barbie as she went through 
hers. From the time of the chaplain visit to planning a funeral 
to sorting out Hannah's life and that relation to Todd's, we 
have shed buckets of tears, felt guilty, angry, inadequate, and 
generally depressed.
    Through it all, we have endured it through our faith, our 
friends, and each other. We have been taking care of our 
grandson since the day he was born. We videotaped in various 
stages of his young life so that we can share those moments 
with Hannah in Iraq. The video CDs were packaged and ready to 
be mailed out as they would have been if that Monday were not a 
holiday.
    The cause of Hannah's death was under investigation and was 
difficult to determine how or why she died. As the 
investigation progressed, we learned that circumstances 
revolving around Hannah's death were criminal in nature. Never 
before have I felt this way. It is as though we were betrayed 
by our sense of honor and service that we adhered by.
    Our daughter died for one man's selfish satisfaction. As an 
NCO in the Army, he was to be about the business of looking 
after his subordinates. He did otherwise. We feel cheated. 
Todd's mother is gone. He was cheated. Chris lost his wife. He 
was cheated. Hannah's siblings have lost a wonderful friend, 
confidant, and sister. They were cheated.
    While it has come to our attention that each soldier had a 
$100,000 death gratuity and a group life insurance policy of 
$400,000, we were not aware of these policies until of recent.
    We also learned that Chris McKinney received both. I do not 
know if my daughter so designated Chris or it was automatically 
paid out to Chris as a survivor since he is the husband. We 
believe that the assumption was made that Chris is caring for 
Hannah's son, Todd, which he is not.
    The burden of raising our grandson has been on us only. We 
receive support from no one, nor has Chris McKinney offered his 
$500,000 to us or to Todd. We are not in the business of taking 
anything that does not belong to us, but to have our daughter 
taken from us in this manner that she was and for Todd to grow 
up without his mother, without her death benefit is just plain 
wrong.
    We believe this is an anomaly that needs to be remedied to 
benefit the surviving sons and daughters of deceased soldiers, 
sailors, and airmen and assist the grandparents who raise them.
    [The statement of Mr. Heavrin appears on p. 49.]
    Mr. Hall. Thank you, Mr. Heavrin, for your testimony. And 
once again, my sympathies and support and I am sure that the 
hearts of all the Subcommittee Members go out to you and your 
family. Rest assured that we are going to try to find 
legislative ways to prevent such problems from occurring in the 
future.
    We will move now to our next witness and recognize Kimberly 
Hazelgrove.

             STATEMENT OF KIMBERLY DAWN HAZELGROVE

    Mrs. Hazelgrove. Thank you, and good afternoon, everybody.
    I just want to say that I love everybody who is sitting 
here beside me and behind me today who share in what I have 
experienced over the last 3 years.
    Chairman Hall, Representative Lamborn, and Members of the 
Subcommittee, I would like to thank you for the opportunity to 
testify before you today on behalf of all Gold Star Wives 
regarding the importance of addressing critical services for 
America's military widows and widowers and their children who 
are left behind.
    My name is Kimberly Hazelgrove. I am the widow of Chief 
Warrant Officer Brian Hazelgrove, U.S. Army and a native of 
Edinburgh, Indiana. My husband entered the Army shortly after 
graduating high school and served over 10 years.
    Brian was an energetic and charismatic leader. His soldiers 
and superiors always had the utmost respect and admiration for 
his ethics, compassion, and abilities. Above all, he was a 
career soldier and he was full of ambition, dedication, and 
potential.
    Brian was also a husband and a father to Taylor, Zachary, 
Brandon, and Kaitlin. He was a gentle and loving father who 
never failed to prove that he adored his children. At times we 
both had to endure single parenthood while the other was 
deployed and understood the important balance of mission and 
family. And Brian was dedicated to both.
    He faithfully deployed to Iraq in support of America's 
mission in November of 2003. On January 23d, 2004, Brian was 
flying a mission in support of ground troops in Iraq with pilot 
Chief Warrant Officer Michael Blaise when their helicopter 
crashed. Both Brian and Michael were killed. Brian was 29. Our 
youngest child was just 7 months old.
    I was a Sergeant First Class in the U.S. Army stationed at 
Fort Drum where Brian was stationed as well and the mother of 
an infant and our toddler, stepmother to two children who live 
in Indiana currently, and the wife of a deployed soldier. Life 
was difficult, but with the support of our unit and families, I 
was independently managing the household and raising our family 
as he had at times, always with the hope that he was safe and 
anticipating his return. Our lives were changed forever the day 
that Brian was killed.
    I am here before you as a representative of America's 
military widows and widowers and as a Member of Gold Star 
Wives. My hope is by the end of my testimony you will see the 
need to act immediately to rectify the unfair and inadequate 
resources that Gold Star families endure after notification of 
their servicemember's death.
    I feel that adequate training and resources are still 
lacking for all personnel who function in the various roles 
while supporting a casualty's family. Across the spectrum of 
DoD and VA, there is not one single dedicated office to the 
military survivor.
    It is left to the various representatives of these 
organizations to do their best, and I mean their best to 
inform, assist, and support family members in their times of 
need and they can only do so much within their respective 
subject matter area of expertise.
    After the initial response of support has ended and it 
always does, family members struggle to research, understand, 
and stay informed of changes to benefit entitlements and 
legislative actions.
    For the widow or widower of an active-duty servicemember 
like myself, the military expects a transition of 
responsibility from the military component in which they served 
to the Veterans Affairs within approximately 6 months.
    This is a very short time to require a family that has 
experienced a traumatic life-altering event even under the best 
circumstances to be able to navigate the complexities of the 
military's survivor system.
    A family previously established in family housing 
accustomed to living on military bases have increased financial 
burdens to absorb and a new identity to grasp. The response to 
family members is critical within the first year after the loss 
of their loved one. However, it is imperative that there be 
continuity of service and support to the families of our 
servicemembers after that initial response has faded away.
    As a widow, I receive monetary supplements because of my 
husband's death while serving his country. I applaud our 
government's success in increasing that initial death payment 
and Servicemembers' and Veterans' Group Life Insurance (SGLI) 
payments to the families of the deceased servicemembers. I 
would like your support in fulfilling the commitment to fully 
sustain the benefits of our widows and widowers and those of 
our children for the future.
    The SBP payment, the survivor's benefit pension payment 
that I receive and worked so hard for for 2 years brings $99 a 
month into my household. My full entitlement a month as a 
surviving spouse is $1,166. The dollar for dollar offset 
generated by the income I receive from the VA's dependency and 
indemnity compensation reduces my entitlement by over $1,000. 
Ninety-nine dollars does not even buy groceries for a week.
    Because of my husband's rank and years of service when he 
died, I actually receive a little bit of money left over where 
most spouses receive no money at all. This offset does not 
benefit any military survivor. And, in fact, it especially 
victimizes those families whose deceased servicemembers were 
junior enlisted or with less years of service. And that is a 
crime.
    Most of these families are young families like mine is. My 
$99 a month helps supplement increased child care expenses due 
to my husband's death, healthcare which I now incur after my 3 
years' period has ended, and household expenses because I am a 
single, working mother and raising two children and the sole 
provider for those children.
    I would like this panel to realize the entire scope of 
inequity of this offset. Disabled military retirees, Federal 
retiree annuitants and their survivors receive their full 
benefits without offset of the VA's DIC. I ask you here today 
how is the military survivor any different?
    I ask the panel to understand that many widows and widowers 
are not able to make the monetary sacrifice that I have made 
here today in order to testify before you. Fortunately, I am 
here with the blessing of my company to enlighten you of the 
burden that my family has endured over the past 3 years of 
service commitments.
    I ask you to remember the young widows and widowers who are 
at home caring for their young children who cannot be here 
before you. I ask you to remember the widows and widowers in 
the other States who cannot afford to be here before you. Your 
decisions make a difference in their lives.
    As my children grow older and our lives change, so do our 
benefits. I continually need to seek out subject matter experts 
within the benefits arena on my own. Healthcare, education, 
Social Security, survivor's benefit annuities, and dependence 
indemnity compensation all have different requirements that 
need to be met.
    Legislative actions on benefits continue to influence 
entitlements. Tracking these changes is time consuming and 
tedious as the information and experts in the field currently 
are compartmentalized and geographically dispersed.
    I work a full-time job and raise my two small children. 
This has not left me much time to track down the exact person I 
need to talk to. And to make a note on what these people have 
said, those civilians in those jobs are generally rude and 
inadequate and untrained.
    Gold Star Wives of America has been a source of support and 
information beyond anything I have received thus far. The 
ladies volunteer their time and efforts into educating me on 
the process that forever lies ahead of me as a widow.
    I firmly stand behind and support Gold Star Wives' request 
that regional survivor's offices be established to meet the 
needs of military survivors during and more importantly after 
the casualty assistance officer has finished their duties.
    This office would provide oversight to policy issues of 
survivors, provide transitional assistance, legislative 
feedback, and act as a main coordinator between the Department 
of Defense and Department of Veterans Affairs. This is a key 
component to ensuring the commitment to our servicemembers that 
their families will be taken care of.
    As a servicemember entering military service, nowhere are 
you told that your family will have to fight to receive the 
adequate benefits upon which they are entitled in the event of 
your death. Families plan for financial stability in the event 
of tragedy based on your promise that they will be taken care 
of. And, yet, I testify before you here today as an example 
that this has not happened to the full extent.
    I implore our leadership to immediately cease the DIC 
offset to SBP for all widows and widowers with no restraints on 
time of service or rank.
    I thank the Subcommittee for using this hearing as one more 
avenue of awareness and education and for giving me an 
opportunity to share my thoughts and experiences as a Gold Star 
Wife. I will be happy to work with you further on any 
initiatives and thank you for your time and consideration.
    [The statement of Mrs. Hazelgrove appears on p. 50.]
    Mr. Hall. Thank you, Mrs. Hazelgrove. And thank you to the 
Gold Star Wives of America and to your representation of them.
    I want to mention that we had requested the President of 
Gold Star Mothers of New York State to join us and she was 
unable to do that today. But you just gave us some powerful, 
direct, and emotional perspective on the difficulty of 
navigating this bureaucratic system that is supposed to be 
helping you and helping other survivors and families of those 
who have given their lives for our country.
    And I would say to you as well as to all of the witnesses 
once again that an apology is due and as the Chairman of this 
Subcommittee, I am offering mine.
    I wanted to ask Mrs. Hazelgrove since we just heard your 
testimony how would you best consolidate or streamline the 
benefit process for survivors considering that there are so 
many different benefits, processes, and forms to try to 
understand?
    I mean, I guess that not offsetting one benefit against the 
other is your first priority that you would suggest, but beyond 
that, how would you suggest that we consolidate the benefit 
process?
    Mrs. Hazelgrove. Well, Chairman Hall, to answer your 
question, going through the experience myself, there definitely 
needs to be an office established, a regional office with 
oversight to the active military components who are handling 
the cases initially.
    And why I say that is is because within that 6 months, the 
military components do a good job for the most part. You will 
find that there are very few cases in which that did not 
happen, but they do do a good job. The casualty officers do a 
good job. There is still more training that needs to be done as 
well as outreach from survivors such as myself who are willing 
to participate in that office.
    The streamlining process will come in with that office that 
has the oversight ability. They will oversee the initial 
casualty case. They will watch the transition process. And when 
that family more importantly moves away from the active-duty 
military component, and it does not necessarily apply to the 
National Guards and Reserves because generally they are at 
their home station where they prefer to be, but we move away. 
We do not generally stay in the active-duty world which again 
raises our costs.
    Those regional offices can take oversight of our transition 
and when a family moves into an area, that regional office 
becomes responsible for that case.
    As an example, my husband's casualty and his case was 
handled at Fort Drum, New York. If you were to call to Fort 
Drum, New York's Casualty Assistance Office at this moment, it 
was like it never happened. There is no trail of paperwork. 
People would not even know what you are asking about. It has 
been over 3 years.
    I, as a grieving spouse, am supposed to have my wits about 
me to keep copies of all this paperwork, to understand that 
process fully when it is happening to me. Now, I am a very 
together person. I do command attention and I give orders. 
However, I do not remember a single thing that was said to me 
within the first few months that I was going through that and I 
really thought I had it together.
    A regional office would have helped me with that. I could 
have gone to that person for legislative information, benefits 
information instead of wasting my time tracking down the RSOs 
within those active components, the Retirement Services Office, 
who do not even know what my benefits are and cannot help me 
fill out that paperwork.
    Mr. Hall. Thank you, Mrs. Hazelgrove. Excuse me for cutting 
you off, but I am trying to stay to 5 minutes here.
    And I wanted to ask Mr. Heavrin would you favor legislation 
that would require that a biological child of a servicemember 
receive a percentage of the SGLI regardless of what the 
servicemember states on his or her insurance form?
    Mr. Heavrin. I would support such legislation, yes, sir.
    Mr. Hall. OK. And, Ms. Jaenke, I wanted to ask you what 
help has been provided to you in navigating and completing the 
paperwork that you have needed to do for benefits to be 
received?
    Ms. Jaenke. Nancy Trempi is our ombudsman for MN Seabee 25. 
She was extremely instrumental in helping me with everything. 
Without her, I would have been nowhere. She guided me through 
everything that I did. She told me about keeping a notebook by 
my phone. She helped me when I did not have money to buy a new 
washer and dryer. She did everything she could for me. She 
cried tears with me. That ombudsman for me was one of the key 
things.
    My CACO was amazing. Chief Erdman from the Des Moines 
office was amazing. But without Trempi, that ombudsman----
    Mr. Hall. So would you suggest we need more ombudsmen or 
women?
    Ms. Jaenke. Yeah. The ombudsman really works well if they 
are willing to work. And Nancy Trempi is a 24/7 worker.
    Mr. Hall. Thank you. And I am sorry. I just want to rush 
through because I see the yellow light on here and I am trying 
to set a good example for the rest of the Subcommittee.
    I wanted to ask Mrs. Clark how much of the VA paperwork 
that you completed was duplicative of other information? How 
much time, how many different forms do you think you spent 
filling out to finally get through and start getting benefits?
    Mrs. Clark. How many forms?
    Mr. Hall. Right. How much duplication of information on the 
forms you had to fill out?
    Mrs. Clark. Very much duplication and I went through the 
same process as this lady down here said. I would send them 
forms and they would say I am sorry, we never got the forms. As 
I had stated to you, I have probably turned in over 400 pages 
of documentation just trying to get benefits for Mr. Clark.
    Mr. Hall. Were any of them able to be filed electronically 
or are they all actual paperwork?
    Mrs. Clark. Very few of them could be electronic and even 
electronic, I would get a call from the Department of Veterans 
Affairs going I am sorry, we never received that information.
    So I had to go to the expense of going to the post office, 
paying for faxes which are $2 each, plus a $1 per page after 
that, and register return receipt mail to ensure that, in fact, 
someone did receive that information.
    Mr. Hall. Thank you very much.
    And my time is expired. I will now recognize Ranking Member 
Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Every one of these witnesses has spoken forcefully and 
persuasively and at this time, I have no further questions.
    Mr. Hall. Thank you, Mr. Lamborn.
    Mr. Hare.
    Mr. Hare. Thank you, Mr. Chairman.
    It is mind boggling that we have hearing after hearing 
here, Mr. Chairman, and we continue, you know, there is a 
common theme, the burden of proof always seems to be upon the 
veteran or upon the veteran's spouse. And I know I have had all 
I can take of that. And I think we really need to be very 
proactive in terms of being able to do things for our veterans 
and for their families.
    I wanted to ask you, Mrs. Clark, you were talking about 
your husband's post-traumatic stress claim? Are you still going 
through that process despite all of this?
    Mrs. Clark. Still going through that process since the 
'80s.
    Mr. Hare. Since when?
    Mrs. Clark. Since the '80s.
    Mr. Hare. And, yet, you said he has documentation from the 
VA hospital stating that his main diagnosis is PTSD?
    Mrs. Clark. That is correct.
    Mr. Hare. So from their perspective, can you tell me what 
the holdup is?
    Mrs. Clark. I am sorry. I could not hear you because of the 
buzzer.
    Mr. Hare. I guess what I am asking is, I am having a very 
difficult time understanding why the VA has not ruled favorably 
in your husband's claim.
    Mrs. Clark. The PTSD claim?
    Mr. Hare. Uh-huh.
    Mrs. Clark. It is simple. First, they say we do not have 
enough information. Second, they said that he does not have all 
of the stressors which I told you were combat related at one 
time. He unfortunately took part in assassinations.
    And now the new stressors that have come up which my 
husband has all of, heart disease, peripheral artery disease. 
He has strokes. Those are the new stressors. The old ones were 
the combat-related issues and because he does not have certain 
medals, but what are those medals worth?
    And Mr. Clark's time, I cannot stress enough to you, he has 
been given 6- to 8-months to live and I have just recently 
found out he has more cancer. He is not going to see that 6 to 
8 months. And he has been fighting since the '80s. So you tell 
me. What is the problem when we have the paperwork and it has 
been presented?
    Mr. Hare. Well, I will tell you, Mrs. Clark, I think the 
problem is you have a VA that is out of touch with reality. 
That is one thing. And I would think it is a bureaucracy that 
for the life of me again does not err on the side of the 
veteran. And we are quick to put people in harm's way and very 
slow, it seems to me, to be able to do anything to help that 
veteran or their family. It is inexcusable.
    I just wanted to say to you, I know I do not come from your 
State, but I would be interested in helping you with that 
claim. I do not know if you have talked to your Member, but, 
from my perspective, and maybe perhaps after the hearing, if I 
could talk to you about it, we could see what we could do to 
move it along. But it should never come to that.
    Mrs. Clark. I would appreciate that very much, sir.
    Mr. Hare. Not a problem.
    Ms. Hazelgrove, you talked about, and I think this is a 
really important thing, in creating that office. And what do 
you see that office doing if you could elaborate just a little 
bit?
    You talked about dedicated to the military survivor. You 
have a unique perspective from both sides, so the establishment 
of that office, I think it is a wonderful idea. I would be 
willing to work with your organization and you to do that. 
Could you expand a little bit on what you see that doing?
    Mrs. Hazelgrove. What I see it doing is really streamlining 
the process and it will take care of a lot of the gaps that we 
have in the education and the training of these personnel 
instead of throwing people who do not have a lot of military 
experience and are not familiar with all of the programs and 
services within the different military components that can help 
the casualty's family.
    So it will bring a much more broader wealth of experience 
and education to the platform as well as keeping the families 
within their respective regions after the active-duty families 
have relocated and the National Guard and the Reserve's family 
are staying in that area, it will help those families have that 
continuity of service to get legislative updates.
    It will be an office in which I as a mother can go to and 
say please help me, my children are now 16, we are looking at 
college. And by the way, they are only 3 and 6 right now and my 
stepchildren are 13 and 14. I am not worried about education. 
But in time, I will be very worried about education and how is 
that going to change between now and then?
    I have to right now go research the process, find the 
appropriate people, and it is DoD, it is also VA, and it is 
also State dependent. So I have to look at three different 
separate areas to find out what my children's education 
entitlements are and the time lines and how it has changed over 
the years. So it will really help with that continuity of 
service.
    Mr. Hare. I would be again honored, and I would say to the 
Chairman I think this would be something that this Subcommittee 
and the full Committee would look at because I think it is a 
tremendous idea. I think it would be a wonderful help to people 
when they need the help the most.
    And so, whatever we can do and perhaps even after the panel 
is adjourned if we could talk about that too. I know I am 
making extra work for my staff, but that is why I have got 
them. So I would be happy to talk to you about that.
    I do not know if there is anything pending, is there, Mr. 
Chairman, on this?
    Mr. Hall. Not yet.
    Mr. Hare. There will be.
    Mr. Hall. But there will be.
    Mr. Hare. Thank you very much. I yield back.
    Mr. Hall. And I would encourage you to talk to your Member 
of Congress and also, as Mr. Hare said, one of the main things 
that we do in terms of in our district constituent services is 
assisting veterans and helping veterans' claims get moved 
through the system. So, perhaps, if you have not already, going 
through your member of Congress may be an additional aid.
    And at this point, the Chair will recognize the gentleman 
from Florida, Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. Thank you so much 
for holding this hearing.
    Susan, I wanted to ask you a question. As far as the 
gratuity, you have no access to it at this point; is that 
correct?
    Ms. Jaenke. That is correct.
    Mr. Bilirakis. Did your daughter name a beneficiary on the 
gratuity? Can you put the microphone on? I am sorry. Thank you.
    Ms. Jaenke. Me.
    Mr. Bilirakis. You.
    Ms. Jaenke. Yes.
    Mr. Bilirakis. And you have no access to it?
    Ms. Jaenke. No.
    Mr. Bilirakis. And what explanation did you get from the VA 
of why you do not have access?
    Ms. Jaenke. When Chief Erdman told me about the $100,000 
and that it was left to me, he says there is a clause in there 
that says unless there is a spouse or child. He said that has 
to go into a trust fund then for Kayla.
    And at that point, I told him I could not understand that 
because, after all, it had my name on it and along with a 
letter that she had sent me telling me exactly what she wanted 
me to do if something had happened to her.
    Chief Erdman told me at that time that that $100,000 had to 
go in her trust. There was no ifs, ands, or buts about it. And 
I said what if I fight it. Well, he said I already talked to 
somebody in Millington and the lady in Millington said that it 
had to go in a trust fund which, of course, I cannot touch 
because nobody could ever win against this. This was something 
that was unwinnable.
    So the $100,000 went in there. If it had not been for 
people, strangers that I do not even know that had sent us 
money over the past 10 months, I would have lost my house. I 
was 2 weeks away from losing my house. It was strangers that 
helped me, not my government, and that really does hurt the 
worst of everything, you know.
    My daughter served her country well. She loved the Navy. 
She loved the Seabees. But it was not my government that helped 
me. It was strangers. And that did hurt.
    Mr. Bilirakis. Yeah. It is so unfair, so unfair. I wanted 
to ask you a question. Are you the legal guardian?
    Ms. Jaenke. Yes, I am.
    Mr. Bilirakis. You are the legal guardian?
    Ms. Jaenke. Yes, I am the legal guardian of Kayla.
    Mr. Bilirakis. And you still have no access to that?
    Ms. Jaenke. No.
    Mr. Bilirakis. Very unfair, Mr. Chairman. We need to do 
something about that.
    Thank you very much, Susan.
    Ms. Jaenke. Yes.
    Mr. Hall. Thank you, Congressman. I agree, Mr. Bilirakis, 
with what you just said.
    And the Chair will now recognize the Honorable Ms. Berkley.

           OPENING STATEMENT OF HON. SHELLEY BERKLEY

    Ms. Berkley. Thank you, Mr. Chairman. And I along with the 
other Members of the Subcommittee thank you for holding these 
hearings.
    But I particularly want to thank our witnesses. I have been 
a Member of Congress for 8 years now, going on 9. I cannot 
recall in the entire 9 years that I have served more eloquent 
and more important testimony than I have heard today. And each 
and every one of you has provided us very important information 
that we need to have in order to do our jobs and do our jobs 
appropriately.
    It seems that the longer I serve in Congress, the more 
disillusioned I become of our government. This to me, when I 
sit here and I listen to each and every one of you, I cannot 
believe that these problems have not been remedied years ago 
and here we are listening to you sharing with us things that we 
have already heard are occurring.
    And I will pledge to you along with our Chairman's apology, 
which I think is always important to hear, let us apologize to 
you by taking care of the problems that you are experiencing. 
And I think that is the best apology that we can make to each 
and every one of you.
    And I am sorry for your losses. I am sorry for your 
sacrifices to this Nation. But more importantly I am sorry that 
our government has not responded in an appropriate way that 
would make all of us proud instead of ashamed. And I will work 
with the Members of this Committee and with all of you to 
ensure that this does not happen to future generations of our 
service men and women and their families.
    And I thank you again for being here.
    Mr. Hall. Thank you, Congresswoman.
    I would just also add my thanks once again and especially 
thanks to Kayla for being here. And rest assured we heard you 
and we will do our best to take whatever action we can to make 
the road smoother for you and for those who are following after 
you and experiencing similar problems.
    Thanks for being here and testifying. Panel two is now 
excused.
    [Two news articles, ``The Forgotten Families: Grandparents 
Raising Slain Soldiers' Children Are Denied a Government 
Benefit Intended to Sustain the Bereaved,'' The Washington 
Post, February 16, 2007, by Donna St. George, and ``Help 
Needed: Grandparents Raising the Children of Fallen Soldiers,'' 
AARP Bulletin, April 2007, by Carole Fleck were submitted by 
the witnesses and are included in the record, which appear in 
the Appendix.]
    Mr. HALL. And we will move to panel three. Rose Lee, the 
Chair of the Government Relations Committee of Gold Star Wives 
of America; Patricia Montes Barron, Deputy Director of 
Government Relations for National Military Families 
Association; and Christine Cote, Staff Attorney for the 
National Veterans Legal Services Program.
    Thank you for joining us, and we have Members coming and 
going for activities on the floor or other Committee meetings, 
but we are going to forge ahead.
    First, the Chair would like to thank you all again and 
recognize Ms. Rose Elizabeth Lee representing the Gold Star 
Wives of America.

 STATEMENTS OF ROSE ELIZABETH LEE, CHAIR, GOVERNMENT RELATIONS 
 COMMITTEE, GOLD STAR WIVES OF AMERICA, INC. (WIDOW); PATRICIA 
MONTES BARRON, DEPUTY DIRECTOR, GOVERNMENT RELATIONS, NATIONAL 
   MILITARY FAMILIES ASSOCIATION; AND CHRISTINE COTE, STAFF 
       ATTORNEY, NATIONAL VETERANS LEGAL SERVICES PROGRAM

                STATEMENT OF ROSE ELIZABETH LEE

    Ms. Lee. Thank you, sir.
    First of all, I would like to say my heart goes out to the 
personal testimonies that I heard just a few moments ago. It 
was heart-wrenching to say the least.
    Mr. Chairman, Representative Lamborn, and Members of the 
House Veterans' Affairs Disability Assistance and Memorial 
Affairs Subcommittee, I would like to thank you for the 
opportunity to testify before you today on behalf of all Gold 
Star Wives regarding the importance of addressing critical 
services for America's military widows and their children.
    My name is Rose Lee. I am a widow and I am here before you 
as the Chair of the Gold Star Wives Committee on Government 
Relations.
    In my testimony, I will respond to your request for our 
views on helping those left behind. Are we doing enough for the 
grandparents, spouses, and children of veterans?
    In doing so, I will present to you the collective goals of 
Gold Star Wives with the hopes that they will alert you to 
certain discrepancies and inefficiencies that you may be able 
to alleviate in your deliberations this year.
    I do want to thank the Members of the Subcommittee and the 
staff for your continued support of programs that directly 
support the well-being of our servicemembers, widows, and their 
families.
    Let me be clear, however, from the start. We are not doing 
enough. We are unmistakably in a time of war. Warriors are 
dying and leaving behind young families. If there is one 
message I would leave with you today it is that there is never 
enough good communication.
    The casualty assistance officers and casualty assistance 
call officers have a difficult mission in a difficult time. 
They act to assist survivors, from the death notification to 
assistance with coordinating funeral arrangements, to applying 
for benefits and entitlements. They do a valiant job, but they 
are not trained enough to be the subject matter expert for the 
benefits and entitlements managed by the VA or the Department 
of Defense.
    Getting the right information to the right people at the 
right time is important. Getting the right benefit is important 
as well. There are gaps in the benefits for survivors that we 
have called for corrective action over time. If we are serious 
about addressing the question, ``are we doing enough,'' then it 
is time to respond to these issues where we clearly fall short 
of ``enough.''
    The survivor benefit plan, the acronym SBP, annuity 
payments are still offset dollar for dollar by the veterans' 
dependency and indemnity compensation, the DIC benefits. This 
offset is wrong. It should be eliminated. The SBP was meant to 
provide income protection for survivors.
    We recognize you must act with your colleagues on the 
Committee on Armed Services on this issue. All we seek is 
equity with Federal civilian workers. Federal retired 
annuitants and their survivors receive their benefit without 
offset of VA benefits. The military benefits should be similar.
    The current law allows for surviving spouses who remarry 
after age 57 to retain their VA DIC survivor benefit. For those 
who remarried before the law was enacted, there was a 1-year 
period to apply for reinstatement. Communication in the form of 
outreach was lacking during the retroactive period.
    Therefore, we request two changes to the law. A, allow 
survivors to retain DIC on remarriage at age 55 in order to 
bring this benefit in line with rules for SBP and other Federal 
survivor programs. And, B, open up the reinstatement period 
with renewed outreach efforts to make survivors aware of their 
eligibility.
    There is a grievous oversight concerning the $250 child 
DIC. The program evaluation of benefits study recommended that 
surviving spouses with dependent children receive the $250 for 
5 years instead of 2 years and that amount should be indexed to 
inflation to avoid a devaluation of the benefit. Unfortunately, 
those receiving the $250 child DIC are not receiving it for 5 
years and are not receiving even a small $10 cost-of-living 
adjustment.
    CHAMPVA, the Civilian Health and Medical Program of the 
Department of Veterans Affairs, currently does not carry with 
it a dental plan. In order to increase beneficiaries' access to 
dental care at a reasonable cost, Gold Star Wives seek for 
widows and all CHAMPVA beneficiaries the ability to purchase a 
voluntary dental insurance plan. It may be similar to the model 
of the TRICARE program for military service retirees for dental 
care in which the payment of premiums for services is 
completely funded by the enrollee. This would require a 
modification to Title 38, Chapter 53.
    We would like to begin the process of reviewing how the DIC 
rate is established which is currently a flat rate. The SBP is 
calculated at 55 percent of retired pay. We recommend that the 
DIC be calculated in a similar manner, at 55 percent of the 
disabled veteran's 100 percent disability compensation amount 
which will provide more equitable compensation to our 
survivors. Currently DIC is 41 percent of the 100 percent 
disability compensation rate. We firmly believe that an office 
should be established that would provide oversight to the 
policy issues of survivors and be a transitional assistance to 
survivors and the main coordinator between the Department of 
Defense and the Department of Veterans Affairs. Without such an 
entity, widows are left to make their own way through a 
bureaucratic maze at a time in their life that could be no 
worse.
    Complications arise in this current conflict because it 
presents issues that we had not had to deal with before in that 
there are National Guard Members whose families are not near a 
military installation and find it difficult to learn about 
their benefits and burial information and so forth.
    There are other important issues that we have included in 
our written statement that we request your attention.
    In conclusion, we do not want our widows forgotten whether 
they are experiencing their losses currently or whether they 
are Members of the so-called greatest generation and 
experienced their loss many years ago during World War II. When 
the ultimate sacrifice is given, there is a family left behind. 
Let us show the spirit of this Nation by not forgetting these 
widows whose numbers grow daily.
    I regret if I show some frustration in this next remark. 
These are issues we have addressed to the Congress over many 
years before. We have faith that when you ask the question, 
``Have we done enough?'' that you will, with determination, try 
to close the gap to ``enough.'' It is time to move forward with 
these issues.
    I thank the Subcommittee for using this hearing as one more 
avenue of awareness and education and for giving me an 
opportunity to share my thoughts and the goals of Gold Star 
Wives. We are happy to work with your Subcommittee on any of 
these initiatives. Thank you so much.
    [The statement of Ms. Lee appears on p. 53.]
    Mr. Hall. Thank you very much, Ms. Lee.
    And the Chair will now recognize Patricia Barron. Push the 
button on your microphone, please.

              STATEMENT OF PATRICIA MONTES BARRON

    Ms. Barron. Chairman Hall and distinguished Members of the 
Disability Assistance and Memorial Affairs Subcommittee, the 
National Military Families Association would like to thank you 
for the opportunity to present testimony today on whether we 
are indeed doing enough for the survivors of those who have 
sacrificed their lives in service to this Nation.
    The families here today have eloquently raised the 
difficulties they have encountered in the awarding of survivor 
benefits to the children of single servicemembers. NMFA has 
always emphasized that servicemembers and families must 
understand there is a package of survivor benefits. More 
details can be found in our statement submitted for the record. 
But that gratuity was originally intended to act as a financial 
bridge to help with living expenses until other benefits such 
as the dependency and indemnity compensation payment, the 
survivor benefit annuity, the Social Security benefits begin to 
be paid.
    The servicemembers' group life insurance, as its name 
implies, is an insurance plan. The death gratuity is not an 
insurance payment even though its $100,000 amount is bigger 
than many civilian life insurance payouts.
    The law as it is currently written, the death gratuity must 
be awarded to the next of kin. When the beneficiary is a minor 
child, it would be placed in a trust for that child subject to 
State laws. The servicemember may designate multiple 
beneficiaries for the SGLI and there is no stipulation in the 
SGLI regarding the use of that money for any particular 
purpose.
    It is of utmost importance, and I say that again, of utmost 
importance in light of increased value of the survivor benefits 
that the servicemember be informed about the difference between 
the death gratuity and the SGLI payment.
    It is also important that servicemembers and their families 
discuss the implications and disposition of these payments 
prior to their deployment, especially when there is a minor 
child involved or when there are children from a prior marriage 
or relationship to consider. This is just absolutely 
imperative.
    With the increased amount of the survivor benefits, it is 
incumbent upon single servicemembers with children or dual 
servicemember couples with children to create not only a family 
care plan but estate planning as well. That might seem a little 
odd when we are talking about young adults in our Nation's 
military, that they would have to go and do estate planning, 
but when we are talking about a sum of $500,000, it is 
absolutely imperative that they pay attention to this before 
they leave, before they are deployed.
    NMFA is concerned that the legal necessities of appointing 
a guardian for a minor child upon the death of their single 
servicemember parent may cause a delay in accessing the death 
gratuity at a time when a family may need this bridge payment 
the most.
    Legislation to change the way the death gratuity is awarded 
must meet two goals, assist with immediate financial needs 
following the death of the servicemember and protecting the 
benefits due to the minor child.
    NMFA would support legislation to allow designation of a 
servicemember's parent or sibling as the recipient of a portion 
of the death gratuity payment if there is a guarantee that 
payment would be used as that financial bridge for the minor 
child until other benefits are awarded, with the remainder 
being placed in trust for that child.
    The protection of the financial future of the child is 
paramount. If the servicemember wants to provide for other 
family members, there are proper mechanisms to designate those 
family members as beneficiaries to the SGLI.
    The VA provides a monthly transition benefit of $250 for 2 
years following the death of the servicemember for surviving 
spouses with children. NMFA would support the extension of this 
benefit to the guardians who are caring for the minor child of 
the deceased servicemembers.
    NMFA believes the surviving children of single 
servicemembers who die on active duty require special 
protections to ensure the proper financial disposition of the 
enhanced survivor benefits.
    NMFA asks Congress to provide the proper protections for 
the children if allowing a guardian to receive the death 
gratuity and to remember the original intent of the death 
gratuity payment was to serve as a financial bridge until the 
initiation of the payment of the survivor's benefits.
    While survivors can never be fully prepared for the news 
their loved one has died in the line of duty, certain 
preparations can and should be made to assume casualty 
assistance is rendered and benefits are awarded quickly.
    At this time, Mr. Chairman, I would like to thank you for 
recognizing the need to fix the DIC offset to the SBP and for 
the very real need of creating an Office of Survivors within 
the VA, combining both VA and DoD resources.
    Talking about the what ifs is not pleasant, but preparation 
in this time of war is necessary. NMFA appreciates the 
responsiveness of the VA and DoD to surviving families when 
needs arise and their continued support. These families deserve 
no less for the sacrifice they have made for our Nation.
    Again, Mr. Chairman, thank you for the opportunity to 
testify before you today, and I welcome your questions.
    [The statement of Ms. Barron appears on p. 56.]
    Mr. Hall. Thank you, Ms. Barron, for your very specific 
suggestions and written testimony and your oral testimony will 
be very helpful to this Subcommittee.
    And now the Chair will recognize for her testimony 
Christine Cote, Staff Attorney of the National Veterans Legal 
Services Program.

                  STATEMENT OF CHRISTINE COTE

    Ms. Cote. Good morning, Mr. Chairman, and members of the 
Subcommittee.
    Mr. Hall. Good morning.
    Ms. Cote. I am Christine Cote from the National Veterans 
Legal Services Program. I am a litigator for them.
    I am here today to talk about what happens to a VA claim 
for benefits when the claimant dies during the claims 
adjudication process and to offer some NVLSP recommendations on 
some legislative changes that might improve this area of the 
law.
    I am sure a lot of you are aware that if a person is 
seeking VA benefits and dies while the claim is pending before 
the regional office, the Board of Veterans Appeals, or the 
Court of Appeals for Veterans Claims, the Veterans Court, that 
claim dies with the claimant.
    Congress has provided a limited opportunity for survivors 
to obtain the benefits that the veteran would have been 
entitled to at his death. But as I will describe, they are 
exceedingly limited.
    NVLSP urges that qualifying survivors should be able to 
step into the shoes and continue the claim started by the 
deceased veteran or the deceased claimant because it is unduly 
harsh to require a survivor to file a brand-new claim. It is a 
brand-new claim for entitlement to accrued benefits. And the 
survivor has to file this claim all the way back at the 
regional office level regardless of where the claim had 
progressed in the claims adjudication process.
    So the claimant, the survivor, who is often elderly or 
infirm, has to start all over again, go to the back of the 
line, and this can add years to the VA claims process which is 
already a painfully slow one.
    Another problem is that only very specific family members 
may qualify as claimants for accrued benefits purposes under 
the statute, 5121. If there is a surviving spouse, the 
surviving spouse may qualify as a claimant for accrued 
benefits. If there is no surviving spouse, the children can 
qualify as survivors for accrued benefits purposes but only if 
they are unmarried and under the age of 18 or under the age of 
23 and enrolled in a course of study in higher education at the 
time of the grant of benefits.
    This requirement is very harsh for the surviving children. 
We urge a change in this area. If a child was a qualifying 
child under the accrued benefits framework at any time during 
the pendency of the parent's claim for benefits, then that 
child should be permitted to qualify as a claimant for accrued 
benefits purposes. It is not fair to penalize the children 
because of the slow VA claims process. And we ask for a change 
in that area.
    Another limitation is that there is a time limit for filing 
claims for accrued benefits. A survivor has to file this brand-
new claim within 1 year of the veteran's death or the 
claimant's death. And this filing deadline is much too short.
    Family members may not be knowledgeable about VA claims law 
and VA procedure, plus, more importantly, they are probably 
preoccupied with funeral and burial issues and just the 
grieving process itself.
    So we would suggest that something more in the line of 5 
years or so, something that is more--five years or so from the 
date of the veteran's or the claimant's death would be a more 
realistic and a more fair deadline. We certainly would not want 
VA to be liable, ad infinitum, but something more fair. One 
year is just not a fair deadline for that.
    Another limitation in these claims is that no new evidence 
may be provided, may be introduced for consideration by these 
survivors in an accrued benefits claim. It is our position that 
if a veteran or claimant who had this derivative claim and then 
died would have been able to submit the evidence that could 
establish his or her claim while he lived, the surviving family 
member should be able to introduce that favorable evidence as 
well.
    So in that situation, survivors would be foreclosed from 
introducing evidence, even medical nexus evidence that could 
have served to show that the veteran was due benefits at the 
time of his death; surviving family members are not free to do 
that under the current structure.
    Another limitation with which we take issue is the 
requirement in the accrued benefits statute that the derivative 
claim, the underlying claim, was one for periodic monetary 
benefits. The Court of Appeals for Veterans Claims (CAVC) has 
defined periodic monetary benefits as recurrent payments 
occurring at fixed intervals. So that would include monthly 
disability benefits and the like.
    But a good example of why this does not work is the case 
Pappalardo v. Brown, in which the benefits court had no choice 
but to deny reimbursement for a specially adapted housing 
reimbursement payment.
    The 20-year service-connected veteran has lost the use of 
both legs. He had worked with the Boston regional office to 
make sure that the plans to modify the house passed muster and 
he died during the pendency of his claim for reimbursement. And 
it was too bad the family had already paid the money and 
because of this requirement of periodic monetary benefits, the 
family could not collect. That is not fair. We urge that 5121 
be modified in that area. If a family has already borne the 
financial burden, then the family should be reimbursed for that 
cost.
    And, finally, I just do want to highlight the case of 
Padgett v. Nicholson. The Federal Circuit last month carved out 
a very narrow exception to the general rule that a claim dies 
with the claimant.
    For 12 years, Mr. Padgett, who was a World War II combat 
veteran, he had been service connected back in 1945 for a leg 
disability, was seeking service connection for a related hip 
disability.
    So he battled the RO and appealed to the Board. It went 
from the Board to the RO, back to the Board, up to the Court of 
Appeals for Veterans Claims, back down to the Board, and 
finally 12 years later it made it back up to the court, briefs 
were filed, went to oral argument, supplemental briefing 
happened.
    It was finally submitted to the court for full decision in 
September of 2004. In April 2005, we were pleased as punch when 
the court reversed the Board's denial as clearly erroneous, 
which would have meant a full grant of benefits. The trouble 
was that Mr. Padgett has passed away in November 2004.
    VA immediately moved to have the favorable decision 
dismissed, rescinded, and we moved to have Mrs. Padgett 
substituted as a party to the appeal. CAVC, bound by this rule 
that the claim dies with the claimant, dismissed the appeal.
    We took it to the Federal Circuit. The Federal Circuit has 
this limited exception now where: the veteran or the other 
claimant had appealed his claim to the CAVC; where all briefs 
were filed; where there was nothing left to do but issue a 
decision; and where there was an identifiable survivor for 
accrued benefits purposes, the CAVC would not be forced to 
remove the decision from the books making it retroactive to the 
date of the veteran's death, nun pro tunc, and the survivor 
could substitute.
    So it is great for Mrs. Padgett, but a lot of survivors 
would not be able to fit into this very limited exception and 
we would urge that qualifying survivors be able to keep the 
claim going if they choose to do so.
    And I see I have gone over and I apologize.
    [The statement of Ms. Cote appears on p. 60.]
    Mr. Hall. Thank you very much for your testimony. That is 
the most unfortunate record, out of the many tales, many 
stories that I have heard, that we have heard in testimony 
before this Subcommittee. So far for me 12 years I think is a 
record. And it is unfortunate whenever the recipient passes 
away before the claim is granted.
    And it actually reminds me a little bit of what many people 
say about the private insurance industry, health insurance 
industry, which is that they are looking to deny, deny, deny as 
long as they can because that way they hold on to the money as 
long as possible.
    And during that time, people die or those with the least 
education, the least persistence, the least means to hire 
attorneys or to put their lives aside to keep pursuing a case 
or pursuing a reimbursement give up or those of an older 
generation who are used to listening to an authority figure and 
going, gee, I guess they told me that I am not covered, I guess 
I am not covered.
    I hear that in the private insurance field, it is somewhere 
around 50 percent of those who are initially denied a claim for 
health insurance coverage just go away and pay it and that that 
is a windfall that is currently accruing to all of the health 
insurance companies.
    I am ashamed to think, and dread to think, that our VA 
might be following a similar policy. But all of your stories 
and those of the other panelists lead me to believe that there 
may be a systematic attempt to pay late, to underpay, to avoid 
paying what the full disability may warrant.
    I just wanted to ask a couple of quick questions. Ms. 
Barron, how would you address the issue of a mother or father 
who leaves SGLI to a spouse mistakenly believing that the 
spouse would take care of his or her child from a prior 
relationship? The spouse does not take care of the child and 
has no legal responsibility to do so. Should Congress get 
involved and, if so, how in resolving this issue?
    Ms. Barron. I think your first line of defense would be the 
actual deployment briefs that the servicemember attends prior 
to deployment and that is where I was talking about the estate 
planning.
    The misconceptions that are out there among our 
servicemembers, they do not fully understand their benefits. 
They do not fully understand the package of benefits and what 
goes to whom.
    I think if you made that very clear and you somehow 
enforced that estate planning just as you enforce a family care 
plan before they are allowed to deploy, I think you would see 
some success with that. It really is a matter of explaining 
what the benefit package is and making sure that they are 
adequately addressing the needs of their children.
    Mr. Hall. And could I ask you also are survivors offered 
formal financial services counseling to include benefits 
counseling in any part of their survivor benefit process?
    Ms. Barron. If I am not mistaken, I think financial 
counseling is available through the VA, but I can get back to 
you on that.
    Mr. Hall. OK. Any other panelists want to comment on that? 
In your experience, is there financial counseling provided as 
part of survivor benefit process?
    Ms. Lee. Chairman Hall, there are facilities available 
through the VA. They have the vet centers and they do provide 
counseling, all kinds of counseling, counseling for PTSD, and I 
believe they would also take care of financial counseling as 
well.
    And I think the Department of Defense has recently improved 
some of their offices' services and financial counseling is 
going to be one of them as well.
    Mr. Hall. Thank you, Mrs. Lee.
    Could I also ask you, based upon the survivors you have 
been in contact with, what percentage are affected by the SBP 
DIC offset?
    Ms. Lee. Well, I think there is probably about 61,000 
total. The ones whose husbands did pay into it, they had to be 
eligible for retirement. And those who did retire of 
disabilities and when he dies, his widow is also eligible for 
DIC.
    And by the way, SBP is an optional premium-based insurance 
type program. Not everyone buys into it. But those who do buy 
into it, they have this offset because they also receive the 
DIC.
    The new widows, I might say those who are from the current 
war since 9/11, are given the SBP without having to serve at 
least 20 years. Obviously most of them are much too young to 
have served 20 years.
    But there was a law that has passed since 9/11 that permits 
these new widows to also be eligible for SBP. And, of course, 
since their husbands died, then their SBP is offset and 
oftentimes it is offset completely because of the lower grade 
or rank of the soldier who died.
    Mr. Hall. Thank you, Mrs. Lee.
    And, Ms. Cote, would you support legislation that permitted 
spouses and children to pursue claims after the veteran has 
died and why or why not?
    Ms. Cote. Certainly. I think the biggest problem with this 
whole--and it is not just a problem for the survivors, it is an 
undue burden on VA as well. You can have a claim that has been 
developed and adjudicated and moved on. Would it not make more 
sense for the agency even from an efficiency standpoint to just 
continue the claim, keep developing evidence as you would if 
the survivors want to do that?
    Maybe it is my economics background, but it just seems like 
that is the most logical course. And if the families want to 
choose that route, why would you not? I mean, first there was 
one claim that progressed through the adjudication process. All 
of a sudden, you start all over again from scratch back down at 
the regional office level. It just does not make any sense. So 
certainly we would support that.
    Mr. Hall. Thank you very much.
    And my time has been unfortunately consumed, and we are now 
going to ask our Counsel for the Minority to ask questions on 
behalf of Mr. Lamborn, who had to go to his other duties.
    Mr. Phillips. Thank you, Mr. Chairman.
    On behalf of Mr. Lamborn, ladies, thank you for being here, 
and all of our panelists, thank you for being here today.
    This question is for Mrs. Lee and, Rose, good to see you 
today. This question was going to be posed by Mr. Bilirakis, 
who cannot be here, but he wanted me to ask. He was pleased to 
see in your written testimony that the Gold Star Wives support 
legislation that would allow the surviving spouses of veterans 
to remarry after age 55 and retain their DIC benefits.
    As you know, Mr. Bilirakis introduced House Resolution 704, 
which would achieve this important legislative goal. If House 
Resolution 704 were enacted, do you have an estimate on how 
many surviving spouses might want to take advantage of the 
reduction in age and remarry at age 55 instead of age 57 as 
current law allows?
    Ms. Lee. Well, no, I do not have an estimate, I am sorry to 
say, but we do constantly get letters from various Members who 
ask when is this going to pass. But I am sorry I do not have an 
estimate of how many.
    Mr. Phillips. But you certainly have----
    Ms. Lee. We do have some, right, right, right.
    Mr. Phillips. Thank you.
    Mr. Chairman, one more question if I may.
    Mr. Hall. Mr. Phillips, go ahead.
    Mr. Phillips. And this is for any one of our panelists. We 
have today heard testimony about a grossly disappointing lack 
of responsiveness and sheer courtesy from government personnel 
who are supposed to help.
    Aside from matters of just an equitable compensation, do 
the people you have interacted with at VA or DoD or any other 
department truly act as if they want to help and are focused on 
your needs? In other words, is there an attitude among them of 
service and stewardship?
    Ms. Barron. I will go ahead and try to answer that 
question. I do feel strongly that DoD and VA, the overall 
impression is that they do really want to help. There is no one 
out there that wakes up every morning and says today I am 
really going to make someone's day bad.
    But as information trickles down and you go to I would say 
the soldiers of those two agencies that deal with family 
members, you do not always get the proper type of responses. 
You do not get the type of attitude that you would like to see.
    And I see this as an active-duty spouse myself, I see this 
in a lot of different areas, not just dealing with the kinds of 
issues that we are dealing here.
    So I think part of the problem again is that our tempo is 
incredibly high. We are going full speed ahead in a lot of 
different directions. And that includes the people that work 
for the DoD and VA as well. So someone has to stop for a minute 
and remind themselves or the people that they work with that 
these are special people out there that deserve special 
treatment.
    Mr. Phillips. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Hall. Thank you, Mr. Phillips.
    And I want to thank our three panelists very much for your 
testimony. And I will add my voice to those other Members of 
the Subcommittee who are aghast that we are so good at starting 
a war and sending our men and women in uniform out and they do 
such a fantastic job when it is asked of them, but when they 
come home, they and their families are not handled with that 
same efficiency and competence and, frankly, with the respect 
that they are due in getting them all the help and assistance 
that they need.
    So we are going to work very hard to try to improve this 
process. And this panel is now excused. Thank you for being 
here.
    And we will call our fourth panel, which consists of Jack 
McCoy, Associate Deputy Under Secretary for Policy and Program 
Management, Veterans Benefits Administration of the U.S. 
Department of Veterans Affairs; accompanied by Director Thomas 
M. Lastowka, I presume I am putting the right emphasis on the 
right syllable, Mr. Lastowka, Director of the Philadelphia 
Regional Office and Insurance Center, Veterans Benefits 
Administration, the U.S. Department of Veterans Affairs.
    Thank you for your patience and for being with us 
throughout this morning's hearing. And the Chair will now 
recognize Mr. McCoy for his testimony. Good morning.

 STATEMENT OF JACK McCOY, ASSOCIATE DEPUTY UNDER SECRETARY FOR 
       POLICY AND PROGRAM MANAGEMENT, VETERANS BENEFITS 
     ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
   ACCOMPANIED BY THOMAS M. LASTOWKA, DIRECTOR, PHILADELPHIA 
    REGIONAL OFFICE AND INSURANCE CENTER, VETERANS BENEFITS 
      ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. McCoy. Thank you. Mr. Chairman and Members of the 
Committee, thank you for the opportunity to testify today on 
the important issue of survivor benefits. Providing benefits 
for the surviving family members of our veterans is one of the 
core responsibilities of the Department of Veterans Affairs. I 
am pleased to be accompanied by Mr. Thomas Lastowka, Director 
of VA's Philadelphia Regional Office and Insurance Center.
    VA provides a wide range of benefits to the surviving 
spouses, dependent children, and dependent parents of deceased 
servicemembers and veterans. We have experienced counselors 
ready to help survivors to understand the benefits to which 
they may be entitled and to assist them in filing claims.
    Veterans Benefits Administration casualty assistance 
officers positioned at each VA Regional Office work closely 
with military casualty assistance officers. They visit 
survivors of servicemembers who die on active duty at a time 
appropriate for the family and assist them in applying for all 
benefits.
    Dependency and indemnity compensation is paid to the 
surviving spouse, children, and parents of a servicemember who 
died in the line of duty in active service or a veteran who 
died after service as a result of a service-connected or 
compensable disability.
    We are currently paying this benefit to 328,000 survivors. 
The DIC application has been streamlined for in-service deaths 
through the use of a special worksheet and claims processing 
has been centralized to the VA Regional Office in Philadelphia. 
The goal is to process all in-service death claims within 48 
hours of receipt of all required documents.
    Surviving spouses currently receive $1,067 a month with 
additional amounts payable for children under the age of 18 or 
if the surviving spouse is in need of regular aid and 
attendance.
    A surviving spouse who has a child or children under age 18 
and receives DIC is also entitled to a transitional benefit of 
$250 per month. The surviving spouse receives this additional 
benefit for 2 years after entitlement to DIC begins or until 
all of the surviving children have reached 18 years of age, 
whichever is earlier. Surviving spouses may continue to receive 
DIC benefits upon remarriage if the remarriage takes place 
after the spouse's 57th birthday.
    VA also pays DIC benefits to parents of deceased veterans 
if the parents' income is below a certain amount. The maximum 
rate currently payable to a sole surviving parent is $524 per 
month. If a sole surviving parent is in need of aid and 
attendance to perform daily activities such as bathing, 
dressing, or eating, an additional amount is payable. The 
maximum monthly benefit in these cases is $808 per month.
    If a veteran's survivors do not qualify for DIC because the 
veteran did not die in the line of duty in active service or 
after service as a result of a service-connected or compensable 
disability or was not totally disabled by a service-connected 
disability at the time of death, they still may be entitled to 
death pension. Eligibility for pension is based on financial 
need.
    The general requirement for this benefit is that the 
veteran had served at least 90 days in active service with at 
least one of those days occurring during a period of war or at 
the time of death was entitled to receive compensation or 
retirement pay for a service-connected disability.
    The Dependents Education Assistance Program provides up to 
45 months of educational benefits to surviving spouses and 
dependent children of servicemembers who died on active duty or 
veterans who died or became permanently and totally disabled as 
the result of a service-connected disability.
    The Dependents Education Assistance Program was recently 
expanded to include the child or spouse of a servicemember who 
was hospitalized or receiving outpatient treatment for a 
permanent and total disability. This change was effective 
December 23d of 2006.
    VA is authorized to pay up to $2,000 toward burial and 
funeral expenses in cases of service-connected deaths. Veterans 
Administration administered and supervised life insurance 
programs provide over $1.1 trillion of coverage to nearly 7.3 
million veteran servicemembers and their families. In fiscal 
year 2006, the VA life insurance programs paid $2.3 billion in 
death benefits to nearly 144,000 beneficiaries.
    Servicemembers' group life insurance covers active-duty 
servicemembers and Reservists, including the Coast Guard and 
uniformed Members of the Public Health Service and the National 
Oceanic and Atmospheric Administration. The servicemembers' 
group life insurance participation rate is 98 percent for 
active-duty servicemembers and 92 percent for Reservists.
    An analysis of the beneficiaries who have received payment 
under the service group life insurance program indicates that 
42 percent of beneficiaries are parents, 28 percent are 
spouses, 10 percent are children, and 10 percent are siblings.
    Mr. Chairman, this completes my statement. We will be happy 
to answer any questions you or other Members of the 
Subcommittee may have.
    [The statement of Mr. McCoy appears on p. 64.]
    Mr. Hall. Thank you, sir.
    And we have a statement for the record from Congressman 
Solomon Ortiz which will be added to the record.
    Mr. Lastowka, are you here to answer questions or would you 
like to make a statement also?
    Mr. Lastowka. I am here to help Jack with questions.
    Mr. Hall. Okay. Great. Just checking.
    All right. So thank you very much for your testimony, Mr. 
McCoy. And my thanks to you and to everybody at the VA who I 
know are working very hard and trying to cope with the need to 
do so much with what seems like less all the time.
    What percentage of in-service death claims achieve the goal 
of a 48-hour processing time and how long does it take after 
processing to communicate results back to the survivor?
    Mr. McCoy. Ninety percent of those claims that we receive 
with all the documentation are processed within 48 hours. And I 
believe the notification to the beneficiary is immediate, mail 
time.
    Mr. Hall. So it is 90 percent as long as all the 
documentation is there?
    Mr. McCoy. Yes, sir.
    Mr. Hall. What changes can and should be made to the 
current process of administering benefits for survivors in your 
opinion?
    Mr. McCoy. I think we strive to and I think we can always 
do better on outreach. I think we heard a number of times today 
that one of the things that beneficiaries complain about is the 
fact that they are not notified timely or they do not know what 
benefits they are entitled to. So we are striving to do that.
    We have created very recently a new Web site for 
beneficiaries that literally can walk you through what you 
actually need to do to file a claim for death benefits. And, of 
course, we take over ten million phone calls a year. We do have 
trained counselors at all of our regional offices to help 
someone file a claim.
    Mr. Hall. You just listed off a dozen or so benefits for 
survivors. Is there separate paperwork required for each 
benefit, SGLI, DIC, SBP, and so forth? Could these be 
consolidated as suggested by Amy Clark into an initial packet?
    Mr. McCoy. I do not believe it could. The one reason that 
comes to mind is that, so often, the benefits are applied for 
at different times. Someone who comes in to apply for education 
benefits might not apply at the same time for DIC benefits.
    Mr. Hall. OK. And how many survivors approximately take 
advantage of the beneficiary financial counseling service? Has 
there been an upward trend since 1999 and how much is spent on 
education and outreach for this program?
    Mr. McCoy. I will ask Tom to address that.
    Mr. Lastowka. And if I could interject something quickly, 
sir.
    Mr. Hall. While you are crunching numbers, I will ask Mr. 
McCoy while you are looking that up if you have an opinion on 
House Resolution 67, which would enable States to help with the 
outreach. Are you familiar with the bill that is in the 
Subcommittee?
    Mr. McCoy. Yes, sir. I personally think it is something 
that has to be looked at very closely. If I am on the right 
subject, we are talking about the States who would develop 
claims. This would not----
    Mr. Hall. This is for helping with outreach.
    Mr. McCoy. For helping with outreach?
    Mr. Hall. For States to help with outreach.
    Mr. McCoy. States do that now. County Service Officers, 
State Departments of Veteran Affairs, they all help us with 
outreach. We work very closely with them to do outreach.
    Mr. Hall. This is $25 million, approximately one dollar for 
each veteran.
    Mr. McCoy. I guess I would say I would want to know more 
about it.
    Mr. Hall. About where that goes?
    Mr. McCoy. How that money is going to be distributed and to 
whom.
    Mr. Hall. OK. And then did the Blackberry or calculator 
come up with its----
    Mr. Lastowka. Yes, sir. I am sorry, sir. I was checking 
that. I thought I had that information.
    Mr. Hall. Maybe you could just get that information to the 
Subcommittee if you could, please, how many survivors are 
taking advantage of the beneficiary financial counseling 
service, has there been an upward trend since 1999, and how 
much is spent by the VA on education and outreach for this 
program. This is information we would like to have at whatever 
time you could get it to us.
    [The following was subsequently received from the U.S. 
Department of Veterans Affairs:]

    1. How many survivors are taking advantage of the BFCS?

    In calendar year 2006, 13,875 individual beneficiaries were 
eligible for Beneficiary Financial Counseling Services (BFCS) as a 
result of payments they received from one of the following programs:

        <bullet>  Servicemembers' Group Life Insurance (SGLI)
        <bullet>  Traumatic Injury Protection under SGLI (TSGLI)
        <bullet>  Family SGLI (FSGLI) (spousal coverage)
        <bullet>  Veterans' Group Life Insurance (VGLI)

    If there are multiple beneficiaries, each is entitled to 
counseling.
    Of the 13,875 eligible beneficiaries, 1,344 contacted Financial 
Point:

        <bullet>  450 individuals requested the Financial Point kit/
        application
        <bullet>  29 completed the process and received written 
        financial plans.
        <bullet>  894 additional individuals called to ask questions.

    Based on these figures, the overall SGLI utilization rate of BFCS 
is 9 percent. That includes phone calls, receipt of the Kit, and other 
contacts in addition to completion of the full Financial Plan.
    Regarding the utilization rate, the following points should be 
noted. First, the BFCS utilization rate for the SGLI Programs compares 
very favorably to that of Prudential's other corporate customers, for 
whom the participation rate is less than 1 percent. Despite the 
relatively high utilization rate, we are continually looking for ways 
to increase it. We are currently conducting a survey of beneficiaries 
to improve awareness of and participation in the program, especially 
among beneficiaries who have the greatest need for this service. We 
periodically meet with representatives from the military casualty 
offices to solicit feedback and suggestions for improvement, and we 
plan to do the same with the Gold Star Wives and others.

    2. How much is spent by VA on education and outreach for this 
program?

    The counseling services are free to beneficiaries. There are also 
no costs to VBA, VA, or the Government for the actual BFCS services. 
Like all SGLI Program administrative expenses, the costs are borne by 
the SGLI program. Total 2006 Financial Point costs were $227,960. This 
is comprised of:

        <bullet>  The cost of the 450 kits that were requested, which 
        are charged to the Program @ $415 per kit ($186,750).
        <bullet>  There is also a charge to the Program for any face-
        to-face meeting requested by a beneficiary. There were 26 face-
        to-face meetings in 2006, charged at $1,585 per meeting ($41, 
        210).

    The BFCS expenses are low enough that they have no impact 
whatsoever on the premium charged to servicemembers.

    3. Has there been an upward trend since 1999?

    No. The utilization rate has remained stable since 1999.

    Mr. Hall. And that is it for my time, and ask Mr. Phillips 
if he would like to ask questions.
    Mr. Phillips. Thank you, Mr. Chairman. I just have a couple 
of questions.
    Mr. McCoy, good afternoon. Thank you gentlemen for both 
being here today.
    We see how in some cases a surviving spouse gets SGLI, 
other payments and then leaves, remarries, and so forth, and 
leaves a child and the guardian, whether that is a grandparent 
or an aunt or uncle or someone else, high and dry.
    Would VA have any suggestions for remedies, assuming that 
there are remedies? I would assume that there must be.
    Mr. McCoy. We have had a lot of discussion. Tom?
    Mr. Lastowka. First of all, I think you have to put into 
perspective what numbers we are talking about. We have done a 
review of the SGLI payments made within the last 2 years. There 
was a total of over 5,000 paid. There were 11 where there was 
some kind of contest involved. And in some of them the child of 
the previous marriage had been made the beneficiary.
    So in terms of absolute volume, there is not a lot. The 
services do counsel members on beneficiary designations. 
Obviously the marriage and family situation today is not what 
it was 50 years ago, so you have more blended families.
    And I think there is evidence in what married 
servicemembers do to suggest that they are making the 
distinction. While 75 percent designate only their spouse, 
another 11 percent are designating their spouse and someone 
else, often a dependent, the child of a previous marriage or 
previous encounter. And another 15 percent make another 
designation completely.
    So I think there is strong evidence that servicemembers in 
general are addressing individual situations. I think what 
would be best is to improve counseling at the point when people 
are making their decisions as to who should be their 
beneficiaries.
    Mr. Phillips. Thank you, sir. Mr. Lastowka, you have a 
sterling reputation in the community and I am sure you do not 
need to be reminded that one veteran, one instance of this is 
100 percent to the people going through it and it is too much. 
So we have to be very careful about it.
    Mr. Lastowka. I understand that. But as we have looked at 
who is the ``right'' beneficiary, it is a very difficult 
question for someone other than the servicemember to answer.
    Mr. Phillips. Thank you.
    Thank you, Mr. Chairman.
    Mr. Hall. Thank you, Mr. Phillips.
    And I have just one more question, are veterans' life 
insurance programs assignable to funeral homes?
    Mr. Lastowka. No. There is no assignment in any of the VA 
government life insurance programs for veterans. The testimony 
that I heard earlier today referred to the Veterans Life 
Insurance Company, which is a private firm. I have no idea what 
they do.
    Mr. Hall. In that case, I have one more question. Mr. 
McCoy, how would you address the issue of a mother or father 
who leaves SGLI to a spouse, mistakenly believing that that 
spouse would take care of his or her child from a prior 
marriage, the spouse does not take care of the child and has no 
legal responsibility to do so? Should Congress get involved 
and, if so, how?
    Mr. McCoy. That is a very tough question obviously. And I 
would only say that we have always made it a right of the 
servicemember to designate who that life insurance goes to. And 
I would like to see that abided by.
    Mr. Lastowka. If I can, sir. When a servicemember dies, 
there are several streams of money that are paid to survivors. 
Some are paid with public funds and then there is the SGLI 
insurance funds, which are paid for by the servicemember.
    I think if we were to review which funds should have a 
designated guaranteed beneficiary and which ones should be at 
the discretion of the servicemembers, those that have been paid 
for by the servicemembers may be the last that we would want to 
designate.
    Mr. Hall. Thank you very much, Mr. Lastowka and Mr. McCoy. 
I appreciate your testimony very much and your patience waiting 
to go last.
    And thank you, and this hearing is now adjourned.
    [Whereupon, at 12:23 p.m., the Subcommittee was adjourned.]


















                            A P P E N D I X

                              ----------                              

 Prepared Statement of the Honorable John Hall, Chairman, Subcommittee 
on Disability Assistance and Memorial Affairs, and a Representative in 
                  Congress from the State of New York
    Thank you all for coming today. I am pleased that so many folks 
could attend this oversight hearing on ``Helping Those Left Behind: Are 
We Doing Enough for the Parents, Spouses and Children of Veterans?''
    As the title suggests, I want to use this hearing to examine how 
effective our government has been in assisting the families of 
veterans. I have noticed on several occasions that when we begin a 
discussion about taking care of veterans, we sometimes bypass or 
overlook the veterans' family. And, when we do get around to the 
veterans' family, we are apt to apply a cookie cutter, one size fits 
all approach. For example, we assume that the veteran is a male and the 
children live with both biological parents; however, this is not always 
the case.
    The current military is made up of many so-called mixed or blended 
families, in which children do not necessarily live with one or both of 
their biological parents. Furthermore, the population of women serving 
in the military continues to grow. More than 160,000 women have been 
deployed to Iraq and Afghanistan. As of February 2007, over 143 single 
parents have died in Iraq and the vast majority were women. As a 
result, we are witnessing a new phenomenon of grandparents raising 
grandchildren that have been orphaned by the Iraq War. We will hear 
from some of those grandparents today.
    I also hope today's hearing will allow the Subcommittee to look at 
how we can better assist those whose spouses have died on Active Duty. 
One reoccurring theme that I have heard on this issue is the difficulty 
in navigating the bureaucratic maze immediately after the 
servicemember's death. And, I want to say at the outset that this is no 
critique of the VA because I think they try to be helpful, but the 
nature of the dual system in which both the VA and DoD provide benefits 
makes it very hard for an individual who has just lost a loved one. I 
would be interested in learning more about a proposed idea to create an 
Office of Survivors, which combines VA and DoD resources in one 
location.
    In addition, I am concerned about those veterans who are facing a 
terminal condition and or who die before the completion of their 
benefits claim. This is of great importance to the families of 
veterans, especially those of the Vietnam era who in many instances get 
overlooked because of the ongoing wars in Iraq and Afghanistan.
    I want to know the current law with respect to an individual who 
files a claim but dies before the claim is fully adjudicated. Can the 
spouse or the children of that individual continue the claim? In the 
108<SUP>th</SUP> Congress, legislation was introduced to permit such 
action. I would like to know if such legislation is still necessary.
    I am also interested in learning more about possible fixes to SBP 
and DIC, so spouses stop getting the short end of the stick.
    In closing, I just want to say that when we speak about veterans we 
must always remember to include their families.

                                 <F-dash>
 Prepared Statement of the Honorable Doug Lamborn, Ranking Republican 
Member, Subcommittee on Disability Assistance and Memorial Affairs, and 
        a Representative in Congress from the State of Colorado
    Thank you Mr. Chairman for recognizing me, and for holding this 
hearing.
    We are here today to discuss how we can best care for the family 
members of our veterans.
    The emotional demands that descend onto their loved ones are 
immense, and we have a sacred responsibility to help them bear that 
burden.
    In reading the witnesses' testimony I learned about a number of 
issues that are facing survivors and the failings of DoD and VA in this 
area.
    I was especially troubled by the situation that the Heavrin family 
has described in their testimony.
    Their daughter, Hannah, lost her life in Iraq. Because of the way 
her Servicemembers Group Life Insurance and indemnity compensation 
policies were written; her husband became the sole beneficiary. 
However, a son she has from a previous relationship receives nothing.
    Even worse, her current husband apparently has done nothing to help 
support the child.
    It is now up to the Heavrin family to raise their grandchild and 
find the money to do so. I am not sure what course of action should be 
undertaken in this situation, but I suspect that something can be done 
to reduce the possibility that this happens to some other family.
    I am also very interested in the concerns of the Gold Star Wives 
and the National Military Family Association.
    Sitting here with these deserving families about to speak to us, I 
must note that this session we have heard promises to provide billions 
of dollars to valiant Merchant Marine and Filipino veterans of World 
War II. We have also noted dozens of other deserving veterans of that 
war, such as the Woman Airforce Service Pilots.
    These families have made great sacrifices for our freedom. It is my 
hope that as we consider compensation and legislation, these families 
will also be accorded due consideration.
    I would like to thank the witnesses for their testimony today. I 
know many of you have traveled from far away to come educate us on this 
issue and I thank you.
    Thank you especially for your sacrifice and your fidelity to our 
Nation.
    Mr. Chairman, I yield back.

                                 <F-dash>
Statement of the Honorable Brad Ellsworth, a Representative in Congress 
  from the State of Indiana, on behalf of Ron Nesler, New Harmony, IN 
                     (Caregiver of Adult Dependent)
    Mr. Chairman, thank you for the opportunity to testify on behalf of 
Honey Sue and the Nesler Family of New Harmony, Indiana. Today, I will 
read the heartfelt testimony prepared by Honey Sue's father, Ron 
Nesler. Mr. Nesler has detailed his family's daily struggle to provide 
care for Honey Sue who has a complicated neurological disorder rooted 
in Spina Bifida. Honey Sue's condition is the result of her birth 
father's exposure to Agent Orange while he served three tours of duty 
as a Marine Rifleman in the Vietnam War. It is my hope that Honey Sue 
and the estimated 200 children with Level III Spina Bifida as caused by 
a parent's exposure to Agent Orange receive the same full health care 
coverage as the 100% Service Connected military veterans.
          Statement of Ron Nesler (Father of Deceased Veteran)
    I am Honey Sue Newby's stepfather, Ron Nesler. My wife Suzanne 
Nesler is Honey Sue's birth mother. Suzanne and I are Honey Sue's court 
appointed guardians and full time care givers. Honey Sue is a beautiful 
36-year-old child with complicated neurological disorders rooted in 
Spina Bifida. She requires around the clock aid and attendance care and 
extensive medical care. The VA concedes that Honey Sue's condition is 
the result of her birth father's exposure to Agent Orange while serving 
three separate 13 month tours in combat as a Marine Rifleman in the 
Vietnam War.
    Honey Sue is very bright, happy, and gregarious. But emotionally 
she operates at about the 10- to 12-year-old level and always will. She 
is the greatest joy in our lives. We are grateful for the opportunity 
to care for her.
    Honey Sue's birth father was a 3 tour combat Marine Rifleman in the 
Vietnam War. Honey Sue is diagnosed with Spina Bifida as the root cause 
of her neurological problems. When the VA Spina Bifida Program was 
started, her mother and I applied for VA compensation for Honey Sue. 
The VA acknowledges about 1200 children of Vietnam Vets as having some 
degree of disability caused by Spina Bifida as related to a birth 
parents exposure to A/O in Vietnam. The children are rated as Level I 
through Level III according to their degree of disability with Level 
III being the greatest degree of disability.
    Honey Sue is one of only about 200 of the 1200 children rated as 
Level III. We are told by the VA that this is the approximate 
equivalent of a 100% Service Connected Disability rating for a military 
veteran. All 1200 children are paid monthly monetary compensation by 
the VA. The amount of the monthly compensation is based on their degree 
of disability. As a Level III totally disabled A/O Spina Bifida child, 
Honey Sue receives about $1,500 per month in VA compensation.
    A 100% Service Connected (SC) military veteran whose situation 
seems to mirror Honey Sue's situation exactly as to cause and result 
receives about $2,500 per month. Honey Sue and the roughly 200 other 
Level III children receive only scraps of very difficult to access 
health care coverage from the VA. And these bits and pieces of health 
care specifically exclude Honey Sue's greatest need which is aid and 
attendance care. The 100% SC military veteran receives full medical 
care including aid and attendance when needed.
    Our position is that since the Congress created the law recognizing 
the 200 Level III children as totally disabled as a direct result of a 
birth parents military service, Congress should ensure full health care 
benefits including aid and attendance care for these 200 children.
    Our greatest concern is who will care for and protect Honey Sue 
when her mother and I are gone? We feel the Congress owes a debt to 
provide full health care for the Level III children including aid and 
attendance care. These children should receive the same care as is 
provided for a 100% service connected disabled veteran. No more and no 
less.
    Both Honey Sue and the 100% SC disabled military veteran are 
conceded to be totally disabled as a result of military service. They 
should be treated the same.
    While the VA does provide some level of health care to the totally 
disabled Level III A/O children it is very difficult to access. The 
first hurdle is to find a doctor who is willing to write a letter to 
the VA prior to treatment stating that the necessary medical care is 
needed as a direct result of Spina Bifida. After the letter is sent we 
typically have to wait several months to get approval for the VA 
payment. Then even if the care is finally approved the same daunting 
process is required the next time the same condition requires 
treatment. This is a bureaucratic nightmare.
    This obviously does not work in the emergencies which frequently 
arise in caring for Honey Sue. The best way we have found to deal with 
this is to pay out of pocket for Honey Sue's care and then battle it 
out with the VA after the fact for reimbursement. Or, we depend on 
welfare or private charities to provide the needed care. Honey Sue has 
received more and better health care through the years as charity from 
the Shriners and the Elks than she has as compensation through the VA. 
We feel that this is a national shame.
    We wonder what happens to Level III children like Honey Sue whose 
parents do not have the money to pay up front and then fight a battle 
for repayment with the VA. What if the parents do not have the verbal 
or paper work skills to fight the battles with the VA or they do not 
know how to access care from private charities? Without strong 
advocates, these children will not receive the necessary care. We also 
wonder what happens when we finally face a need for care for Honey Sue 
that we are unable to fill ``By Hook or By Crook'' through welfare or 
private charity as we are presently forced to do. We know that day will 
likely eventually come. The fact we are becoming elderly and less able 
makes it even more likely and frightening.
    To exacerbate our situation, the local Social Security 
Administration (SSA) office is at this very moment engaged in forcing 
us to apply for Medicare benefits for Honey Sue that even they admit it 
may cost her the loss of a significant amount of her Medicaid coverage 
and leave her with even less health care protection than she currently 
has. We are told that this is ``the law'' and we must comply or they 
will cancel all of Honey Sue's SSI and Medicaid benefits as a penalty 
for noncompliance. SSA says we have no recourse even though they agree 
that to do this is obviously against Honey Sue's best interests. I am 
worried. Honey Sue's mother is sick and distraught over this threat to 
Honey Sue's well-being.
    This is not how things should be. We do not think it is how the 
Congress intended things to be when the VA Spina Bifida Program was 
created. The government has admitted that the total disability of these 
200 Level III kids is the result of military service. They should not 
have to fight like dogs competing for scraps to get needed medical 
care. It should be automatic just like the 100% service connected 
disabled veteran who has the same situation as Honey Sue's.
    We include with this letter a legislative Memorial passed by the 
state legislature of the State of New Mexico. The memorial was 
sponsored by State Representative Nate Cote in the New Mexico House of 
Representatives and by Senator Leonard Lee Rawson in the New Mexico 
State Senate. It was supported by Secretary John M. Garcia the 
Secretary of New Mexico Department of Veteran Affairs and backed by the 
national office of the Vietnam Veterans of America (VVA). The intent of 
the Memorial is to recognize the plight of the A/O Spina Bifida 
children and their families and to urge Congress to finally pay its 
debt to these children who are victims of friendly fire from the 
Vietnam war by providing them full health care coverage and full aid 
and attendance care through the VA Spina Bifida Program. We have 
included the copy of the New Mexico state legislative Memorial to 
demonstrate that others besides our family recognize the injustice of 
the treatment dished out to the Level III children.
    The people to whom I am very grateful for being involved in passing 
this New Mexico state legislative memorial for Honey Sue are:

          1. Rep. Nate Cote originally sponsored the memorial in the 
        New Mexico House of Representatives. Rep. Cote's phone number 
        is (505) 202-1872 and his e-mail is <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="78363b170c1d38221119161d0c561b171556">[email&#160;protected]</a>
          2. Senator Leonard Lee Rawson sponsored the memorial in the 
        New Mexico State Senate. Senator Rawson's phone number is (505) 
        647-3568 and his e-mail is <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a0ecf2e1f7f3efeee0f2c1d7d3cfce8dc9cec38ec3cfcd8e">[email&#160;protected]</a>
          3. Secretary John M. Garcia, Secretary of the Department of 
        Veteran Affairs for the state of New Mexico supported the 
        memorial for Honey Sue and is a true friend of veterans. His 
        phone number is (505) 469-4986 and his e-mail address is 
        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="93d9fcfbfddebdd4f2e1f0faf2d3e0e7f2e7f6bdfdfebde6e0bd">[email&#160;protected]</a>
          4. Lou Helwig is an assistant to Secretary John M. Garcia in 
        the New Mexico Department of Veteran Affairs. He is very 
        knowledgeable of Honey Sue's situation and testified in support 
        of the memorial in the New Mexico state legislature. Mr 
        Helwig's phone number is (505) 827-6312 and his e-mail is 
        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b6dad9c398ded3dac1dfd1f6c5c2d7c2d398d8db98c3c598">[email&#160;protected]</a>
          5. Rick Weidman (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="eebcb98b878a838f80ae98988fc0819c89">[email&#160;protected]</a>), Sharon Hodge 
        (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="74273c1b101311340202155a1b0613">[email&#160;protected]</a>), and John Rowan (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e288908d95838ca2949483cc8d9085">[email&#160;protected]</a>) of the 
        Vietnam Veterans of America were all supportive of the memorial 
        for Honey Sue they may be reached by phone at (301) 585-4000.
          6. Richard Curry is a writer for the ``Veteran'' the magazine 
        of the Vietnam
        Veterans of America. He has contacted our family about doing a 
        story in
        the near future about the many challenges facing Honey Sue as a 
        Level III
        Agent Orange Spina Bifida child. Mr. Currey's e-mail address is 
        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ec9e858f848f999e9ed9d8ac958d848383c28f8381c2">[email&#160;protected]</a>

    The financial cost of paying the debt to these children would be 
very small due to the fact that there are only about 200 of them. 
Ironically, we feel the reason that this sad situation is allowed to 
persist is exactly because only 200 such Level III children exist.
    We ask that Congress create legislation providing full health care 
coverage including aid and attendance care for the fewer than 200 Level 
III Agent Orange Spina Bifida children currently acknowledged by the 
VA. Thank you for your interest.

                               __________

                         HOUSE JOINT MEMORIAL 5

       48th legislature--STATE OF NEW MEXICO--first session, 2007

                             Introduced By

                             Nathan P. Cote

                            A Joint Memorial

 URGING CONGRESS TO FULLY FUND MEDICAL CARE AND AID AND ATTENDANT CARE 
  SERVICES FOR HONEY SUE NEWBY AND THE OTHER LEVEL THREE SPINA BIFIDA 
CHILDREN OF PARENTS WHO SERVED IN VIETNAM AND WHO ARE TOTALLY DISABLED.

    WHEREAS, the Federal department of veterans affairs acknowledges 
that one thousand two hundred children of Vietnam war veterans have 
some degree of disability resulting from their birth parents' exposure 
to agent orange during military service in the Vietnam war; and
    WHEREAS, approximately two hundred of these children of war 
veterans are designated as level three spina bifida children, who are 
considered to be totally disabled; and
    WHEREAS, these children, designated as totally disabled as a result 
of their birth parents' exposure to agent orange during military 
service in Vietnam, are in a situation that is indistinguishable from 
that of any one hundred percent service-connected disabled veteran who 
is totally disabled as the result of military service; and
    WHEREAS, these two hundred level three spina bifida children of 
Vietnam war veterans are not treated equally with the disabled military 
veterans as regards compensatory medical care and aid and attendant 
care; and
    WHEREAS, the financial cost for families of these children can be 
crippling, and many proud American military veterans and their families 
must depend on welfare or charity to provide the vital medical care and 
attendant care their children need; and
    WHEREAS, at least one of these children, Honey Sue Newby, whose 
birth father served three tours as a marine infantryman in Vietnam, 
resides in New Mexico; and
    WHEREAS, the legislature seeks to honor and encourage fair 
treatment of all persons who have made personal sacrifices in the 
military defense of our Nation;
    NOW, THEREFORE, BE IT RESOLVED BY THE LEGISLATURE OF THE STATE OF 
NEW MEXICO that it urge the United States Congress to provide full 
medical care and attendant care to Honey Sue Newby and the other level 
three spina bifida children who are totally disabled as a result of 
their birth parents' military service in Vietnam; and
    BE IT FURTHER RESOLVED that the New Mexico congressional delegation 
be requested to work vigorously for adequate funding to provide full 
medical care and aid and attendant care to all level three spina bifida 
children who are totally disabled because of the effects of agent 
orange used in Vietnam; and
    BE IT FURTHER RESOLVED that copies of this memorial be transmitted 
to each member of the congressional delegation, the chief clerks of the 
United States House of Representatives and the United States Senate and 
the United States Department of Veterans Affairs.

                                 <F-dash>
  Statement of the Honorable Tom Latham, a Representative in Congress 
                         from the State of Iowa
    Chairman Hall, Ranking Member Lamborn, Members of the Subcommittee, 
I am honored and privileged to have the opportunity to testify before 
you today and to introduce two of my constituents who will be appearing 
shortly.
    Many of our Nation's service members are single parents who rely 
upon grandparents or other relatives to care for their children while 
they are deployed. It has been reported that out of the 3,323 U.S. 
service members killed in the War on Terror, more than 143 were single 
parents.
    Unfortunately, the families of these soldiers have unintentionally 
been excluded from important benefits intended to help them. Under 
current law, the $100,000 gratuity paid upon a soldier's death must go 
to any surviving children if there is no surviving spouse. If the 
surviving children are minors, the money is put into a trust account 
according to the laws of their state, which they cannot access until 
the age of 18. This oversight in the original law excludes grandparents 
or other relatives from access to the benefit of this payment to help 
raise the service member's children, even if that was the service 
member's wish. As we will hear shortly, the Jaenke family from my 
district knows first hand the difficulties these restrictions cause.
    To address this flaw in the death gratuity benefit I have 
introduced H.R. 1115. If enacted, this legislation would allow service 
members the option of voluntarily designating a parent, brother or 
sister who would have custody of the service member's children, as the 
recipient of all or part of the death gratuity.
    For deaths occurring before enactment, the bill provides an opening 
for courts to redistribute death gratuity funds to caretakers, if a 
clear expression of intent regarding the use of the funds was left by 
the service member.
    While this situation may not affect a large number of our men and 
women serving in the armed forces, I believe a change in the law is 
needed as a matter of fairness to our service members who put 
themselves in harms way and to their families. That is why I encourage 
the Subcommittee to give this issue its full consideration. I look 
forward to working with each of you in furthering the cause of our 
Nation's veterans and their families.
    Now I would like to introduce Susan Jaenke from Iowa Falls, Iowa 
and her granddaughter Kayla. Her daughter, Naval Petty Officer 2nd 
Class Jamie Jaenke, served as a reservist with the Seabees. Tragically, 
she was killed last summer while serving freedom's cause by a roadside 
bomb in Iraq. Our nation will be forever grateful for Jaime's 
dedication and service, and the sacrifice she made for our nation. As 
Commander David Marasco said of Jamie during a memorial service for her 
last year, Jamie ``willingly accepted risks in order to put herself in 
a better position to help others.'' She is the type of dedicated 
soldier that we use as an example to our children and grandchildren 
when we talk about the definition of a true American Hero. Welcome 
Susan and Kayla, and thank you for making the long trip from Iowa to 
share your personal story with my colleagues today.

                                 <F-dash>
 Statement of Susan Jaenke, Iowa Falls, IA (Mother of Deceased Veteran 
                      and Guardian of Grandchild)
    In January of 2006, my daughter Jaime was deployed on the first 
tour of Iraq. A Navy Corpsman, Jaime was excited to be heading 
overseas. Always one for adventure, she knew that she was heading into 
harms way, but she was confident that she would make it home. As she 
prepared to leave, I whispered to her ``Please don't go where I can't 
follow.'' She just laughed at me and reminded me to take care of her 
daughter and her horses. That was the last time I saw my daughter. She 
was killed by a roadside bomb on June 5th of 2006.
    I have tried to keep my promise to her, but the road to where we 
are today has come with a price tag that I don't have the finances to 
cover.
    When Jaime was deployed, she left me money that was to come from 
the gratuity that all families that lose a warrior in combat. Unless 
you are a family as ours. In a letter that she sent me, she wanted me 
to use $75,000 of that $100,000 for the raising of Kayla and $25,000 
for a business that we had started together. Thanks to a clause that 
was put into that gratuity, we were not able to get it but it was put 
into a trust for my granddaughter that cannot be accessed until she is 
18. I have 9 years before that happens. Then as it is set up it will be 
issued to Kayla.
    Without that money I have been faced with bills that far exceed my 
income. I have tried to keep up my end of the deal that I made with my 
daughter but that has failed. Not by my hand, but by the hand of our 
government.
    In the days and weeks that followed her death, we had to get 
permanent custody of Kayla that took an attorney. We had to file for 
Social Security and fill our files of paperwork for the Navy so that we 
could get some help in raising Kayla. These papers were filled out by 
me and given to our CACO Chief Erdman. These papers took a good part of 
an hour. After doing all this, I said it was a relief that we had that 
done. He laughed at me and told me that it would not be the only time 
that I have to do it. I thought that that statement was a strange thing 
to say. He was right, I was wrong. Over the next 6 months, I filled out 
the same paperwork over and over again. Sometimes up to 6 times. 
Calling Millington became a distasteful thing.
    I kept a journal at my phone and got names and extensions just so I 
got the same person all of the time or wrote down names of people never 
to call again. Two of the most memorable was the lady that had me 
apologizing to her for interrupting her day and the gentleman that said 
he got the papers, two days later didn't get the papers, faxed me the 
papers which I faxed back. Two days later, he called me back to yell at 
me because now he had 3 copies (my originals and two more), and he 
wanted to know what I was trying to pull. Amazing isn't it?
    Or the Commander that is second in charge of the funds that Kayla 
gets every month. A retired General that I know from Iowa Falls found 
his name and wanted him to explain to me what a parent who was given 
the gratuity from her daughter that was killed in action could not get 
that money. After receiving his sympathy, he proceeded to tell me that 
it was my government's fault that we could not get this money and that 
Kayla would have to learn to do without. That she would not be able to 
get things that she wants. He also told me that he had a daughter from 
a second marriage, and she couldn't have the things that she wanted 
because he had to pay child support and spousal support. I thought that 
was really strange. After all, his daughter still has parents and 
brother and sisters. Kayla has no parents and will never have any 
siblings. Some of these things have just amazed me.
    In the mean time it took 3 months to get any money and the first 
was Social Security. This I had, then didn't have, and had, and didn't 
have, because the woman, Thai, was to take care of that made a mistake. 
By the time I was 3 months behind on my house payments and the money 
that Jaime was sending me to take care of our business was cut off and 
her death, so I got behind there and I had a little girl that needed 
food and new clothing to get ready for school. You see, I am myself 
disabled and cannot work to make money to have ends meet. By the time 
we got the Social Security, I was further behind.
    It took a month more to get money from DFAC and from the VA. By 
December, I had everything that we were to get for help with Kayla, and 
at that time, I was so far behind that I didn't even have money for 
Christmas. If it weren't for a local VFW, we would not have had a 
Christmas. They and Target came up with $1,000. Any money that I got 
after that was like sand of a fire. It just smoked.
    Then came that day that I got a call from the Washington Post and 
Donna St. George. I call her our guardian angel because with a story by 
her everything started to change. People got to know of our trouble and 
with the help of strangers (not my government), I was able to get my 
house payments caught up, our electric bills and heating bills and so 
many bills that I couldn't pay since my daughter's death. At that time, 
I was 2 weeks away from foreclosure. Now I am caught up. I guess no one 
knew that if I lost my house, where would Kayla live? My struggles are 
not over yet, I still have a long way to go. Every month I am still 
worrying.
    I know that the money for the gratuity changed to protect the 
children of the warriors that have fallen, but that doesn't always 
work. I have heard where it still is going to the wrong people. All it 
would take for this to be fixed so that it did work, would be for 
counselors to be brought in and lawyers to be brought in when there is 
a deployment. For these people who are already on staff to help our 
warriors make the right decisions and to fill our wills so that the 
people who need to be protected are protected. In my daughter's case, a 
little help in that area would have made the difference.
    It is obvious that she thought she was doing the right thing. She 
wouldn't have written the letter to me telling me what to do with that 
$100,000 if she had know that there would be complications. So through 
all of this attention that we have gotten, I get emails on a regular 
basis that come from our enlisted people saying that they have looked 
at their paperwork and found things that are wrong. I have had tearful 
conversations that tell of how the wrong person would have gotten their 
money in case of their death, most of these coming from single parents. 
Most of them not knowing about the clause.
    I am grateful for this opportunity to talk to you. I am grateful 
that there is someone listening. But it is time to start listening and 
time to start hearing and making a difference. Because I have already 
lost a daughter. What else do you want me to lose?

                                 <F-dash>
 Statement of Amy Clark, Bartow, FL (Spouse of Terminally Ill Veteran)
    Dear Members of the Subcommittee on Disability Assistance & 
Memorial Affairs of the House Committee on Veterans' Affairs. I am here 
to speak on behalf of all Veterans not just my Husband Russell E. Clark 
whom is a Viet-Nam Veteran himself. I, at the time didn't know what 
Viet-Nam was, I was just a child so therefore I didn't live Viet-Nam, 
but I am living it now every day with my husband Russell. I can't tell 
you how much it pains me to see a once vibrant man, now just a skeleton 
of what he used to be. Let me share with you why I say I am now living 
in Viet-Nam. On January 8th, 2007, Russell was in the hospital and I 
went to see him and Russell said, ``There is a card from a doctor he 
wants you to call him.'' Which the date I just mentioned is our wedding 
anniversary. So I stepped outside to return the call to the doctor. The 
doctor said, ``Mrs. Clark I am sorry to inform you that your husband 
has Lung Cancer.'' I said ``Well since you have ruined my day, my life 
and my anniversary why don't you just tell me how bad the situation 
is?'' He declined and said he would come the next day to the hospital 
and talk to Mr. Clark and me. Of course I was shattered and didn't tell 
my husband.
    The problem with the VA is that there is too much red tape when a 
situation arises such as this. That is why claims sit on someone's desk 
or just get ignored completely until it is too late. There is 
bureaucratic doublespeak (taken from the article in the Lakeland Ledger 
Dated Sunday April 15th 2007). More truer words couldn't have been 
spoken. Yes, the VA offers you a book of benefits that you may be 
entitled to. But, try and get them. It is totally ridiculous that there 
are so many forms and questions to answer for even the most minimal 
benefits. I can tell you that to date I have over 400 pages of 
documentation that I have turned into the VA just for Mr. Clark, thus 
leading me to the next point that the system must be changed so that 
justice can be given to all veterans and their families. I have had to 
stop working and quit going to college to stay home and care for my 
husband. This system is just so unqualified. People need education on 
how to apply for benefits. It is extremely overwhelming to have to wade 
through the mountains of paperwork that the VA requires. There is no 
communication set up to help civilians understand what needs to be done 
and the proper procedures to go through. I was fortunate to find Ernie 
Roberts and Donna Adams two very knowledgeable people to help me with 
my husband's situation which is still not resolved. Mr. Clark's time is 
short and we need to change things now. I can't even speak to the VA 
unless they speak to Mr. Clark first due to privacy issues, is what I 
am told. Well to be quite frank about the matter, there are days when 
Mr. Clark can't speak clearly because of the medication he is on for 
his cancer.
    1. When a veteran requests a fiduciary it should be granted. No one 
should be threatened and told that whatever benefits you are getting 
will be stopped while that process is being taken care of--How terrible 
to be threatened that way.
    2. The older veterans, especially the Viet Nam veterans, who have 
been shoved under the carpet for many years and the veterans coming 
home now, seem to get their benefits at the drop of a hat.
    3. No one should have to produce documentation such as a morning 
report which is what I was requested to do. Needless to say, Mr. Clark 
happens to have just that in his possession, of which I am sure not 
many veterans do.
    4. The nonsense about having this medal or that medal is totally 
ridiculous, when in fact John Kerry threw his medals over the wall at 
the White House some time ago for all the world to see.
    5. When a veteran has a DD2-14, that should be sufficient 
information to show what time they put in the service and where they 
where.
    6. Does it matter what their job was? Of course not. They gave so 
that we may live in the United States of America the land of the free 
and the home of the brave.
    7. The Blue Water Act was a good thing, but still there are 
veterans that flew B66's and can't get benefits, because they can't 
prove they were in Viet Nam.
    8. Life insurance policies issued by the Veteran's Life Insurance 
Co. must be changed so that they can be assignable to a funeral home. 
Most people don't have the money for funeral expenses just sitting in 
the bank.
    9. Buddy letters shouldn't be requested as too many veterans have 
been killed in action or died along the way.
    Mr. Clark himself was told we are just going to keep burying the 
paper work until all the Viet Nam veterans are dead and then we won't 
have to pay off on any claims. This is just stupid; someone's idea of a 
bad joke. Mr. Clark has been fighting a separate issue for PTSD for 
quite sometime and each time he is denied because they say there isn't 
enough information to prove he has PTSD. Yet Mr. Clark has 
documentation in his possession from the Veterans Hospital in Tampa 
Florida stating his main Diagnosis is PTSD. Imagine that if you will. 
One thing stated in that documentation is you don't have all the 
symptoms. Well if I am depressed, do I have to have all the symptoms of 
depression to be diagnosed with depression?
    The issue of stressors that the VA looks for just seems to be more 
bureaucratic doublespeak. I was told the stressors could be things like 
gunfire, picking up dead bodies, shooting women and children and so 
forth. Mr. Clark himself was part of assassinations--If that isn't a 
stressor I don't know what is.
    Now the new stressors have come out just recently, such as 
diabetes, heart disease, and strokes and on and on. So if the 
documentation is provided by civilian doctors that should be good 
enough. Why torment these veterans any more? Give them what they 
deserve.
    It is my understanding as well that the VA doesn't like when a 
veteran gets a civilian doctor or any civilian information for that 
matter. They claim they are too overworked and too underpaid to handle 
all of these themselves so why put up a stink when it comes to the 
documentation. If the documentation is presented that should be good 
enough. I was told I could get a ``rent a doctor'' to sign any 
documentation that Mr. Clark might need and it would be accepted. What 
is all this craziness? Let's take care of all the veterans but let us 
take care of the older veterans first and make the younger ones wait 
just like the Viet Nam veteran's have had to wait. This system is just 
wrong.
    1. When a veteran dies and his/her spouse and children are entitled 
to DIC. Let's stop the nonsense and just have a short form for them to 
fill out and turn in the necessary documentation and not be told this 
will take 6-8 months or longer to complete. It is no wonder the 
Department of Veterans Affairs can't get their jobs done. They make it 
more difficult on themselves.
    2. Each veteran should be given a packet the first time they ever 
walk into a VA office with all the forms that they may need all in a 
nice little packet since the VA is so big on paperwork.
    I had the most awful time getting added to be my husband's 
dependent as when we went to the VA in 2004. They filled out a form 
making me his dependent, but only in the event that he should die in a 
VA facility. The man that did this was Alex Benjamin, whom I understand 
is no longer with the VA. He never told us that because Mr. Clark's 
first wife was deceased and that because I had been married before, 
that we would have to present the former Mrs. Clark's death 
certificate, our marriage certificate, as well as my divorce decrees. 
How insane is this? Had we been told in 2004, we could have done so 
then, and not go crazy now trying to scramble for this information. All 
of the information that they requested is of course a matter of public 
record, thus they have access to it already. I feel that the only 
documentation that should have to be presented in this situation is the 
marriage certificate. That is an official document, thus being all that 
is needed. What about the young mother that was just recently killed in 
action and the grandparents have the child now and can't get benefits 
because they don't have proper documentation such as a will? For 
heavens sake, this is nuts. The young mother wrote on a paper that her 
benefits were to go to her child. What does it take to get someone to 
listen? The first and most important step in communication is 
listening. Can you tell me is anyone listening?
    My sincere thanks, Amy M. Clark.

                                 <F-dash>
   Statement of Matthew B. Heavrin, Redlands, CA (Father of Deceased 
                  Veteran and Guardian of Grandchild)
    My name is Matthew B. Heavrin. My wife's name is Barbara Jean 
Heavrin. We live in Redlands, California. We have four children, 
Matthew, our oldest is at the Naval Academy in Annapolis, MD. He will 
graduate this May. Our daughter Hannah Leah served in the U.S. Army as 
a quartermaster in Iraqi freedom until she was killed September 4, 
2006. Our third child Philip, serves in the United States Marine Corp 
and is currently based in Camp Pendelton, California. Our fourth child 
is Ruth Ann, she will be graduating from Redlands High School this June 
and will be attending Cal State San Bernardino this fall. I, myself am 
a U.S. Navy veteran. I work as a Power Plant Operator for Los Angeles 
County. My wife is a Registered Nurse and is employed by The San 
Bernardino County Sheriffs. As you can see, our family has served and 
will continue to serve this country and mankind. My wife and I have 
instilled in each of our children the importance of love for country 
and to make this world a better place through service and responsible 
living.
    Our daughter Hannah had aspirations to go to college after high 
school. We had some money saved up but not nearly enough to afford the 
full tuition. Our goal was for Hannah to go out and look for grants, 
scholarships and other financial aids that would fill the gap. She came 
home one afternoon with an Army recruiter. We listened to him and asked 
Hannah if this is what she truly wanted. She said yes and off to the 
army she went. After her basic training she went to AIT (individual 
training) and met a young man there who was also in the Army. The two 
began a relationship and had planned on marriage and Hannah became 
pregnant. Their relationship failed and Hannah returned home after 
being discharged from the Army. Shortly after giving birth to her son 
Todd on November 02, 2004, she returned to the army against our wishes. 
I personally got on my knees and pleaded with her not to go back into 
the Army. That she would most certainly end up in Iraq. She said that 
she was told that the army does not send single mothers on deployment. 
She did indeed reenlist and went to another Army specialized school to 
become a quartermaster and left Todd in our care. While at 
quartermaster school she met Chris McKinney, someone she had gone to 
high school with in Redlands. After Hannah was finished with 
quartermaster school, she was assigned to Fort Lewis, Washington. I 
moved all of Hannah and Todd's personal belongings from Redlands to 
Fort Lewis in July of 2005, and helped her find a townhome in Tacoma, 
Washington and assisted her in securing childcare on the base. A few 
weeks later, she told us that she was assigned to the 542<SUP>nd</SUP> 
Maintenance Co. as a quartermaster. In September I learned that the 
542<SUP>nd</SUP> would be deployed to Iraq. My heart sank, and I almost 
knew her fate right then. I flew up to Tacoma to stay with my grandson 
while Hannah went with her unit for maneuver training in Oregon. While 
staying in her townhome I couldn't help but notice all of the love 
letters that Chris McKinney had written to Hannah. They were pasted on 
the wall like wallpaper. Just before the 542<SUP>nd</SUP> Maintenance 
Co. deployed, Hannah brought Todd and some of his things down to us 
along with a power of attorney so that we could make decisions for Todd 
on Hannah's behalf. It was then that I learned that Hannah had gotten 
married to Chris McKinney. We had not even met Chris at this point and 
had only a brief description of him. It was late October 2005 and 
Hannah's unit deployed to FOB Taji, Iraq in the middle of November 
2005.
    While in Iraq, Hannah would phone home and occasionally write. She 
would tell us how she was re-assigned from the quartermaster office to 
security. She spent nearly all of her time up in a guard tower along a 
perimeter road around FOB Taji. She also sent some photographs to show 
the desolation where she was posted and the conditions that she served 
in. What stood out to me was how lonely she was and how much she wanted 
to get home. She missed her son Todd and her new husband Chris. In May 
of 2006, she was flown home for 2 weeks R&R. She was so happy to be 
home and did not want to go back. Todd recognized her almost 
immediately. Chris, Hannah and Todd rented a convertible and had a 
wonderful time as the newly formed family spent their time together. We 
had talked and even began preliminary plans for Chris and Hannah to 
have a church wedding and then Chris would adopt Todd. A few days 
before she was to return to Iraq, Hannah's demeanor changed. She was 
regretting separating from us and Chris and Todd again. She even asked 
me if I would break her arm for her so that she wouldn't have to 
return. Of course I did not and Hannah did return to Iraq. Chris 
returned to Fort Lewis. Todd stayed with us in Redlands.
    On the morning of September 04, 2006, I was at work, when I 
received a phone call from Barbie. She explained to me that I needed to 
get home right away. There were two army chaplains at our door.
    I cannot describe to you the range of emotions that I personally 
endured and grieved with Barbie as she went through hers. From the time 
of the chaplain visit, to planning the funeral, to sorting out Hannah's 
life and that in relation to Todd's. We have shed buckets of tears, 
felt guilty, angry inadequate, and generally depressed. Through it all 
we have endured through our faith, our friends and each other. We have 
been taking care of our grandson since the day he was born. We 
videotaped Todd in various stages of his young life so that we could 
share the moments with Hannah in Iraq. The video CD's were packaged and 
ready to be mailed out and they would have been if Monday weren't a 
holiday.
    The cause of Hannah's death was under investigation and it was 
difficult to determine how or why she died. As the investigation 
progressed, we learned that the circumstances revolving around Hannah's 
death were criminal in nature. Never before have I felt this way. It is 
though we were betrayed by the sense of honor and service we adhered 
by. Our daughter died for one man's selfish satisfaction. As an NCO in 
the army, he was to be about the business of looking after his 
subordinates. He did otherwise. We feel cheated. Todd's mother is gone. 
He was cheated. Hannah's siblings have lost a wonderful friend, 
confidant, and sister. They were cheated. Chris lost his wife. He was 
cheated.
    It has come to our attention that each soldier had a $100,000 
``death gratuity'' and a group life insurance policy for $400,000. We 
were not aware of these policies until of recent. We also learned that 
Chris McKinney received both. I do not know if my daughter so 
designated Chris or if it was automatically paid out to Chris as the 
survivor since he is the husband. We believe that the assumption was 
made that Chris is caring for Hannah's son Todd, which he is not. The 
burden of raising our grandson has been on us only. We receive support 
from no one. Nor has Chris McKinney offered any of his $500,000 to us 
or to Todd. We are not in the business to take anything that does not 
belong to us, but to have our daughter taken from us in the manner that 
she was, and for Todd to grow up without his mother, without her death 
benefit, is just plain wrong. We believe this is an anomaly that needs 
to be remedied to benefit the surviving sons and daughters of deceased 
soldiers, sailors and airmen to assist the grandparents who raise them.

                                 <F-dash>
 Statement of Kimberly Dawn Hazelgrove, Lorton, VA (Widow), and Member 
                    Gold Star Wives of America, Inc.
    ``With malice toward none; with charity for all; with firmness in 
the right, as God gives us to see right, let us strive to finish the 
work we are in; to bind up the nation's wounds, to care for him who has 
borne the battle, his widow and his orphan.''
         --President Abraham Lincoln, Second Inaugural Address, March 
        4, 1865
INTRODUCTION/BACKGROUND
    Chairman Hall, Representative Lamborn, and Members of the House 
Veterans' Affairs Disability Assistance and Memorial Affairs 
Subcommittee, I would like to thank you for the opportunity to testify 
before you today on behalf of all Gold Star Wives regarding the 
importance of addressing critical services for America's military 
widows and widowers and their children.
    My name is Kimberly Hazelgrove. I am the widow of CW2 Brian D 
Hazelgrove, a native of Edinburgh, Indiana. My husband entered the US 
Army shortly after graduating high school and served over ten years. 
Brian was an energetic and charismatic leader. His soldiers and 
superiors always had the utmost respect and admiration for his ethics, 
compassion and abilities. He was a career soldier full of goals, 
ambition, dedication and potential.
    Brian was also a husband and father to Taylor, Zachary, Brandon and 
Katelyn. He was a gentle and loving father who never failed to prove he 
adored his children. At times we both had to endure single parenthood 
while the other was deployed and understood the important balance of 
family and mission. And Brian was dedicated to both. He faithfully 
deployed to Iraq in support of America's mission in November 2003. On 
January 23, 2004, Brian was flying a mission in support of ground 
troops in Iraq with pilot CW2 Michael Blaise when their helicopter 
crashed. Both Brian and Michael were killed. Brian was 29. Our youngest 
child was just 7 months old.
    I am here before you as a representative of America's military 
widows and widowers and as a Member of Gold Star Wives. My hope is that 
by the end of my testimony; you will see the need to act immediately to 
rectify the unfair and inadequate resources that Gold Star Families 
endure after notification of death of their service member.
    I was a Sergeant First Class in the U.S. Army stationed at Fort 
Drum, the mother of our infant and toddler, step-mother to two children 
and the wife of a deployed soldier. Life was difficult, but with the 
support of our units and families, I was independently managing the 
household and raising our family, always with the hope that Brian was 
safe and anticipating his return. Our lives were changed forever when 
Brian was killed.
    A year passed before I was able to present the Department of the 
Army's Casualty Assistance Office feedback on the various aspects of my 
case. They responded with appropriate measures to correct discrepancies 
and implemented procedures to ensure further training of personnel and 
strict adherence of policy within their area of responsibility. 
However, much still needs to be done to secure quality of life for all 
survivors.
PERSONNEL TRAINING
    I feel that adequate training and resources are still lacking for 
all personnel who function in the various roles while supporting a 
Casualty's family. Across the spectrum of DoD and VA, there is not one 
single dedicated office for the Military Survivor. It is left to the 
various representatives of these organizations to do their best to 
inform, assist and support the family member in their time of need. And 
they can only do so much within their subject area of expertise. After 
the initial response of support has ended, family members struggle to 
research, understand and stay informed of changes to benefit 
entitlements and legislative actions.
    Notification Officers face the most daunting task of all; informing 
the family of their loss. These brave men and women face a number of 
scenarios of reactions, ranging from avoidance to violence, and will 
likely come face to face with multiple reactions during their time with 
the family. Unfortunately for these personnel, notification procedures 
across the military are still inconsistent. Unsuspecting Notification 
Officers (Primarily a Chaplain and an Assistant) are sent to the wrong 
address. In my case, the Notification Officers received the wrong 
address from Fort Drum's Casualty Assistance Office and actually had to 
call me in the middle of the night before arriving at my house. By the 
time they arrived, I knew why they were coming. I was a soldier and had 
received training on this scenario. Now, I was the recipient. I know my 
husband filled out all of the appropriate paperwork that was required 
before his deployment because I was present at the time. In addition, 
copies of this paperwork was kept at the unit, sent home with him and 
also put into his personnel file. Where was the breakdown in 
communication and procedures that provided these soldiers the wrong 
address?
    Casualty Assistance Officers (CAO) provide initial and essential 
support to meet any need within their power of the grieving family 
members. My Casualty Assistance Officer (CAO) was an extraordinary 
person and I owe most of my recovery from this tragedy to him. I met 
CPT Brian Batchelder early the next morning at my home. With very 
little training, inadequate resources and at times minimal support from 
outside personnel, he loyally devoted himself to meet our needs. He 
escorted me throughout the application process to initiate my benefit 
entitlements, tracked my sister's safe and prompt arrival back into the 
country from her own deployment, helped facilitate funeral 
arrangements, assisted in the relocation of my family and provided 
unlimited emotional support. Although extremely helpful and intuitive, 
CPT Batchelder was not an expert on benefit entitlements or transition 
procedures.
    As a Casualty Assistance Officer, CPT Batchelder was not provided 
the basic resources to perform the essential duties of the task he had. 
Adequate workspace with communication equipment was not provided. Many 
times he was forced to return to his office within his unit to work on 
my case. While there, he was tagged with responsibilities outside of 
his Casualty Assistant duties. Left with no options, he worked out of 
his home or car to minimize the impact on my family.
    CPT Batchelder was assigned to my case for a period of about 6 
months and then reassigned for a deployment tasking. A new CAO was 
assigned to my case to complete outstanding issues, including the 
formal results briefing on my husbands death and lingering benefit 
entitlements that had been interrupted. This new CAO, a very young 
lieutenant inexperienced with the various military programs and 
services, demonstrated a lack of motivation or initiative and lacked 
the exposure to the events that had transpired over the previous 
months. After a couple meetings with this person and lack of 
assistance, I did not pursue further communication.
    Like many widows or widowers, I moved away from where I was 
stationed with my husband to start a new life. I gave up my Army career 
and moved to Lorton, VA in January 2005. At this time, I had not 
received Survivors Benefit Plan payments from the Defense Finance and 
Accounting System for which I was entitled since May 2004. The payments 
had stopped just 3 months after he was killed because of a clerical 
issue with my original documentation. Repeated attempts to correct my 
Survivors Benefit Plan entitlement through two local Retirement 
Services Officers (RSO) also failed. The Retirement Services Officers 
that I contacted were unfamiliar with the procedures or policies 
affecting these types of benefits and I found myself educating them on 
what needed to be done.
    I eventually contacted the Department of the Army's Casualty 
Assistance Center. I recruited the help of Dan Ruiz and LTC Logan. With 
their help, I made contact with the correct office and person within 
the Defense Finance and Accounting Office and was able to reactivate my 
Survivors Benefit Plan in September 2005, 18 months after I was 
entitled to the benefit.
BENEFIT ENTITLEMENTS
    Six months is a very short time to require a family that has 
experienced a traumatic life altering event, even under the best 
circumstances, to be able to navigate the current complexities of the 
military survivor system. For the widow or widower of an active duty 
service member, like myself, the military expects a transition of 
responsibility from the active military component to Veteran's Affairs. 
A family previously established in family housing and accustomed to 
living on the military base has increased financial burdens to absorb 
and a new identity to grasp. The response to family members is critical 
within the first year after the loss of their loved one. However, it is 
imperative that there be continuity of service and support to the 
families of our service members after the initial response has faded 
away.
    As a widow, I receive monetary supplements because of my husband's 
death while serving his country. I applaud your success in increasing 
the initial death payments and SGLI payments to families of the 
deceased service member. I would like your support in fulfilling the 
commitment to fully sustain the benefits of our widows and widowers and 
those of our children for the future.
    The SBP payment that I worked so hard to receive for almost 2 years 
brings a total of $99 a month into my household income. My full 
entitlement a month as a surviving spouse is $1166. The dollar for 
dollar offset generated by the income I receive from the VA's 
Dependency Indemnity Compensation reduces my entitlement by over $1000 
a month. Because of my husband's rank and years of service when he 
died, I actually receive a little left over money, where most spouses 
receive no money at all. This offset does not benefit any military 
survivor and especially victimizes those families whose deceased 
service members were junior enlisted and/or with less years of service. 
Most of these families are young families like mine. My $99 a month 
from my Survivors Benefit supplements increased child care, healthcare 
and household expenses that I incur as a single working mother and sole 
provider for my children. I would like this panel to realize the entire 
scope of inequity of this offset. Disabled military retirees, Federal 
retired annuitants and their survivors receive their full benefit 
without offset of VA benefits. I ask you here today, how is the 
military survivor any different?
    I have reached the 3 year milestone of widowhood and my dental and 
healthcare coverage under TRICARE PRIME have ceased. I am currently 
researching my options through my local TRICARE Representative. There 
are increased costs associated with continued coverage that did not 
exist while I was covered under the Active Duty Tricare Prime program.
CONCLUSION
    I ask the panel to understand that many widows and widowers are not 
able to make the monetary sacrifice that I have made here today in 
order to testify. Fortunately, I am able to be here before you with the 
blessing of my company to enlighten you of the burden that my family 
has had to endure over the past 3 years and the continued inequity of 
entitlements directly related to inconsistent years of service 
commitments. I ask you to remember the young widows and widowers at 
home caring for their young children who can not be here before you. I 
ask you to remember the widows and widowers in other states who can not 
afford be here before you. Your decisions make a difference in their 
lives.
    As my children grow older and our lives change, so do our benefits. 
I continually need to seek out subject matter experts within the 
benefits arena on my own. Healthcare, Education, Social Security, 
Survivors Benefit annuity and Dependents Indemnity Compensation all 
have different requirements. Legislative actions on benefits continue 
to influence entitlements. Tracking these changes is time consuming and 
tedious task as the information and experts are currently 
compartmentalized and geographically dispersed. I work a full time job 
and raise two small children. This has not left me with much time to 
track down the exact person who is going to help me get a specific 
benefit.
    Gold Star Wives of America has been a source of support and 
information beyond anything I have received thus far. The ladies 
volunteer their time and efforts into educating me on the process that 
forever lies ahead of me as a widow. I firmly stand behind and support 
the Gold Star Wives request that Regional Survivors Offices should be 
established to meet the needs of military survivors during and after 
the Casualty Assistance Officer has finished his duties. This office 
would provide oversight to the policy issues of survivors, provide 
transitional assistance, legislative feedback and act as the main 
coordinator between the Department of Defense and the Department of 
Veterans Affairs. This is a key component to ensuring the commitment to 
your service members that their families will be taken care of.
    As a service member entering military service, no where are you 
told that your family will have to fight to receive adequate benefits 
upon which they are entitled in the event of your death. Families plan 
for financial stability in the event of tragedy based on our promise 
that they will be taken care of. And yet I testify before you here 
today as an example that this has not happened to the full extent. I 
implore our leadership to immediately cease the DIC offset to SBP for 
all widows and widowers.
    I thank this Subcommittee for using this hearing as one more avenue 
of awareness and education and for giving me an opportunity to share my 
thoughts and experiences as a Gold Star Wife. I will be happy to work 
further with the Subcommittee on any initiatives. Thank you for your 
time and consideration.

                                 <F-dash>
Statement of Rose Elizabeth Lee, Chair, Government Relations Committee, 
                    Gold Star Wives of America, Inc.
    ``With malice toward none; with charity for all; with firmness in 
the right, as God gives us to see right, let us strive to finish the 
work we are in; to bind up the nation's wounds, to care for him who has 
borne the battle, his widow and his orphan.''
        --President Abraham Lincoln, Second Inaugural Address, March 4, 
        1865
INTRTODUCTION/BACKGROUND
    Chairman Hall, Representative Lamborn, and Members of the House 
Veterans' Affairs Disability Assistance and Memorial Affairs 
Subcommittee, I would like to thank you for the opportunity to testify 
before you today on behalf of all Gold Star Wives regarding the 
importance of addressing critical services for America's military 
widows and their children.
    My name is Rose Lee. I am a widow and I am here before you as the 
Chair of the Gold Star Wives (GSW) Committee on government Relations. 
For many years now I have been working to achieve the overall goals of 
the Gold Star Wives, in various national and local positions, and more 
specifically to assist our young, new widows, one by one, wind their 
way through the maze that lies before them with first notification of 
the death of their loved one.
    The Gold Star Wives of America, Inc. was founded in 1945 and is a 
Congressionally chartered service organization comprised of surviving 
spouses of military service members who died while on active duty or as 
a result of a service-connected disability. We could begin with no 
better advocate than Mrs. Eleanor Roosevelt, newly widowed, who helped 
make GSW a truly national organization. Mrs. Roosevelt was an original 
signer of our Certificate of Incorporation as a Member of the Board of 
Directors. Many of our current membership of over 10,000 are the widows 
of service members who were killed in combat during World War II, the 
Korean war, the Vietnam War and the more recent wars including the one 
we are currently in.
    In my testimony, I will respond to your request for our views on 
``Helping Those Left Behind: Are We Doing Enough for the Grandparents, 
Spouses, and Children of Veterans?'' In doing so, I will present to you 
the collective goals of the Gold Star Wives with the hopes that they 
will alert you to certain discrepancies and inefficiencies that you may 
be able to alleviate in your deliberations this year.
    I do want to thank the Members of this Subcommittee and the staff 
for your continued support of programs that directly support the well-
being of our service members' widows and their families. It is 
imperative that the difficulty of the sacrifice of our husbands' lives 
should not be compounded by lack of information, confusing information 
and sometimes even erroneous information that prevent our widows from 
accessing the assistance she needs to begin the rest of her life 
without that core person who had been her most critical support.
THE CHALLENGE
    Let me be clear from the start. We are NOT doing enough. We are 
unmistakably in a time of war. Warriors are dying and leaving behind 
young families. If there is one message I could leave you with today it 
is that there is never enough good communication. The Casualty 
Assistance Calls Officers (CACOs) have a difficult mission in a 
difficult time. They act to assist survivors from the death 
notification to assistance with coordinating funeral arrangements to 
applying for benefits and entitlements. They do a valiant job but CACOs 
are not trained to be the subject matter expert for the benefits and 
entitlements managed by the VA or the DoD.
    Our widows need our help. We need to identify and reach out to 
them. The National President of the Gold Star Wives sends a condolence 
letter to new surviving spouses. In addition, we must coordinate with 
our counterparts in other agencies to ensure that the message given is 
thorough and consistent as they transition to their lives made forever 
different by the loss of a loved one.
BRIDGING THE GAPS
    Getting the right information to the right people at the right time 
is important. Getting the right benefit is important as well. There are 
gaps in the benefits for survivors that we have called for corrective 
action on over time. If we are serious about addressing the question, 
``are we doing enough,'' then it is time to respond to these issues 
where we clearly fall short of `enough.'
    1. Despite valiant efforts over the past years, the dollar for 
dollar offset of Survivor Benefit Plan (SBP) annuity payments by 
benefits from the VA's Dependency and Indemnity Compensation program 
was not eliminated. The SBP was voluntarily purchased by the disabled 
retiree and provided by Congress to the servicemember who dies on 
active duty in order to assure a continuation of the retired pay for 
their survivor. This income is not protected when the DIC benefit 
offsets the SBP income to which a survivor is entitled, sometimes 
eliminating the entire SBP. We recognize you must act with your 
colleagues on the Committee on Armed Services on this issue. We 
encourage Congress to provide this real relief for our military 
surviving spouses now. All we seek is equity with benefits provided by 
Congress to the disabled military retiree and Federal civilian workers. 
Disabled military retirees, Federal retired annuitants and their 
survivors receive their benefit without offset of VA benefits. The 
military survivor benefit should be similar.
    2. The law currently allows for surviving spouses who remarry after 
age 57 to retain their VA DIC survivor benefit. For those who remarried 
before that law was enacted, there was a 1-year period to apply for 
reinstatement. Communication in the form of outreach was lacking during 
the retroactive period. Therefore, we request two equitable changes to 
the law:

        a. allow survivors to retain DIC on remarriage at age 55 in 
        order to bring this benefit in line with rules for SBP and 
        other Federal survivor programs; and
        b. open up the reinstatement period with renewed outreach 
        efforts to make survivors aware of their eligibility.

    3. The additional monthly $250 child DIC payment per family only 
applies to survivors of deaths after January 1, 2005. This too should 
be linked to October 7, 2001. It makes no sense that the survivors of 
those who died `first' should be prohibited from accessing a benefit 
given to survivors of those who died later in the same war. This money 
was provided to the surviving spouse, and if there is no surviving 
parent, the child does not receive this money.
    4. There's another grievous oversight concerning the $250 child 
DIC. The program evaluation of benefits study recommended that 
surviving spouses with dependent children receive the $250 for 5 years 
instead of 2 years and that amount should be indexed for inflation, to 
avoid a devaluation of the benefit. Unfortunately, those receiving the 
$250 child DIC are not receiving it for 5 years and are not receiving 
even a small $10 Cost of Living Adjustment (COLA).
    5. CHAMPVA, the Civilian Health and Medical Program of the 
Department of Veterans' Affairs, currently does not carry with it a 
dental plan. In order to increase beneficiaries' access to dental care 
at a reasonable cost, GSW seeks for widows and all CHAMPVA 
beneficiaries the ability to purchase a voluntary dental insurance 
plan. We are in agreement that the model of the TRICARE program for 
military service retirees for dental care in which the payment of 
premiums or services is completely funded by the enrollee is an 
acceptable model. Beneficiaries are simply looking for affordable 
dental care, which can be accomplished through a group plan. Allowing 
for assignment of VA benefits to cover the cost of dental insurance 
premiums would be an additional benefit to ease the payment process. 
This would require a modification to Title 38, Chapter 53.
    6. We would like to begin the process of reviewing how the DIC rate 
is established, which is currently a flat rate. The SBP is calculated 
at 55 percent of retired pay. We recommend that the DIC be calculated 
in a similar manner at 55 percent of the disabled veterans 100 percent 
disability compensation amount. We would welcome the opportunity to 
work with the Committee in determining how to implement these changes, 
which will provide more equitable compensation to our survivors.
    7. Importantly, we have long been aware that survivors are forced 
into a fragmented approach to determine their benefits and rights. We 
need to examine the coordination process between agencies more closely 
and work hard to prevent these widows and their children from 
encountering gaps in identifying benefits. Further complications arise 
in this current conflict because it presents issues that we have not 
had to address before in that there are National Guard Members whose 
families are not near a military installation and find it difficult to 
learn about their benefits, burial information, etc. We firmly believe 
that an office should be established that would provide oversight to 
the policy issues of survivors, and be a transitional assistance to 
survivors and the main coordinator between the Department of Defense 
and the Department of Veterans Affairs. Without such an entity, widows 
are left to make their own way through a bureaucratic maze at a time in 
their life that could be no worse.
    Finally, there are three other issues that we want to bring to your 
attention:

    1. Widows whose husband died in VA hospitals due to wrongful VA 
hospital care receive only DIC without any other VA benefits (Title 38 
USC 1151). We urge the Subcommittee to support the measures necessary 
to allow these widows to be entitled to the same VA benefits as 
provided widows by wrongful deaths by friendly fire.
    2. We recommend that the Subcommittee ensure that medical benefits 
be provided fairly and equitably to include surviving spouses and 
eligible children (i.e., seek legislation to remove part B penalties 
and interest for late enrollment and promote a feasibility study to 
convert VA facilities to Long Term Care facilities which would welcome 
widows/widowers).
    3. Education benefits for surviving spouses who are on active duty 
should be able to use the education benefit derived from her deceased 
husband while still serving on active duty. Currently, the active duty 
widow must resign from the military in order to use the derived 
educational benefit.
    4. There is a small group of widows whose husband died short of 
twenty years of military service between 1993 and 2001 without SBP or 
rank-based DIC. This small group should be considered for an equity 
benefit as support payments.
CONCLUSION
    In conclusion, we do not want our widows to be forgotten whether 
they are experiencing their losses currently or whether they are 
members of the so-called Greatest Generation and experienced their loss 
many years ago during World War II. Whenever the ultimate sacrifice is 
given, there is family left behind. In the same way we have asked some 
to give their lives, we have also asked some to continue their lives 
with a chasm so large it is difficult to transgress. Let us show the 
spirit of this nation by not forgetting these widows, whose numbers 
grow daily.
    I regret if I show some frustration in this next remark. These are 
issues we have addressed to the Congress over many years now. We have 
faith that when you ask the question, ``Have we done enough?'' that you 
will, with determination, try to close the gap to `enough.' It is time 
to move forward with these issues.
    I thank this Subcommittee for using this hearing as one more avenue 
of awareness and education and for giving me an opportunity to share my 
thoughts and the goals of the Gold Star Wives. We will be happy to work 
with the Subcommittee on any of these initiatives. Thank you.

                                 <F-dash>
   Statement of Patricia Montes Barron, Deputy Director, Government 
            Relations, National Military Family Association
    Chairman Hall, and Distinguished Members of the Disability 
Assistance and Memorial Affairs Subcommittee, the National Military 
Family Association (NMFA) would like to thank you for the opportunity 
to present testimony today on whether we are indeed doing enough for 
the survivors of those who have sacrificed their lives in service to 
this Nation.
    With the increased number of casualties as a result of Operation 
Enduring Freedom and Operation Iraqi Freedom over the past several 
years, many aspects of the casualty notification process and the 
survivor benefits package have been changed and enhanced. Several 
Federal agencies have a part in providing benefits to survivors and it 
is important to view the benefits as a package, one crafted to help 
surviving families cope with the loss of their loved one and transition 
into a new phase of their life. They are many-faceted, encompassing not 
only financial but housing, educational, medical and counseling 
benefits. NMFA has included an appendix that gives an overview of the 
benefits at the end of this statement.
Responding to the Needs of Surviving Families
    The different agencies, the Department of Veterans' Affairs (VA), 
the Department of Defense (DoD) and the Social Security Administration 
(SSA) have been most responsive in developing ways to smooth the 
process and respond to the concerns of the families when they raise 
them. Although we realize the focus of this Subcommittee is on the 
benefits the VA provides, it is important to see how those benefits and 
the improvements the VA has implemented are part of the broader package 
of changes being made by all the agencies.
    The creation of the dedicated Survivor page on the VA website 
(www.va.gov) has been a most welcome resource. Providing a one-stop, 
easily accessible site for survivors to learn about education benefits, 
Dependency and Indemnity Compensation (DIC), bereavement and financial 
counseling, and support available from other agencies, it simplifies 
the information-gathering process. The VA also developed a folder that 
describes all VA resources, which is included in the new DoD Casualty 
Organizing Notebook, The Days Ahead.
    Many of the surviving widows of service members who have died in 
OEF and OIF are young and have very young children. It could be 
difficult for them to care for those children and take advantage of the 
VA education benefit at the same time. NMFA commends the extension of 
the eligibility period for accessing those benefits to twenty years for 
these widows. It makes good sense.
    NMFA appreciates the work being done by DoD and the Services to 
provide training to casualty assistance officers and to make sure 
survivors are receiving accurate information in a timely manner. The 
survivor guide published by DoD and available online, A Survivor's 
Guide to Benefits: Taking Care of Our Own, has already been updated 
several times as new benefits were implemented or needs for information 
identified. The Army set up the Families First Casualty Call Center, 
recently renamed Long Term Family Case Management (LTFCM), a one stop 
resolution center to assist surviving family members with questions 
concerning benefits, outreach, advocacy, and support. This call center 
is available for immediate and extended family members. The other 
Services have also become more responsive in their outreach to 
surviving family members.
    The DoD/VA Survivors forum is an example of this outreach. Made up 
of staff members from DoD, the VA and the Services and other 
stakeholders including the Service Aid Societies, groups like the Gold 
Star Wives, TAPS and NMFA, and surviving spouses, it meets three times 
a year, reviewing concerns as they arise. At the meeting just this 
week, a recent policy change on how the remains of deceased service 
members are moved from Dover was discussed. Since January, each 
escorted coffin is placed on a military or military contracted plane 
and transported to the location of the funeral. This was in reaction to 
a perception on the part of some families that the remains of their 
loved ones were being handled like cargo on commercial flights and not 
being treated with the respect they deserved. An honor guard meets each 
plane when it reaches its final destination. Also discussed was the 
implementation of a new policy extending the eligibility of the SBP 
child-only option to some surviving families who had been inadvertently 
left out of the original legislative language. Participants also 
learned of proposed DoD changes for FY 09.
    NMFA has surfaced concerns from family members who have reached out 
to us to the appropriate chains of command within DoD and the VA and to 
Congress. We have been pleased at the response of all the specific DoD 
and Service casualty assistance offices to these families. 
Unfortunately, we still occasionally hear of widows or parents who 
still do not know who to call when there is a concern.
    The advent of instant communication from the battlefield has made 
it more important than ever that the survivors receive the most 
complete information from the command in the most compassionate and 
efficient way possible. The next of kin should be the first to know of 
the casualty. In an effort to help their neighbors through a difficult 
time, some Army installations have created Care Teams to assist 
families when the unit has a casualty. The concept behind the Care Team 
is that rear-detachment commanders and Family Readiness Group leaders 
have volunteers ready to provide immediate support as the notification 
teams leave, rather than scrambling around. Care Teams--each with two 
or three members--train to do everything from looking after children, 
to anticipating potential crises, to fending off ``concerned'' 
neighbors at a vulnerable time. Each Care Team goes through careful 
screening and training, then undergoes debriefings after helping 
families to make sure they do not suffer themselves from what is always 
an emotional test.
    NMFA also sees a need for specific training in bereavement and 
other counseling for family readiness group leaders, ombudsmen, and key 
volunteers. Many widows say they suddenly felt shut out by their old 
unit or community after the death of their service member. Often the 
perceived rejection is caused by a lack of knowledge on the part of 
other families about how to meet the needs of the survivors in their 
midst. Because they find contact with survivors difficult, they shy 
away from it. In some communities, support groups outside the unit 
family support chain have been established to sustain the support of 
the surviving families in the days and months after the death of the 
service member. As part of the standardization and improvement of the 
casualty assistance process, more effort needs to be placed at the 
command level on supporting the long-term emotional needs of survivors 
and of communities affected by loss. The implementation of the Care 
Team process on a broader scale not only supports survivors, but also 
those community volunteers who bear the burden of support.
    Because the VA has as part of its charge the ``care for the widow 
and the orphan,'' NMFA was concerned about recent reports that many VA 
Counseling Centers did not have the qualified counseling services they 
needed to provide promised counseling to survivors, especially to 
children. Families are also concerned about distances from VA 
counseling centers. We were heartened to hear at the aforementioned 
DoD/VA Survivors Forum that many VA counseling centers are increasing 
their efforts to find local resources and provide case management for 
families who do not live near a center or when the center itself does 
not have counselors that are equipped to counsel children. DoD and the 
VA must work together to ensure surviving spouses and their children 
can receive the mental health services they need. The VA must also 
reach out to parents and siblings of deceased service members, who do 
not have access to mental health benefits through TRICARE.
    New legislative language governing the TRICARE behavioral health 
benefit may also be needed to allow TRICARE coverage of bereavement or 
grief counseling. While some widows and surviving children suffer from 
depression or some other medical condition for a time after their loss, 
many others simply need counseling to help in managing their grief and 
helping them to focus on the future. Many have been frustrated when 
they have asked their TRICARE contractor or provider for ``grief 
counseling'' only to be told TRICARE does not cover ``grief 
counseling.'' Available counselors at military hospitals can sometimes 
provide this service and certain providers have found a way within the 
reimbursement rules to provide needed care, but many families who 
cannot access military hospitals are often left without care because 
they do not know what to ask for or their provider does not know how to 
help them obtain covered services. Targeted grief counseling when the 
survivor first identifies the need for help could prevent more serious 
issues from developing later.
    NMFA applauds the enhancement of medical benefits included in the 
FY 2006 NDAA making surviving children eligible for full medical 
benefits to age 21 (or 23 if they are enrolled in college) bringing 
them in line with the active duty benefit for dependent children. To 
complete the benefit package we ask Congress to allow surviving 
children to remain in the TRICARE Dental Program until they age out of 
TRICARE and, in cases where the surviving family had employer-sponsored 
dental insurance, treat them as if they had been enrolled in the 
TRICARE Dental Program at the time of the service member's death.
Caring for the Youngest Survivors
    Recently, a story in the Washington Post raised concerns about some 
of the difficulties families encounter in the awarding of survivor 
benefits to the children of single service members. NMFA has always 
emphasized that service members and families must understand there is a 
package of survivor benefits. The death gratuity was originally 
intended to act as a financial bridge, to help with living expenses 
until other benefits such as the Dependency and Indemnity Compensation 
(DIC) payment, the Survivor Benefit annuity, and Social Security 
benefits begin to be paid. The Servicemembers Group Life Insurance 
(SGLI), is, as its name implies, an insurance plan. The death gratuity 
is not an insurance payment, even though its $100,000 amount is bigger 
than many civilian life insurance payouts. Service members may thus 
regard it as just another insurance plan.
    As the law is currently written, the death gratuity must be awarded 
to the next of kin. The service member may designate multiple 
beneficiaries for the SGLI. If the parent or sibling of a service 
member is named as the single beneficiary or one of multiple 
beneficiaries, there is no stipulation in the SGLI regarding the use of 
that money for any particular purpose. It is of utmost importance, in 
light of the increased value of the survivor benefits, that the service 
member be informed about the difference between the death gratuity and 
the SGLI payment. It is also important that service members and their 
families discuss the implications and disposition of these payments, 
especially when there is a minor child involved or when there are 
children from a prior marriage or relationship to consider. With the 
increased amount of survivor benefits, it is incumbent upon single 
service members with children or dual service member couples with 
children to create not only a family care plan, but an estate plan as 
well.
    NMFA is concerned that the legal necessities of appointing a 
guardian for a minor child upon the death of their single service 
member parent may cause a delay in accessing the death gratuity at a 
time when the family may need this bridge payment the most. Legislation 
to change the way the death gratuity is awarded must meet two goals: 
preserving the intent of the death gratuity as a payment to assist with 
immediate financial needs following the death of the service member AND 
protecting the benefits due the minor child. NMFA would support 
legislation to allow the designation of a service member's parent or 
sibling as the recipient of a portion of the death gratuity payment if 
there is a guarantee the payment would be used as that financial bridge 
for the minor child until other benefits are awarded, with the 
remainder placed in trust for the child. The protection of the 
financial future of the child is paramount. If the service member wants 
to provide for other family members, the proper mechanism is to 
designate those family members as beneficiaries of all or part of the 
SGLI.
    The VA provides a monthly transition benefit of $250 for two years 
following the death of the service member for surviving spouses with 
children. NMFA would support the extension of this benefit to the 
guardians who are caring for the minor children of deceased service 
members.
    The surviving children of single service members who die on active 
duty require special protections to ensure the proper financial 
disposition of the enhanced survivor benefits. NMFA asks Congress to 
provide the proper protections for the child(ren) if allowing a 
guardian to receive the death gratuity and to remember the original 
intent of the death gratuity payment was to serve as a financial bridge 
until the initiation of the payment of the survivors' benefits.
Eliminate the DIC Offset to SBP
    NMFA still believes the benefit change that will provide the most 
significant long-term advantage to the financial security of all 
surviving families would be to end the Dependency and Indemnity 
Compensation (DIC) offset to the Survivor Benefit Plan (SBP). Ending 
this offset would correct a longstanding inequity. Each payment serves 
a different purpose. The DIC is a special indemnity (compensation or 
insurance) payment from the VA to the survivor when the service 
member's service causes his or her death. It is a flat rate payment, 
currently $1,067 for the surviving spouse and $265 for each surviving 
child. The SPB annuity, paid by DoD, reflects the longevity of the 
service of the military member. It is ordinarily calculated at 55 
percent of retired pay. Military retirees who elect SPB pay a portion 
of their retired pay to ensure that their family has a guaranteed 
income should the retiree die. If that retiree dies due to a service 
connected disability, their survivor becomes eligible for DIC.
    If there is no surviving spouse, surviving children of a single 
service member, who are in the custody of the former spouse of the 
service member or a guardian, are eligible for SBP and DIC payments. 
The amount of the SBP annuity is divided among the children who are 
recognized as dependents of the service member. As children age out of 
eligibility, the portion provided to each of the remaining children 
increases. The DIC payment amount for these children is greater than 
for children with a surviving parent. The table of payments is found at 
www.va.gov. Disabled children receive the SPB and DIC payments for a 
lifetime.
    Four years ago, survivors of service members killed on active duty 
were made eligible to receive SBP. The amount of their annuity payment 
is calculated as if the service member was medically retired at 100 
percent disability. The equation is the basic pay times 75 percent 
times 55 percent. The annuity varies greatly, depending on the 
servicemember's longevity of service.
    Surviving active duty spouses can make several choices, dependent 
upon their circumstances and the ages of their children. Because SPB is 
offset by the DIC payment, the spouse may choose to waive this benefit 
and select the ``child only'' option. In this scenario, the spouse 
would receive the DIC payment and the children would receive the full 
SBP amount until each child turns 18 (23 if in college), as well as the 
individual child DIC until each child turns 18 (23 if in college). Once 
the children have left the house, this choice currently leaves the 
spouse with an annual income of $12,804, a significant drop in income 
from what the family had been earning while the service member was 
alive and on active duty. The percentage of loss is even greater for 
survivors whose service members served longer. Those who give their 
lives for their country deserve more fair compensation for their 
surviving spouses. We urge Congress to intensify efforts to eliminate 
this unfair ``widow's tax'' this year.
    NMFA believes several other adjustments could be made to the 
Survivor Benefit Plan. These include allowing payment of SBP benefits 
into a trust fund in cases of disabled children and allowing SBP 
eligibility to switch to children if a surviving spouse is convicted of 
complicity in the member's death.
    NMFA recommends the DIC offset to SPB be eliminated to recognize 
the length of commitment and service of the career service member and 
spouse and relieve the spouse of making hasty financial decisions at a 
time when he or she is emotionally vulnerable.
Preparing for the unthinkable
    While survivors can never be fully prepared for the news their 
loved one has died in the line of duty, certain preparations can and 
should be made to assure casualty assistance is rendered and benefits 
are awarded as quickly and as compassionately as possible. Talking 
about the ``what if'' is not pleasant, but preparation in this time of 
war is necessary. NMFA appreciates the responsiveness of the VA and DoD 
to surviving families when needs arise and the continued support these 
agencies provide. These families deserve no less for the sacrifice they 
have made for our Nation.
                Overview of Survivor Benefits April 2007
Benefits paid by the Department of Defense (DoD):
        <bullet>  Death gratuity--$100,000 (increased in P.L. 109-163) 
        This is paid to the designated next of kin and is not taxable. 
        This is supposed to be paid within 24 hours of notification of 
        death. The purpose of this payment is to help the survivors in 
        their readjustment and to aid them in meeting immediate 
        expenses.
        <bullet>  Burial benefits--DoD will process, transport and 
        inter remains. A casket, vault and headstone are provided or 
        costs of up to $7,700 may be reimbursed if the family elects to 
        make private arrangements. Transportation costs for the 
        immediate family are reimbursed if they must travel for the 
        funeral (but not for a memorial service).
        <bullet>  Military Health and Dental Care Benefits--All 
        otherwise eligible spouses and children remain eligible for 
        military health care coverage. For the surviving spouse, for 
        three years from the date of death, TRICARE benefits, including 
        co-pays, remain the same as active duty family benefits. After 
        3 years, the cost of TRICARE and TRICARE co-pays rise to those 
        of retirees. With the passage of P.L. 109-163, surviving 
        children remain eligible for active duty family member medical 
        benefits under TRICARE until they reach age 21 or 23 if 
        enrolled in college. In most cases, the surviving spouse and 
        children receive dental insurance premium-free for 3 years, 
        before becoming eligible for the premium-based Retiree Dental 
        Program. The spouse loses eligibility for medical and dental 
        benefits upon remarriage. They may not be reinstated.
        <bullet>  Survivor Benefit Plan (SBP)--Surviving spouses of 
        service members who die on active duty are entitled to SBP 
        benefits. SBP payments equal 55% of what the member's retired 
        pay would have been had the member been retired at 100% 
        disability, i.e. 75% of the basic pay (Basic pay times 75% 
        times 55%). SBP is automatically adjusted annually for cost of 
        living increases. SPB payments are subject to Federal income 
        taxes. The spouse may decide to waive their payment and have 
        payment made to children only until the children reach age 18 
        or 23 if enrolled in school. If the spouse remarries before age 
        55, SBP payments cease. If the subsequent marriage ends in 
        death, divorce or annulment, SBP may be reinstated. If the 
        spouse remarries after age 55, the SBP payments continue. 
        Spouse SBP payments are offset by Dependency and Indemnity 
        Compensation (DIC) payments.
        <bullet>  Housing benefit--Surviving families may occupy 
        government quarters or be paid housing allowances for 1 year 
        effective with the passage of P.L. 109-163 in 2006. These 
        allowances vary according to rank and geographic location. In 
        addition, the family is eligible for one move at the cost of 
        the government.
        <bullet>  Service member's Group Life Insurance (SGLI)--All 
        service members are automatically enrolled for $400,000 of 
        coverage unless they explicitly decline the insurance or 
        purchase lower levels of coverage. SGLI will be paid to the 
        individual designated on the service member SGLI election and 
        certificate form. If no beneficiary is elected by the service 
        member, the proceeds are paid first to the surviving spouse; if 
        none, the child(ren) (natural, adopted or illegitimate) in 
        equal shares; if none, to the parents (natural or adopted).
        <bullet>  Other DoD benefits--Spouses are eligible for 
        Commissary, Exchange, and Morale, Welfare and Recreation 
        activities privileges indefinitely unless they remarry. 
        Children maintain eligibility until age 18 or 23, if still 
        enrolled in college.
Benefits paid by the Department of Veterans Affairs (VA)
        <bullet>  Transition Assistance--a monthly payment of $250 paid 
        to surviving spouses with children for two years from the date 
        of death of the service member to help with transition.
        <bullet>  Dependency and Indemnity Compensation (DIC)--
        Surviving spouses and children (and some dependent parents) are 
        eligible for DIC. The rate has been adjusted annually for cost 
        of living increases. The 2007 spouse DIC rate is $1067 monthly. 
        The DIC payment is non-taxable. Additional amounts, also 
        adjusted annually, are authorized for a surviving spouse with 
        minor children. The current monthly benefit for 2007 is $265 
        for each child. Unmarried children are eligible for the benefit 
        until they reach the age of 18 (19 if still in secondary 
        school), between 18 and 23 if they are attending a VA approved 
        institution of higher learning or for life if they are disabled 
        while still eligible for the benefit. Children of a deceased 
        member, who did not have a spouse at the time of death, receive 
        a different monthly benefit. If the spouse remarries before age 
        57, payment of the spouse's DIC ends. The children's DIC 
        payment continues as long as they are eligible. If the 
        subsequent marriage ends in death, divorce or annulment, DIC 
        will be reinstated.
        <bullet>  Survivors' and Dependents' Educational Assistance 
        Program--Surviving spouses and children are eligible for up to 
        45 months of education benefits. Beginning 1 July 2005, the 
        surviving spouse of a service member killed on active duty has 
        an extended eligibility for education benefits of up to 20 
        years after the date of the member's death. Children are 
        normally eligible to receive the educational benefits between 
        their 18<SUP>th</SUP> and 26<SUP>th</SUP> birthdays. The 
        current monthly benefit is $860 per month and increases every 
        year.
        <bullet>  Home Loan Guarantees--An unremarried surviving spouse 
        is eligible for GI home loans and retains eligibility if 
        remarriage occurs after 57<SUP>th</SUP> birthday.
Benefits paid by the Social Security Administration:
        <bullet>  Social Security monthly benefits--paid to a spouse or 
        a divorced spouse regardless of age if the children of the 
        deceased service member are under age 16 or are disabled and 
        meet Social Security requirements. The amount paid can only be 
        determined by the Social Security Administration.
        <bullet>  Social Security Lump Sum Death Benefit--a payment of 
        up to $255 is paid to the surviving spouse living with the 
        member at the time of death or to the oldest surviving child if 
        there is no spouse.
    Some states also pay death benefits or provide other support, 
especially to the survivors of National Guard or Reserve Members killed 
on active duty. The scope of these benefits and eligibility for them 
varies by state.

                                 <F-dash>
 Statement of Christine Cote, Staff Attorney, National Veterans Legal 
                            Services Program
    Mr. Chairman and Members of the Committee:
    I am pleased to have the opportunity to appear before you on behalf 
of the National Veterans Legal Services Program (NVLSP). NVLSP is an 
independent, non-profit veteran service organization that has been 
assisting veterans and their advocates for 27 years. We publish 
numerous advocacy materials, recruit and train volunteer attorneys, and 
train service officers from such veterans service organizations as The 
American Legion and Military Order of the Purple Heart in veterans 
benefits law. NVLSP also represents veterans and their families on 
claims for veterans benefits before VA, the U.S. Court of Appeals for 
Veterans Claims (CAVC), and other Federal courts.
    My testimony today will focus on what happens when an individual, 
whose claim for VA benefits is pending, dies before the adjudication 
process is complete.

                           A. The Current Law

    If an individual, who has filed a claim for VA benefits, dies while 
the claim is pending before a VA regional office, the Board of 
Veterans' Appeals, or a reviewing court, the pending claim dies as 
well. This is true for claims for disability compensation, pension, 
dependency and indemnity compensation (DIC), and death pension. See 
Richard v. West, 161 F.3d 719 (Fed. Cir. 1998); Zevalkink v. Brown, 102 
F.3d 1236 (Fed. Cir. 1996); Landicho v. Brown, 7 Vet. App. 42 (1994). A 
survivor may not step into the shoes of the deceased claimant to 
continue or to appeal the claim--no matter how long the claim has been 
pending in the VA claims adjudication process.

B. The Route Surviving Family Members Have to Travel to Obtain Benefits 
                 Based on the Deceased Claimant's Claim

    As a logical matter, some benefit claims that do not result in a 
final decision because the claimant dies before a final decision could 
be issued would result in a grant of benefits if the claimant had 
lived. Congress has provided a limited opportunity for certain specific 
surviving family members to obtain the benefits the deceased claimant 
had been seeking at the time of death. This opportunity for accrued 
benefits is quite limited however, as I will describe below.

     1. Only Certain Family Members May Apply for Accrued Benefits

    In order to obtain the benefits that the deceased claimant was 
seeking at the time of death, a brand new claim for benefits, called 
accrued benefits, must be filed. See 38 U.S.C. Sec. 5121, 38 C.F.R. 
Sec. 3.1000. Only certain surviving family members may pursue a claim 
for accrued benefits. An individual satisfying the definition of a 
surviving spouse may apply for accrued benefits. If there is no 
surviving spouse, a surviving child may qualify as a claimant, but only 
if he or she is: (a) unmarried and under the age of 18; or (b) under 
the age of 23, unmarried, and enrolled in an institution of higher 
education. If there is no surviving spouse or qualifying surviving 
child, a surviving parent may apply for accrued benefits but only if he 
or she was financially dependent on the claimant at the time of the 
claimant's death. No brothers or sisters or other family members may 
apply for accrued benefits. See 38 U.S.C. Sec. Sec. 101, 5121; 38 
C.F.R. Sec. 3.1000(d).[1]
---------------------------------------------------------------------------
    [1] There is one narrow exception: Accrued benefits may be paid to 
reimburse any individual who bore the expense of the last sickness or 
burial--but only to the extent of the actual expenses incurred.
---------------------------------------------------------------------------

                             2. Time Limits

    The application for benefits must be filed within one year of the 
date of the claimant's death. VA regulations do allow for extensions of 
time to file outside of the 1-year period, but only if the survivor is 
able to demonstrate ``good cause''. 38 C.F.R. Sec. 3.109(b). Thus, the 
VA may allow for an extension of time, but is not required to do so.

                  3. No New Evidence Can Be Submitted

    The survivor also cannot submit new evidence to show that the 
deceased claimant is entitled to the benefits sought. Accrued benefits 
determinations can only be ``based on evidence in the file at date of 
death.'' 38 U.S.C. Sec. 5121 The VA regulations provide that ``evidence 
in the file'' means evidence within the VA's constructive possession, 
on or before the date of death, but that would only include evidence 
like existing service personnel records or existing VA medical records. 
See 38 C.F.R. Sec. 3.1000(a); 67 Fed. Reg. 65,707 (2002). [2]
---------------------------------------------------------------------------
    [2] The accrued benefits statute does provide that if a survivor's 
application ``is incomplete at the time it is originally submitted, the 
Secretary shall notify the claimant of the evidence necessary to 
complete the application.'' 38 C.F.R. Sec. 3.1000(c)(1) However, this 
``evidence necessary to complete the application for accrued benefits'' 
is information necessary to establish that the survivor is within the 
category of eligible survivors and circumstances exist that make the 
survivor the specific person entitled to the accrued benefits. That is 
to say, materials including the death certificate of the deceased 
claimant, marriage certificates demonstrating the status of an 
individual as a surviving spouse, birth certificates demonstrating the 
status of an individual as a child, or documentation of enrollment in 
studies at an educational institution are the only types of additional 
evidence that may be introduced. 67 Fed. Reg. 65,707 (2002).
---------------------------------------------------------------------------

    4. Limitations on the Types of Benefits that Qualify as Accrued 
                                Benefits

    The opportunity for a qualified survivor to receive accrued 
benefits under section 5121 is restricted to pending claims of the 
deceased for ``periodic monetary benefits.'' To be a claim for 
``periodic monetary benefits'', the benefits must be the type that are 
``recurring at fixed intervals'', such as disability compensation.
    Many claims are for benefits that are not periodic monetary 
benefits. For example, in Pappalardo v. Brown, 6 Vet.App. 63 (1993), 
the Court held that a claim for a one-time payment for specially 
adapted housing reimbursement assistance under 38 U.S.C. Chapter 21 did 
not qualify as a claim for periodic monetary benefits for purposes of 
section 5121. This is so even though the family had already incurred 
the expense of remodeling the home in accordance with standards 
approved by the Boston VARO to meet the needs of the veteran, who had 
lost the use of both lower extremities 20 years earlier due to service-
connected post-encephalitic Parkinson's disease, and who died while the 
housing assistance claim was pending. Thus, an accrued benefits claim 
may only be granted if the deceased claimant would have been entitled 
to a benefit like monthly disability compensation or special monthly 
compensation benefits.

                5. Limitations on the Amount of Benefits

    The amount of accrued benefits available to a survivor may also be 
limited. For veterans who died prior to December 16, 2003 (the date of 
enactment of the Veterans Benefits Act of 2003), family members cannot 
receive more than 2 years' worth of accrued benefits, even if, for 
example, the survivor is able to prove that the veteran was entitled to 
10 years worth of benefits. The enactment of the VBA of 2003 removed 
the 2-year cap, but only when the claimant with a pending claim died on 
or after December 16, 2003. Pub. L. No. 108-183, Sec. 104, 117 Stat. 
2651 (Dec. 16, 2003).[3]
---------------------------------------------------------------------------
    [3] For deaths occurring on or after December 16, 2003, successful 
accrued benefits claimants are now entitled to the entire amount of 
benefits that would have been paid had death not occurred.
---------------------------------------------------------------------------

  C. The Recent Court Decision Carving Out an Exception to the Harsh 
                       Rules that Currently Exist

    Probably the harshest part of the rules that apply when a claimant 
with a pending claim dies before a final decision is rendered is that 
the survivor must start the claim all over again at a VA regional 
office, regardless of how far the pending claim had proceeded in the 
adjudication process. Even if the pending claim had made it up the 
chain to a reviewing court, which often takes many years, the survivor, 
who may be elderly or infirm, must still file a new claim at the VA 
regional office level and ``go to the back of the line.'' The inability 
of the survivor to substitute and pick up where the claimant left off 
can add years to the claims process and add to the burden of the 
agency, which must now address an entirely new claim where there had 
already been development of another claim raised by the deceased.
    Frustrated survivors have long sought to continue to prosecute a 
deceased claimant's disability compensation claim at the Court level. 
See, e.g., Zevalkink, supra; Landicho, supra at 47. In Padgett v. 
Nicholson, 473 F.3d 1364 (Fed.Cir. 2007), issued just last month, the 
Federal Circuit carved out a very limited exception to the harsh rule 
that a claim dies with the claimant.

                              1. The facts

    Mr. Barney Padgett, a World War II combat veteran, was awarded 
service connection by the VA for residuals of a left-knee injury in 
August 1945. In June 1976, service connection was granted by the VA for 
traumatic arthritis of the left knee and for a residual sprain of the 
left knee.
    In March 1993, Mr. Padgett sought service connection for a right 
hip disorder--which he alleged was caused by the service-connected 
left-knee disability. The VA regional office denied the claim. On 
appeal, the Board, in an April 1997 decision, remanded the claim for 
further development, including a hearing. The regional office continued 
the denial in an August 1997 rating decision. In August 1999, the Board 
forwarded the claim to the VA Medical Center in Columbia, South 
Carolina for a medical opinion. The Board continued its denial in a 
December 23, 1999 decision.
    On appeal to the CAVC, the Court remanded the claim back to the 
Board for readjudication on March 26, 2001. The Board issued a new 
decision on August 8, 2002, again denying service connection for a 
right hip disability.
    Mr. Padgett appealed the matter for a second time to the Court of 
Appeals for Veterans Claims. Briefs were filed, and oral argument was 
conducted in April, 2004. The parties filed supplemental pleadings and 
briefs and the matter was referred to the full Court for disposition in 
September, 2004.
    On April 19, 2005, more than 12 years after Mr. Padgett initiated 
his claim, the Court issued a decision reversing the Board's denial and 
ordering the VA to grant the veteran's disability claim for a hip 
condition. That same month, however, counsel for the veteran learned 
that Mr. Padgett died on November 3, 2004, before the Court's decision. 
The Secretary immediately filed a motion to rescind the reversal and 
dismiss the appeal. The veteran's surviving spouse, Mrs. Padgett, filed 
a motion to be substituted as a party to the appeal. The CAVC granted 
the VA's motion to dismiss and denied Mrs. Padgett's motion for 
substitution, following the normal rule that the claim died when Mr. 
Padgett died.

                   2. The Federal Circuit's Decision

    NVLSP appealed the Veterans Court's decision on Mrs. Padgett's 
behalf to the U.S. Court of Appeals for the Federal Circuit. NVLSP 
argued that applying to the Padgetts the normal rule that a claim dies 
with the veteran would be exceedingly harsh. Mr. Padgett spent the last 
12 years of his life battling the VA for disability benefits for his 
hip disability. He finally won that battle in April 2005, when the 
Court of Appeals for Veterans Appeals ruled that the Board's denial of 
his claim was clearly erroneous.
    But merely because Mr. Padgett died a few months prior to the 
Veteran's Court decision, the Veterans Court wiped this victory off the 
books. For Mrs. Padgett to recover the 12 years of disability benefits 
that would have been owed by the VA to her husband if he had lived 
longer, the normal rule required her to start the process all over 
again by filing a new claim with the VA regional office for accrued 
benefits. And to add insult to injury, because the normal rule required 
the Veterans Court to wipe its April 2005 decision off the books as if 
it had never occurred, the regional office would not be required to 
grant Mrs. Padgett's claim for 12 years of accrued benefits. The 
regional office would be free to deny Mrs. Padgett's claim for the same 
reason that it had denied Mr. Padgett's claim on numerous occasions 
over the preceding 12 years.
    Recognizing the harshness of the normal rule that a claim dies with 
the claimant, the Federal Circuit responded to Mrs. Padgett's appeal by 
carving out a very narrow exception. In a case like Mr. Padgett's, in 
which: (a) the veteran had appealed his claim all the way to the CAVC; 
(b) the CAVC issued its decision before it became aware that the 
veteran had died; and (c) the death occurred after all of the legal 
briefs had been filed with the CAVC so that there was nothing left to 
do but to issue a decision; then (d) the CAVC could keep its decision 
on the books by making it effective retroactive to the date of the 
veteran's death, and allow the surviving spouse to substitute for the 
veteran in the appeal before the CAVC.
    As a result of the Federal Circuit's decision, Mrs. Padgett quickly 
received over $50,000 in tax-free VA benefits--representing 12 years' 
worth of disability benefits for Mr. Padgett's hip disability. Because 
of the harsh rule that the claim dies with the claimant, most surviving 
family members of a veteran who dies while his claim is pending before 
the VA are not this lucky.
    A recent VA General Counsel Opinion, VAOPGCPREC 2-2007, held that 
the decision in Padgett would have no effect on an appeal pending 
before the BVA when a claimant dies. The General Counsel held that 38 
C.F.R. Sec. 20.1302 would require the Board to dismiss an appeal 
pending before the Board when the claimant dies--and survivors of a 
deceased claimant seeking accrued benefits at the Board level will 
still have to go to the ``back of the line''.
    Thank you for holding such an important hearing and allowing us to 
highlight some of the problems faced by survivors when a veteran or 
other claimant dies. I would be happy to answer any questions that you 
may have at this time.

                                 <F-dash>
 Statement of Jack McCoy, Associate Deputy Under Secretary for Policy 
    and Program Management, Veterans Benefits Administration, U.S. 
                     Department of Veterans Affairs
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify today on the important issue of survivors' 
benefits. Providing benefits for the surviving family members of our 
veterans is one of the core responsibilities of the Department of 
Veterans Affairs (VA). I am pleased to be accompanied by Mr. Thomas 
Lastowka, Director of VA's Philadelphia Regional Office and Insurance 
Center.
    VA provides a wide range of benefits to the surviving spouses, 
dependent children, and dependent parents of deceased servicemembers 
and veterans. We have experienced counselors ready to help survivors to 
understand the benefits to which they may be entitled and assist them 
in filing claims.
Casualty Assistance Program
    Veterans Benefits Administration (VBA) casualty assistance 
officers, positioned at each VA regional office, work closely with 
military casualty assistance officers. They visit survivors of 
servicemembers who die on active duty at a time appropriate for the 
family and assist them in applying for benefits. Information is 
provided about Dependency and Indemnity Compensation, Insurance 
benefits, Dependents' Educational Assistance, home loan guaranty 
benefits, and the availability of bereavement, vocational, and 
financial counseling services, as well as other benefits available 
through the Department of Defense (DoD) and the Social Security 
Administration.
    To ensure consistent delivery of services, VBA representatives at 
both the national and local levels provide training to newly assigned 
military casualty assistance officers to ensure accurate information 
about VA benefits is provided to survivors. VA, along with 
representatives from DoD and the various military service departments, 
serves on the Casualty Advisory Board. Through this strong working 
relationship, we are able to get information out quickly to all 
military casualty assistance officers to advise them of any changes in 
VA benefit programs or procedures.
Dependency and Indemnity Compensation
    Dependency and Indemnity Compensation (DIC) is paid to the 
surviving spouse, children, and parents of a servicemember who died in 
the line of duty in active service or a veteran who died after service 
as the result of a service-connected or compensable disability. Under 
certain circumstances, DIC is also paid to the surviving spouses and 
children of former POWs and other veterans who were totally disabled at 
the time of death, regardless of the cause of death, if the death was 
not the result of the veteran's own willful misconduct. We are 
currently paying this benefit to 328,000 survivors.
    The DIC application process has been streamlined for in-service 
deaths through use of a special worksheet, and claims processing has 
been centralized to the VA Regional Office in Philadelphia. The goal is 
to process all in-service death claims within 48 hours of receipt of 
all required documents. At the time of the initial visit, family 
members are in an acute stage of grief and are not always able to 
absorb and understand the full range of benefits available to them. To 
ensure that surviving spouses and children are aware of all benefits, a 
6-month follow-up letter is also sent reminding them of the benefits 
and services. A special brochure, VA Pamphlet 21-02-1, Benefits and 
Services for Survivors of Servicemembers Who Die on Active Duty, is 
given to survivors.
    Surviving spouses currently receive $1,067 a month, with additional 
amounts payable for children under the age of 18 or if the surviving 
spouse is in need of regular aid and attendance. A surviving spouse who 
has a child or children under the age of 18 and receives DIC is also 
entitled to a transitional benefit of $250 per month. The surviving 
spouse receives this additional benefit for 2 years after entitlement 
to DIC begins or until all of the surviving spouse's children have 
reached 18 years of age, whichever is earlier. Surviving spouses may 
continue to receive DIC benefits upon remarriage if the remarriage 
takes place after the spouse's 57th birthday.
    In partnership with the Department of Defense, VA established the 
Survivors' Group Forum to work with agencies and organizations that 
work directly with survivors to develop procedures and programs to 
improve assistance to this special group of beneficiaries. 
Representatives in this forum include Gold Star Wives, military 
department Casualty Assistance Program Managers, the National Military 
Family Association, military relief societies, the Tragedy Assistance 
Program for Survivors, and the Retired Enlisted Association. A special 
Survivors Benefits website was activated in 2005 to provide complete 
information to survivors and other interested individuals about 
benefits and services available to survivors.
Parents' DIC
    VA also pays DIC to parents of deceased veterans if the parents' 
income is below a certain amount. The maximum rate currently payable to 
a sole surviving parent is $524 per month. If a sole surviving parent 
is in need of aid and attendance to perform daily activities such as 
bathing, dressing, or eating, an additional amount is payable. The 
maximum monthly benefit in these cases is $808.
Death Pension
    If a veteran's survivors do not qualify for DIC because the veteran 
did not die in the line of duty in active service or after service as 
the result of a service-connected or compensable disability or was not 
totally disabled by a service-connected disability at the time of 
death, they may still be entitled to death pension. Eligibility for 
pension is based on financial need. The general requirement for this 
benefit is that the veteran had to have served at least 90 days in 
active service with at least one of those days occurring during a 
period of war, or at the time of death was entitled to receive 
compensation or retirement pay for a service-connected disability. The 
maximum death pension benefit is currently $7,329 per year for a 
surviving spouse with no child of the veteran in the spouse's custody, 
and $1,866 for a surviving child of a veteran not in the custody of a 
surviving spouse. An additional amount is payable if the surviving 
spouse who is entitled to pension is in need of aid and attendance.
Dependents' Educational Assistance (DEA)
    The Dependents' Educational Assistance program provides up to 45 
months of educational benefits to surviving spouses and dependent 
children of servicemembers who died on active duty; or, of veterans who 
died or became permanently and totally disabled as a result of a 
service-connected disability. These benefits may be used for degree and 
certificate programs, apprenticeship, and on-the-job training. 
Remedial, deficiency, and refresher courses may be approved under 
certain circumstances.
    The DEA program was recently expanded to include the child or 
spouse of a servicemember who is hospitalized or receiving outpatient 
treatment for a permanent and total disability. This change was 
effective December 23, 2006.
    In addition to biological children, step-children and adopted 
children are also eligible to receive DEA benefits, and a child's 
marriage does not affect his or her eligibility. A son or daughter may 
generally receive benefits under this program from age 18 to 26.
    Individuals receiving DEA benefits may also be eligible to receive 
tutorial assistance and work-study benefits from VA. The maximum 
monthly benefit for tutorial assistance is $100, and the maximum total 
benefit is $1200. Individuals participating in the work-study program 
are paid at either the Federal or state minimum wage, whichever is 
greater.
Educational and Vocational Counseling
    VA provides a wide range of vocational and educational counseling 
services to qualified family members. These services are designed to 
help an individual choose a vocational direction and determine the 
course needed to achieve a chosen goal. Assistance may include interest 
and aptitude testing, occupational exploration, and locating 
educational or training facilities that might be utilized to achieve an 
occupational goal.
Montgomery GI Bill (MGIB) Transfer of Entitlement
    Another option for spouses or children of servicemembers wishing to 
pursue an educational or vocational program is the MGIB Transfer of 
Entitlement Program. The Secretary of each military service has the 
sole discretion to determine if that service will offer the 
transferability of entitlement option.
    Each branch of service may establish its own requirements for 
transferring entitlement. A servicemember may transfer a maximum of 18 
months of Montgomery GI Bill entitlement to his or her dependents; 
however, a servicemember may not transfer more entitlement than he or 
she currently has remaining. Requests to transfer entitlement are 
handled by the appropriate branch of service, typically at the time of 
reenlistment. The death of an individual transferring an entitlement 
does not affect the use of the entitlement by his or her dependents.
Home Loan Guaranty
    The VA Home Loan Guaranty Program provides veterans the opportunity 
to become homeowners and assists them in retaining those homes in times 
of financial hardship. Unlike some other VA benefits, a veteran's 
family is not granted home loan benefits separate and apart from those 
provided to the veteran. However, an unmarried surviving spouse of a 
servicemember or veteran whose death was related to military service 
may qualify for home loan guaranty benefits in his or her own name.
    VA requires a servicemember or veteran obtaining a VA guaranteed 
loan to occupy the property as his or her home. However, when he or she 
is on active duty and cannot personally occupy the house, VA permits 
occupancy by the spouse to satisfy this occupancy requirement. Spouses 
receive the same supplemental servicing benefits available to veterans 
during times of financial hardship.
Burial Benefits (Headstones, Markers, Presidential Memorial 
        Certificates)
     VA is authorized to pay up to $2,000 to cover burial and funeral 
expenses in cases of service-connected deaths. VA also pays a burial 
allowance of $300 and a plot and interment allowance of $300 in cases 
where the veteran's death was not service-connected and the veteran was 
entitled to receive compensation or pension at the time of death, or 
died in a VA medical facility.
    In addition, VA provides burial in national cemeteries, burial 
flags and markers for the graves of deceased veterans, and a 
Presidential Memorial Certificate, which honors their memory.
Life Insurance
    VA's administered and supervised life insurance programs provide 
$1.1 trillion of coverage to nearly 7.3 million veterans, 
servicemembers, and their families. These programs, while providing 
coverage to servicemembers, veterans and their families, are actually 
benefits for survivors. The purpose of life insurance is to provide 
financial security for one's dependents--to bridge the gap between the 
financial needs of dependents and the amount available to them from 
other sources, to ensure that they are not burdened with debt following 
the insured's death. In fiscal year 2006, the VA Life Insurance 
programs paid $2.3 billion in death benefits to nearly 144,000 
beneficiaries.
Servicemembers' Group Life Insurance (SGLI)
    SGLI covers active duty servicemembers and reservists, including 
the Coast Guard and uniformed members of the Public Health Service and 
the National Oceanic and Atmospheric Administration. The SGLI 
participation rate is 98 percent for active duty servicemembers and 92 
percent for reservists (reservists called to active duty are included 
in the 98 percent active duty participation rate). From October 7, 2001 
through April 10, 2007, the SGLI program paid $1 billion to more than 
4,700 beneficiaries of servicemembers. An analysis of the beneficiaries 
who have received payment under the SGLI program indicates that 42 
percent of beneficiaries are parents, 28 percent are spouses, 10 
percent are children, and 10 percent are siblings.
Spousal Notification in the SGLI Program
    Under Public Law 109-80, effective September 1, 2005, the uniformed 
services are required to notify the spouses of servicemembers insured 
by SGLI of changes to coverage amount or beneficiary that were elected 
by the member in certain specified circumstances. These notifications 
inform spouses if the servicemember designated as the SGLI beneficiary 
someone other than the member's spouse or the member's children, or if 
the member elected less than the maximum available amount of coverage. 
Congress enacted this law for the protection of the member's immediate 
family.
Family SGLI (FSGLI) Program
    FSGLI is a program extended to the spouses and children of 
servicemembers insured under the SGLI program. FSGLI automatically 
provides up to a maximum of $100,000 of insurance coverage for spouses, 
and $10,000 for each child. While the premium rates for spouses are 
age-based, child coverage is provided at no cost to the member. Family 
SGLI provides $123 billion in coverage to more than one million spouses 
and more than two million children. Although Family SGLI expires 120 
days after certain life events, such as the servicemember's separation 
from service, spouses have the option to convert their coverage to a 
commercial policy. Child coverage cannot be converted.
Traumatic Injury Protection under Servicemembers' Group Life Insurance 
        (TSGLI)
    While TSGLI is paid directly to the servicemember, its intent was 
to provide financial help to families as well. TSGLI was designed to 
provide severely injured servicemembers who suffer certain losses as a 
direct result of a traumatic injury with monetary assistance to help 
the servicemembers and their families through what is often a long and 
arduous treatment and rehabilitation period.
Veterans' Group Life Insurance (VGLI)
    Upon separation, servicemembers can convert their SGLI coverage to 
VGLI, which provides lifetime renewable term coverage without proof of 
good health. This program guarantees that separating servicemembers can 
continue to provide financial security for their families following 
separation, even if they are disabled. Currently, 11% of servicemembers 
convert to VGLI.
Service-Disabled Veterans' Insurance (S-DVI) and Veterans' Mortgage 
        Life Insurance (VMLI)
    Two of our programs were designed specifically to provide life 
insurance coverage to service-disabled veterans, to ensure they can 
provide financial security for their families. The S-DVI program 
provides $10,000 in life insurance coverage to veterans with service-
connected disabilities, and an opportunity for the most severely 
disabled veterans to apply for an additional $20,000 in coverage. The 
VMLI program provides up to $90,000 in mortgage life insurance to 
recipients of VA's Specially Adapted Housing grant to lessen the 
financial burden of surviving family members.
Insurance Outreach
    Following separation from service, the Office of Servicemembers' 
Group Life Insurance (OSGLI) sends a series of three mailings to inform 
servicemembers about their opportunity to apply for VGLI. In addition 
to these mailings, since 2001 the VA Insurance staff has been 
conducting a special outreach effort to servicemembers who separate 
from service with a military disability rating of 50 percent or more. 
Staff members personally contact these veterans by phone or letter to 
ensure that they are fully informed about their post-separation life 
insurance benefits. As a result of our efforts, we have provided $333 
million in life insurance coverage and death benefits that otherwise 
may not have been provided.
Beneficiary Financial Counseling Service (BFCS)
    VA instituted BFCS in October 1999 to provide comprehensive 
personal counseling to SGLI, VGLI, and TSGLI beneficiaries on managing 
their finances to meet future needs, such as mortgage obligations, 
retirement savings, and college costs. Beneficiaries receive several 
notifications about the availability of this benefit following payment 
of the insurance claim.
Assistance in Filing Insurance Claims
    In the SGLI and Family SGLI programs, when a servicemember, spouse 
or child of a servicemember dies, the branch of service Casualty 
Assistance Office assists the beneficiary with filing a claim. It 
provides the beneficiary with the claim form, and certifies to OSGLI 
the amount of SGLI or Family SGLI coverage payable and, for SGLI, the 
designated beneficiary. In the TSGLI program, VA and military 
representatives assist wounded servicemembers who are hospitalized at 
major military medical facilities with their claims.
    The VA Insurance website (www.insurance.va.gov) has been available 
since mid-1999 and provides information on all VA Insurance programs 
including eligibility, how to file a claim, frequently asked questions, 
and forms.
    VA strives to get needed benefits as quickly as possible to the 
family members of deceased servicemembers or, in the case of TSGLI, to 
the servicemembers themselves, to help support them and their families. 
Data from this fiscal year indicate that SGLI and VGLI death claims are 
paid, on average, within four workdays of receipt of the required 
documentation. Claims on servicemembers who were killed in Operations 
Enduring Freedom and Iraqi Freedom are expedited and paid within 2 
workdays. TSGLI payments are paid within 4 days of OSGLI's receipt of 
the necessary documentation from the military branches of service.
    Mr. Chairman, this completes my statement. I will be happy to 
answer any questions you or other members of the Subcommittee may have.

                                 <F-dash>
     Statement of Peter S. Gaytan, Director, Veterans Affairs and 
               Rehabilitation Commission, American Legion
    Mr. Chairman and Members of the Subcommittee:
    Thank you for giving The American Legion the opportunity to submit 
its views on the topic of ``Helping Those Left Behind: Are We Doing 
Enough for the Parents, Spouses and Children of Veterans?''
    It should first be mentioned that there is nothing the nation can 
do to replace the lives of our heroes who fall as a result of their 
service to our country. Acknowledging this at the outset should set the 
tone of the discussion, that tone being one of profound gratitude, 
sorrow and respect for the servicemember and those they leave behind. 
Many words to that effect have been spoken in the past, the most well 
known probably being those words from President Lincoln's Second 
Inaugural Address which culminate in the words that have rightfully 
become the mission statement of the Department of Veterans Affairs 
(VA), ``to care for him who shall have borne the battle, and for his 
widow. and his orphan . . .'' The former, and less quoted section of 
that address is fulfilled by this Subcommittee's hearing today, ``With 
malice toward none, with charity for all, with firmness in the right as 
God gives us to see the right, let us strive on to finish the work we 
are in . . .''
    Whether a veteran dies as a result of war, or non-combat injuries 
incurred in service, America should remain steadfast in its goal to 
properly provide for and honor those who served by caring for those 
left behind. Caring for the parents, spouses and children of veterans 
is part of the continuing costs of war and the continual defense of 
freedom.
    The American Legion applauds the many VA programs currently in 
place for survivors including Dependency and Indemnity Compensation 
(DIC), Survivors' and Dependents' Educational Assistance (DEA), Death 
Pension, Work-Study Employment, Home Loan Guaranty, Burial Benefits 
(Headstones, Markers, Presidential Memorial Certificates), Vet Center 
Bereavement Counseling, Vocational Rehabilitation and Employment (VR&E) 
Services, and Education Program Refunds.
Improve the Disability and Death Pension Program
    After careful study, The American Legion has concluded that certain 
inequities exist in the pension program for survivors. Under the 
current Death Pension program, the annual benefit rate for a surviving 
spouse with no income and no dependents is $7,329 or about only two-
thirds of the amount received by a veteran with no income and no 
dependents. In addition, current regulations provide that surviving 
spouses are not entitled to pension benefits for the month in which the 
veteran dies, if they are found eligible for death pension. The 
American Legion recommends that pension rates of surviving spouses be 
established at 90 percent of the rate for a veteran without dependents 
and that spouses become immediately eligible to receive benefits the 
same month a veteran dies.
    Under the current Death Pension program, the annual benefit rate 
for a surviving child with no income where there is no surviving spouse 
is $1,866 or 17 percent of the amount received by a veteran with no 
income or dependents. This limited amount may impose a severe financial 
hardship on the surviving child or children. Under title 38, United 
States Code, section 1543 where the surviving child is residing with a 
person who is legally responsible for such child's support, the income 
and corpus of estate of that person is countable for the purposes of 
determining entitlement or continued entitlement to pension benefits. 
The American Legion recommends establishing the pension rate for a 
surviving child, where there is no surviving spouse, entitled at 90 
percent of the rate of a veteran without dependents and to delete the 
requirement that the income and corpus of estate of a person legally 
responsible for the support of a surviving child be counted in the 
determination of annual income of such child.
    Currently, when two veterans are married to one another where both 
meet the disability, service and income requirements, basic pension 
benefits are payable only at the rate of a ``veteran with one 
dependent,'' which is currently $14,313 annually. The American Legion 
believes that since each veteran in their own right meets the 
eligibility criteria for pension with the exception of being married to 
another veteran, this discriminatory provision of the law should be 
eliminated and each veteran should be paid at the basic pension rate of 
a single veteran without dependents which is $10,929, reduced by the 
amount of countable family income.
    In the determination of annual income, payments under all 
Government Life Insurance programs are countable, but proceeds from 
fire and casualty insurance policies may be excluded. Previous pension 
programs have excluded the proceeds of Government Life Insurance 
Policies in the determination of annual income. The American Legion 
recommends determination of annual income payments exclude all proceeds 
from Government Life Insurance policies.
    Finally, the effective date of reduction or discontinuance of 
pension based on a change of income is the last day of the month in 
which the change occurred. The American Legion believes it would lessen 
the financial hardship of such adjustments to pension if any such 
change would be made as of the last day of the calendar year in which 
the change occurred.
Restore and Increase Burial and Plot Allowance
    The National Cemeteries Act (Public Law 95-73) enacted in 1973 
established a burial allowance of $250 for eligible wartime veterans, 
and a $1,500 burial allowance for veterans who died of a service-
connected condition. The Omnibus Reconciliation Act of 1990 limited the 
payment of the burial plot allowance of $150, which was previously paid 
to all honorably discharged wartime veterans, to only those veterans 
who are indigent or who are in receipt of VA disability compensation or 
pension. Although there have been subsequent increases in the 
allowances, the infrequent incremental increases have meant that the 
current $300 burial plot allowance and respective $300 and $2,000 
burial allowances have not kept pace with inflation and increases in 
the cost of living throughout the years. Today in the United States, 
the average cost of a burial plot is more than $4,000, and with 
additional expenses, such as embalming and a casket, the total cost for 
a funeral and an in-ground burial, according to a survey of burial 
costs conducted by the American Association of Retired Persons (AARP), 
can easily reach $10,000.
    The American Legion urges Congress to make the following changes:

        1. Return the burial allowances and burial plot allowance to 
        all veterans who served during a time of war or conflict.
        2. Increase, from $300 to $1,135, the burial allowance for 
        veterans now eligible under 38 United States Code (USC) 
        Sec. Sec. 2302 and 2303.
        3. Increase, from $2,000 to $3,712, the burial allowance for 
        veterans who died as a result of a service-connected condition 
        as set forth in 38 USC Sec. 2307.
        4. Increase the burial plot allowance from $300 to $670.
        5. Require VA to annually adjust burial allowances and burial 
        plot allowance for inflation by tying the increased allowances 
        to the Consumer Price Index.
Reduce the Number of Years of 100 Percent Service Connection Required 
        for Dependency and Indemnity Compensation Purposes
    Title 38, United States Code, section 1318 provides that DIC shall 
be payable as if the veteran's death were service-connected, if at the 
time of death, the veteran has been rated continuously as totally 
disabled for a period of 10 years or more.
    The 10-year rule, although a longstanding policy, is an arbitrary 
length of time. It is intended to recognize the fact that the veteran's 
severe level of service-connected disability over a period of years has 
significant impact on the economic welfare and well-being of the 
veteran and his or her family. If this situation persists for 10 years 
or more and the veteran dies of any cause, the family will continue to 
receive VA financial assistance through the DIC program. However, many 
veterans in this disability category, because of age and general ill 
health, die of causes not directly attributable to their service-
connected condition before their total rating has been in effect for 10 
years. This can leave the family in dire economic circumstances.
    The American Legion seeks to protect the families of these severely 
service-disabled veterans by having the time limit for DIC entitlement 
reduced from 10 years to 5 years. Such a change would be consistent 
with the DIC policy currently in place for those continuously rated 
totally disabled from the date of military discharge for at least 5 
years immediately preceding death.
Eliminate the bar to DIC benefits of surviving spouses who remarry 
        after age 55.
    Public Law 108-83 provided that DIC benefits would not be 
terminated if the surviving spouse remarried at age 57. Congress used 
age 57 as a ``budget savings'' tool rather than opting for age 55. The 
American Legion and VA have supported legislation to remove the 
remarriage penalty for those surviving spouses aged 55 or older who 
would otherwise have been entitled to DIC. This would better align DIC 
benefits with benefits provided to surviving spouses of military 
retirees under the Department of Defense's Survivor Benefit Plan, which 
uses age 55, and to surviving spouses under Social Security, which uses 
age 60.
    The American Legion urges Congress to examine removing the bar on 
the payment of Dependency and Indemnity Compensation benefits to 
surviving spouses who remarry after age 55.
Eliminating the SBP/DIC Offset
    Survivors of a military retiree are sometimes entitled to both the 
DoD's Survivor Benefit Plan (SBP) and VA Dependency and Indemnity 
Compensation (DIC). SBP is similar to a life insurance program that is 
paid whether or not the death is service related. DIC is a flat rate 
monthly payment available only to the survivors of veterans whose death 
is service related. When survivors are eligible for both SBP and DIC, 
one dollar of SBP benefit is offset by every dollar of DIC benefit. 
There is a clear difference in structure and intent between the two 
programs, thereby making it unfair to offset the two programs.
    The American Legion urges this Subcommittee to work with the Armed 
Services Committee in eliminating the SBP/DIC offset.
    In conclusion, The American Legion believes that we, as Americans, 
need to continually update and improve on the way we ``[to] care for 
him who shall have borne the battle, and for his widow, and his orphan 
. . .'' Mr. Chairman and Members of the Subcommittee, I appreciate the 
opportunity to present The American Legion's view on this issue. This 
concludes my testimony.

                                 <F-dash>
   Statement of the Honorable Solomon P. Ortiz, a Representative in 
                    Congress from the State of Texas
    Mr. Chairman and Members of the Subcommittee:
    Last week, I introduced legislation (HR 1927) that provides relief 
for widows of U.S. service members in fixing a longstanding problem in 
our military survivors benefit system, by allowing widows to receive 
all the benefits to which they are entitled, without one benefit 
offsetting another. This affects 59,000 widows and is companion 
legislation to S. 935, introduced by Senator Bill Nelson (FL).
    Like most matters that involve Federal payments, this is a complex 
yet pivotal matter of importance to the widows and dependents of our 
service members. Essentially, if service members purchase a benefit 
plan, the surviving spouse or dependents receive up to 55% of the 
service member's retired pay. The VA also offers payments to survivors 
of service members who die from a service-connected cause. Currently 
the law subtracts the VA payment from the survivor benefits payment, 
and that's the amount the widow or dependent will get. That's just 
wrong.
    For too long, the painful offset between two programs has done 
precisely the opposite of what its purchasers intended it to do--
protect the surviving loved one. Where else is a personally purchased 
annuity program able to refuse to pay benefits based on the ground of 
another benefit being received? Nowhere. In fact, our Federal civil 
servants receive both their personally purchased income protection 
annuity and any disability compensation for which they may be entitled, 
without an offset.
    Why are the spouses and children of those who have made the 
ultimate sacrifice for their country forced to have their benefits 
reduced, solely based on a decision by their husband, wife, father or 
mother to purchase future security for their loved ones? Retirees' 
widows are being penalized for their husbands' efforts to care for them 
after they die. My legislation corrects this reduction of benefits by 
eliminating the offset. The survivors of those killed defending our 
country deserve our very best support.
    I urge this Subcommittee to support my legislation and work to 
correct these injustices to our military spouses and children this 
year. We owe it to them for the incredible sacrifices they have 
endured; it is our obligation to correct this wrong, and it is 
profoundly the honorable thing to do.

                                 <F-dash>
  Statement of Priscilla Piestewa, Flagstaff, AZ (Mother of Deceased 
                 Veteran and Guardian of Grandchildren)
    Mr. Chairman and Members of the Subcommittee:
    I am very honored and humbled to be able to have input into this 
topic. I'm sorry we won't be able to attend in person.
    In 1964 I met my husband. In 1965, he was drafted and served in 
Viet Nam. He came home in March 1967, and we married in November 1968. 
In December 1968, our oldest daughter was born. In March 1971, our son 
was born. In October 1978, our second son was born. In December 1979, 
our second daughter was born.
    As God blessed us with our children we made investments in them. 
They each made us proud in their own ways, and thus thanked us for the 
investment we made in them.
    Our youngest daughter joined the military and gave her life for us 
and our country. However, she left behind 2 children. We received her 
insurance money, and because we wanted to make life better for her 
children, we invested the money for them in their names.
    I'm not complaining because our grandchildren are very precious to 
us. However, my concern is that the children have to file and pay taxes 
on the money they receive, and on the interest they make on their 
investments. They are only 7 and 8 years old. Was the death of their 
mother not payment enough?
    A monthly check for the children is issued to us in the amount of 
$649.00, which we invest in the children's activities:

----------------------------------------------------------------------------------------------------------------
          Tae Kwon Do                    $200.00 (monthly)
          Piano Lessons                  $130.00 (monthly)
          Gymnastics                     $79.00 (monthly)
          Wrestling                      $69.00 (seasonal)
          Softball                       $95.00 (seasonal)
          Baseball                       $95.00 (seasonal)
          Schooling                      $6,000.00 (yearly)
------------------------------------------------------------------------

    We are retired and live on our retirement pensions, and as my 
husband would say, like so many others we live pay day to pay day.
    Their mother gave her life, and we are grateful for the support we 
do get, but why do the children have to pay taxes.
    My husband and I are fortunate we can invest in and support our 
grandchildren, but I know that there are others who find it hard to 
make ends meet.
    Thank you in advance for any other assistance you can give. It will 
be greatly appreciated.
                               __________

 The Forgotten Families: Grandparents Raising Slain Soldiers' Children 
    Are Denied A Government Benefit Intended to Sustain the Bereaved

                          By Donna St. George

                      Washington Post Staff Writer

                         February 16, 2007, A01

    Her daughter was killed by a bomb in Iraq. Eight months later, 
Susan Jaenke is both grief-stricken and strapped--behind on her 
mortgage, backed up on her bills and shut out of the $100,000 
government death benefit that her daughter thought she had left her.
    The problem is that Jaenke is not a wife, not a husband, but 
instead grandmother to the 9-year-old her daughter left behind. 
``Grandparents,'' she said, ``are forgotten in this.''
    For the Jaenkes and others like them, the toll of war can be 
especially complex: They face not only the anguish of losing a son or 
daughter but also the emotional, legal and financial difficulties of 
putting the pieces back together for a grandchild.
    They confront this without the $100,000 ``death gratuity'' that 
military spouses ordinarily get--a payment intended to ease the 
financial strain as families await government survivors' benefits.
    ``It really does get complicated for them,'' said Joyce Raezer of 
the National Military Family Association. The load of responsibilities 
placed on that generation--both during deployment and if a service 
member is injured or killed--``is a huge issue.''
    The case of Petty Officer 2d Class Jaime S. Jaenke, a Navy 
construction-battalion medic killed last June in Anbar province, is 
particularly striking because she was a single parent who clearly meant 
to assign her mother the benefit. Jaenke, 29, filled in her mother's 
name on a form and carefully spelled out her wishes in a letter.
    But by law, the $100,000 benefit goes first to a spouse or a child. 
So 9-year-old Kayla Jaenke collects the $100,000--plus $400,000 in life 
insurance--after she turns 18, leaving Susan Jaenke to ask, ``What 
about the next nine years?``
    In some other families, the $100,000 death benefit has gone to 
neither the children nor the grandparents who are raising them.
    In California, Barbie and Matt Heavrin are caring for a 2-year-old 
grandson without the death gratuity or life insurance. Their daughter, 
Pfc. Hannah McKinney, assigned her $400,000 in life insurance to the 
man she wed just before deployment, her father said; by law, her 
husband also received the gratuity.
    The Heavrins are happy to raise the boy--from an earlier 
relationship their daughter had--but wonder why he would get nothing. 
Five months after their daughter died last September, their only 
assistance is monthly benefits they expect will total about $800, most 
of which goes to day care.
    In Missouri, grandmother Gail Kriete is raising 9-year-old Taylor 
Purdy, the child of Lance Cpl. Erik R. Heldt, a Marine killed in Iraq 
in June 2005. His wife collected the full $500,000. Kriete said none 
went to his daughter, from a previous relationship.
    ``It just needs to be thought out a little more carefully,'' Kriete 
said. ``There are so many blended families that the suffering is very 
spread out.''
    The death gratuity, more than many other benefits, adheres to a 
strict next-of-kin rule, which Pentagon officials say makes it possible 
to pay out the $100,000 within a few days. They say that, in the ``vast 
majority of cases,'' spouses are most in need when paychecks stop.
    But there have been thousands of single parents deployed into 
combat zones since 2001. How many have died at war is unclear, but the 
Jaenke case shows that, in those cases, the benefit may be at odds with 
its original intent: to help the grieving family stay afloat when a 
service member's income suddenly stops.
    Susan Jaenke said her family fell behind shortly after Jaime died--
and has never caught up.
    Larry Jaenke is a truckdriver, and Susan worked as a letter carrier 
for 23 years until an accident left her disabled. Their daughter Jaime 
and granddaughter Kayla lived with them. Susan provided child care when 
Jaime worked, and Jaime contributed to the family income.
    Jaime's passion for horses led the Jaenkes to start a business with 
her on their 10-acre Iowa property. When Susan Jaenke got an insurance 
settlement from her accident, she put much of it toward building a 
horse stable on the property, which was Jaime's dream. Jaime--energetic 
and skilled with power tools--did the drywall and flooring.
    Not long afterward, Jaime--a reservist who was an emergency medical 
technician in her civilian life--went to war.
Unable to Make Ends Meet
    It was a June afternoon last year, and the Jaenkes were returning 
from Kayla's softball game. She had made her team's only hit--and her 
first hit ever. In a celebratory mood, they stopped to buy ice cream.
    When they pulled into their driveway, the scene was one that no 
parent of a deployed soldier wants to see: two uniformed Navy men, 
waiting.
    They soon learned that a roadside bomb had exploded near Jaime's 
Humvee, killing her and a fellow Seabee.
    At the funeral, Kayla stood solemn next to her mother's flag-draped 
casket, the folded flag laid into her small arms.
    Then came the dawning of the family's new reality--the emotional, 
the practical, the financial.
    There was a lawyer to hire to get legal guardianship. There were 
survivors' benefits to apply for. There was a trust to set up. There 
was health insurance to obtain for Kayla. Inexplicably, there was no 
official will left behind.
    For the Jaenkes, the trouble was not that raising Kayla is so 
expensive but that their entire financial picture shifted with Jaime's 
death. Jaime's checks immediately stopped. Larry Jaenke was out of work 
for a time. The family paid $2,800 for a handsome headstone. The stable 
was still losing money.
    Last fall, Susan Jaenke watched as Jaime's pickup truck, and then 
her car, were repossessed.
    The family scraped by, thanks to acts of kindness, Susan Jaenke 
said. When the Jaenkes' dryer broke, nearby Seabee units stepped up to 
replace it. The Seabees have come three times to do finishing work on 
the stable, which Susan Jaenke says she will not give up. Kayla is 
there all the time, she said, and giving it up would be like losing 
what is left of Jaime.
    The local Veterans of Foreign Wars gave the family a $1,000 Target 
gift card, which she said made the family's Christmas.
    Since October, the Jaenke family has been collecting monthly 
government benefits for Kayla's care--$1,700 in all--but not enough to 
replace Jaime's contributions. From Iraq, she had been sending home 
$3,200 a month, her mother said. The child's father, long estranged, 
does not pay child support, Susan Jaenke said.
    The Jaenkes can request money from Kayla's trust for certain 
expenses related to the girl's ``health, education, maintenance and 
welfare,'' but the process involves lawyers and court appearances. The 
court recently agreed to a $200 monthly stipend for the family.
    ``The court is just very conservative here in Iowa,'' said Mona 
Bowden, an attorney for the Jaenkes.
Clear Wishes, Clear Rules
    Every now and then, Susan Jaenke rereads the letter that Jaime left 
behind for her:
    ``I have got all my paperwork done and here is what I did. My big 
policy [$400,000] goes to Kayla. That has to be put away for when she 
gets 18. You will know what to do and how to handle it. There is a 
smaller policy that goes to you. That is for 100,000. That is for you 
to raise Kayla with and 25,000 goes to the barn. . . . I can't wait to 
get home to my girl and my horses, so you had better take care of them 
all.''
    Patrick J. Palmersheim, executive director of the Iowa Department 
of Veterans Affairs, explained that the problem came down to the fine 
print on death gratuities. Jaime had written in her mother's name as 
beneficiary, but in the same blank the form said ``No spouse or child 
surviving.''
    Susan Jaenke could be awarded the benefit only if there were no 
spouse or child to receive it.
    The tight regulations are meant to guard against fraud and abuse, 
said Chief Petty Officer Randy Erdman, the Navy casualty assistance 
officer who has worked closely with the Jaenke family. ``I see the need 
for the money going to the right spot and being protected,'' he said, 
``but at the same time I see what the family needs.''
    In Washington, Lt. Tommy Crosby, a Navy spokesman, said the Navy 
``recognizes the significant loss the family has suffered'' and has 
done all it can, within the law, to help.
    The death gratuity, created in 1908, originally was equal to 6 
months' pay and was intended to ease financial burdens after a military 
death.
    During the war in Iraq, the gratuity was increased markedly; it had 
been at $6,000, then grew to $12,000 and finally $100,000. Lawmakers 
had said the original award seemed offensively low, especially in 
contrast to the large settlements awarded to families of those killed 
in the attacks of Sept. 11, 2001.
    Still, there was little rethinking about beneficiaries for the 
$100,000 gratuity, several experts said. To troops, the large lump sum 
came to resemble life insurance, said Raezer, chief operating officer 
of the National Military Family Association.
    Jaime's handwritten letter and possibly her form suggest she did 
not realize the gratuity could not go to her mother.
    Whether that is because she misunderstood what was said during a 
benefits briefing or was not advised well is unclear. ``They don't 
always get that kind of counseling that they need,'' Raezer said.
    The problem could have been avoided altogether if Jaime had 
directed part of her life insurance money, rather than the death 
gratuity, to her parents.
    Steve Strobridge, government relations director of the Military 
Officers Association of America, said Jaenke's case suggests that the 
regulations should be reexamined.
    ``We certainly need to look at whether there needs to be some 
additional flexibility in who the member can assign the death gratuity 
to and whether we need to adjust the counseling requirements to help 
protect people from unintended consequences,'' he said.
    In her three-bedroom house in Iowa, Susan Jaenke said she has been 
reduced to worrying about grocery money and dreading calls from 
creditors. ``It just hurts bad in so many different directions,'' she 
said. ``My girl was supposed to come back.''
    Some days, the whole episode overwhelms her. Three of her four 
children have served in the Navy, and she said she considers herself 
``a flag waver.'' But she gets angry that her daughter's wishes are not 
being honored and that the family now struggles.
    ``It's not bad enough that I lost my daughter,'' she said. ``What 
else do they want me to lose?``

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Kayla Jaenke's mother, Jaime, was killed in Iraq last June. The Navy 
 medic wanted a death benefit to go to her parents, but it cannot. (By 
                  Linda Davidson--The Washington Post)

                              ----------                              

 Help Needed: Grandparents Raising the Children of Fallen Soldiers, By 
                Carole Fleck, AARP Bulletin, April 2007

                            By Carole Fleck

                             AARP Bulletin

                               April 2007

    Army Pfc. Hannah McKinney's young son, Todd, and new husband were 
waiting for her to come home from Iraq last September. But just weeks 
before they were to be reunited, McKinney, 20, was killed in action. 
Now her parents, Barbie and Matt Heavrin of Redlands, Calif., are 
raising 2-year-old Todd, McKinney's child from a previous relationship. 
``Some days I'm overwhelmed with sadness thinking about Hannah,'' says 
Barbie Heavrin. Despite the emotional devastation, grandparents and 
other relatives who are left to raise a loved one's child don't get the 
financial support from the government that a surviving parent would.
    The Heavrins are rearing their grandson without the benefit of the 
$100,000 ``death gratuity'' the government gives to next-of-kin--
defined as spouse or child--to offset the financial burden when a 
service member is killed. Nor did the Heavrins, who have been rearing 
Todd since their daughter's deployment to Iraq, receive the $400,000 
from group life insurance in which soldiers are automatically enrolled. 
McKinney had chosen her husband of less than a year as the beneficiary 
of both, despite the fact that he was not living with or caring for the 
toddler.
    ``You have an awful lot of grandparents who are care givers while 
their children are deployed,'' says Kathleen Moakler of the National 
Military Family Association in Alexandria, Va. Of the 3,131 soldiers 
killed in Iraq as of Feb. 3, a total of 143 were single parents, 
according to the U.S. Defense Department.
    To assist caregivers in these situations, Congress is considering 
legislation that would allow some or all of a soldier's death gratuity 
to go to the children's grandparents or other guardians.
    ``The death benefit system overlooks that people other than spouses 
would take care of a minor should the unthinkable happen,'' says James 
Carstensen, spokesman for Rep. Tom Latham, R-Iowa, who introduced the 
legislation along with Sen. Chuck Hagel, R-Neb.
    ``We need this legislation passed,'' says Susan Jaenke of Iowa 
Falls, Iowa, who cares for her granddaughter, Kayla, 9. Jaenke's 
daughter, who was a single parent, died in Iraq, and Jaenke didn't 
receive the death benefits--they're set aside for Kayla to collect when 
she's 18.
    ``I'm having trouble making ends meet,'' Jaenke says. ``It's pretty 
scary.''

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
